No. _____
IN THE

Supreme Court of the United States
DONNA CORBELLO,
Petitioner,
v.
FRANKIE VALLI, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

GREGORY HARRIS GUILLOT
Counsel of Record
GREGORY H. GUILLOT, P.C.
2626 Cole Ave., Suite 300
Dallas, TX 75204
(972) 888-6072
gregory@guillot-law.com
Attorney for Petitioner

April, 2021
PRESS OF BYRON S. ADAMS g WASHINGTON, D.C. g 1-800-347-8208

i
QUESTIONS PRESENTED
1. Whether the century-old equitable doctrine of
copyright estoppel, which states that, once a work has
been held out to the public as entirely factual, an
author-plaintiff cannot later claim it is actually fiction,
and entitled to the higher protection accorded fictional
works, may be invoked to deny protection to original
expression in an unpublished biography, for which no
such public claims have been made.
2. Whether the Ninth Circuit’s newly-adopted
“asserted truths doctrine,” which: modifies copyright
estoppel by rejecting its equitable basis; is grounded,
instead, in U.S. Const. art. 1, § 8, cl. 8; and, denies
protection to narrative expression and original dialogue
in unpublished historical works, in addition to facts and
ideas, conflicts with the purposes of the Copyright
Clause, the Copyright Act of 1976, and this Court’s
decisions in Harper & Row, Publrs. v. Nation Enters.,
471 U.S. 539 (1985), and Feist Publ’ns, Inc. v. Rural Tel.
Serv. Co., 499 U.S. 340 (1991); encroaches upon an
author’s right of first publication; and departs from
traditional principles of equity unduly.
3. Whether the Ninth Circuit’s decision, in holding
that an author’s first written account of his own prior
remarks, and subjective characterizations of public
figures are unprotected by copyright, directly conflicts
with this Court’s decisions in Harper & Row and Feist.
4. Whether paraphrasing and adapting original
expression from an unpublished biography infringes
copyright unless excused by fair use.

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner, Donna Corbello, was the plaintiff in
the district court and appellant in the court of appeals.
Respondents Frankie Valli, Robert J. Gaudio,
Marshall Brickman, Eric S. Elice, Des McAnuff,
Michael S. David, DSHT, Inc., FKA Dodger Stage
Holding Theatricals, Inc, Dodger Theatricals, Ltd., JB
Viva Vegas, LP, Jersey Boys Broadway Limited
Partnership, Skunk, Inc., and Getting Home, Inc., were
defendants in the district court and appellees in the
court of appeals.
RULE 29.6 NOTATION
Petitioner is an individual, with no parent
corporation, stock, or shareholders.
RELATED PROCEEDINGS
There are no other proceedings in any court that
are directly related to this case.

iii
TABLE OF CONTENTS

QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW. . . . . ii
RULE 29.6 NOTATION . . . . . . . . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS. . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 7
A.
B.
C.
D.
E.

Factual Background . . . . . . . . . . . . . . 7
District Court Proceedings . . . . . . . . 19
The First Appeal . . . . . . . . . . . . . . . . 20
Proceedings Upon Remand . . . . . . . . 21
The Ninth Circuit’s Decision . . . . . . 23

REASONS FOR GRANTING THE WRIT . . . . . . . 25

iv
I.

The Ninth Circuit’s Newly-Adopted “Asserted
Truths Doctrine” Departs from Traditional
Principles of Equity; Decides Important
Questions of Federal Law Which Should Be
Settled By This Court; and Conflicts with
Relevant Decisions of Other Circuits and This
Court. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
A.
The Purposes of Copyright Law,
Traditional Contours of Copyright
Protection, and the First Amendment
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
B.
The Equitable Doctrine of Copyright
Estoppel. . . . . . . . . . . . . . . . . . . . . . . 28
C.
The Ninth Circuit’s “Asserted Truths
Doctrine,” and Its Constitutional,
Statutory, and Common Law Defects
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
1.
The Asserted Truths Doctrine’s
Treatment of Dialogue Creates a
Conflict with the Tenth Circuit and
Tensions with This Court. . . . 34

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDICES
APPENDIX A
Ninth Circuit Opinion
(Sept. 8, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B
District Court Opinion
(Jun. 13, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . 33a

v
APPENDIX C
District Court Opinion
(Nov. 17, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . 80a
APPENDIX D
District Court Opinion
(Sept. 29, 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 84a
APPENDIX E
Ninth Circuit Opinion in Earlier Appeal
(Feb. 10, 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 120a
APPENDIX F
Ninth Circuit Order Denying Rehearing
(Nov. 13, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 152a
APPENDIX G
Statutory Provisions Involved . . . . . . . . . . . . . . . 153a
17 U.S.C. § 101. . . . . . . . . . . . . . . . . . . . . . 153a
17 U.S.C. § 102. . . . . . . . . . . . . . . . . . . . . . 155a
17 U.S.C. § 106. . . . . . . . . . . . . . . . . . . . . . 156a
17 U.S.C. § 107. . . . . . . . . . . . . . . . . . . . . . 157a
17 U.S.C. § 204. . . . . . . . . . . . . . . . . . . . . . 158a
17 U.S.C. § 501. . . . . . . . . . . . . . . . . . . . . . 158a

vi
TABLE OF AUTHORITIES
Cases:
American Tobacco Co. v. Werckmeister, 207 U.S. 284
(1907) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Arica Inst., Inc. v. Palmer, 970 F.2d 1067 (2d Cir. 1992)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Bonito Boats v. Thunder Craft Boats, 489 U.S. 141
(1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Cooley v. Penguin Grp. (USA) Inc., 31 F. Supp. 3d 599
(S.D.N.Y. 2014), as corrected (July 14, 2014) . . . . 32
Corbello v. DeVito, 2015 U.S. Dist. LEXIS 132726 (D.
Nev. September 29, 2015) (unreported). . . . . . . . . . 1
Corbello v. DeVito, 2016 U.S. Dist. LEXIS 184860 (D.
Nev. November 17, 2016) (unreported) . . . . . . . . . . 1
Corbello v. DeVito, 262 F.Supp. 3d 1056 (D. Nev. 2017)
.......................................... 1
Corbello v. DeVito, 777 F.3d 1058 (9th Cir. 2015) . . 1
Corbello v. Valli, 974 F.3d 965 (9th Cir. 2020) . . . . 1
Davies v. Bowes, 209 F.53 (S.D.N.Y. 1913) . . . . . . 30
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388 (2006)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
Effie Film, LLC v. Pomerance, 909 F. Supp. 2d 273
(S.D.N.Y. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Eldred v. Ashcroft, 537 U.S. 186 (2003). . . . . 4, 26, 27
Feist Publ’ns, Inc. v. Rural Tel. Serv. Co., 499 U.S. 340
(1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 3, 7, 25, 28
Golan v. Holder, 565 U.S. 302 (2012). . . . . . . 4, 25-27
Greenbie v. Noble, 151 F. Supp. 45 (D.N.Y. 1957)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Harper & Row, Publrs. v. Nation Enters., 471 U.S. 539
(1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 3-7, 25-28
Harris v. Miller, 50 U.S.P.Q. 306, (S.D.N.Y. 1941)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Houts v. Universal City Studios, Inc., 603 F.Supp. 26
(C.D. Cal. 1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Hughes v. Fox Broad. Co.,2007 U.S. Dist. LEXIS
117783 (W.D. Mo. Oct. 10, 2007) . . . . . . . . . . . . . . 31
Jacobsen v. Deseret Book Company, 287 F.3d 936 (10th
Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7, 35
Marshall v. Yates, 1983 U.S. Dist. LEXIS 12305 (C.D.
Cal. Oct. 26, 1983) . . . . . . . . . . . . . . . . . . . . . . . . . 31
Nash v. CBS, Inc., 691 F. Supp. 140 (N.D. Ill. 1988)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

viii
Nester's Map & Guide Corp. v. Hagstrom Map Co., 796
F. Supp. 729 (E.D.N.Y. 1992) . . . . . . . . . . . . . . . 29, 31
Pac. Gas & Elec. Co. v. Pub. Utils. Com., 475 U.S. 1
(1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Petrella v. Metro-Goldwyn-Mayer, Inc., 572 U.S. 663
(2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 33
Salinger v. Random House, Inc., 811 F.2d 90 (2d Cir.
1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Suid v. Newsweek Magazine, 503 F. Supp. 146 (D.D.C.
1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Weinberger v. Romero-Barcelo, 456 U.S. 305 (1982)
.......................................... 3
Wooley v. Maynard, 430 U.S. 705 (1977) . . . . . . . . 27
Constitution:
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . 2, 4, 26
U.S. Const. art. 1, § 8, cl. 8. . . . . . . . . . . i, 4, 5, 24, 26
Federal Statutes:
17 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
17 U.S.C. § 102(b) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
17 U.S.C. § 106(3) . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ix
17 U.S.C. § 107 . . . . . . . . . . . . . . . . . . . . . . . . 4, 27, 28
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Copyright Act of 1976, Pub. L. No. 94-553, 90 Stat. 2541
(1976) (codified at 17 U.S.C. §§ 101, et seq.) . . . . . . 2
Other Authorities:
1 Nimmer on Copyright § 2.11(c). . . . . . . . . . . . . . 29
1-2 Nimmer on Copyright § 2.11[C] . . . . . . . . . . . . 32
Sup. Ct. R. 29.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
William F. Patry, 2 Patry on Copyright § 4:8 (Sept.
2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

1
Petitioner respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals is reported at
974 F.3d 965, and reproduced in Appendix (App.) A.
(App. 1a-32a). The opinion and order of the district
court, vacating three of five verdicts, and entering
judgment as a matter of law, is reported at 262 F.Supp.
3d 1056, and reprinted in Appendix B. (App. 32a-79a).
An earlier order of the district court, entering
judgment as a matter of law for two respondents, is
unreported, but available at 2016 U.S. Dist. LEXIS
184860, and reproduced in Appendix C. (App. 80a-83a).
A previous opinion by that court is unreported, but
available at 2015 U.S. Dist. LEXIS 132726, and
reprinted in Appendix D. (App. 84a-119a).
The earlier opinion of the court of appeals cited
in the judgment is reported at 777 F.3d 1058, and
reproduced in Appendix E. (App. 120a-151a).
JURISDICTION
The judgment of the court of appeals was
entered on September 8, 2020. (App. 1a). A petition for
panel rehearing and rehearing en banc was denied on
November 13, 2020, by the order reproduced in
Appendix F. (App. 152a). On March 19, 2020, this
Court, by general order, extended the deadline to
petition for a writ of certiorari to 150 days from the
date of the lower court judgment, or order denying a

2
timely petition for rehearing. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article 1, Section 8 of the United States
Constitution provides, in relevant part: “[The Congress
shall have Power . . . ] To promote the Progress of
Science and useful Arts, by securing for limited Times
to Authors and Inventors the exclusive Right to their
respective Writings and Discoveries . . . .” U.S. Const.
art. I, § 8, cl. 8.
The First Amendment to the United States
Constitution provides, in pertinent part: “Congress
shall make no law . . . abridging the freedom of speech
. . . .” U.S. Const. amend. I.
The relevant provisions of the Copyright Act of
1976, as amended, Pub. L. No. 94-553, 90 Stat. 2541
(1976) (codified at 17 U.S.C. §§ 101, et seq.), are
reprinted in Appendix G. (App. 153a-158a).
INTRODUCTION
The Ninth Circuit’s decision in this case,
involving unlicensed appropriations of expression from
an unpublished autobiography, for the stageplay,
Jersey Boys, not excused by fair use, creates and
deepens division among the circuits concerning: the
scope of copyright protection in historical and factual
narratives, and extent to which expressive language in
such works may be copied, paraphrased, or adapted to

3
disseminate underlying facts; the treatment of fictional
elements in otherwise factual works, including
reconstructed or fictitious dialogue in biographical
memoirs; and, the extent to which an author’s right of
first publication protects against appropriations of
expression in unpublished memoirs, when fair use does
not apply. The decision also directly conflicts with this
Court’s decisions in Harper & Row, Publrs. v. Nation
Enters., 471 U.S. 539 (“Harper & Row”) and Feist
Publ’ns, Inc. v. Rural Tel. Serv. Co., 499 U.S. 340
(“Feist”), by denying copyright protection to expression
held protected in Harper & Row, and expression
satisfying the constitutional and statutory “originality”
requirement elucidated in Feist.
Most of these conflicts flow from the Ninth
Circuit’s adoption of a newly-coined principle of federal
common law for this case: the “asserted truths
doctrine,” which is triggered by an author’s assertions
within or concerning a work that its accounts are
truthful, and then treats its expression, including
narratives about facts, as unprotectable fact, excluded
from copyright. Though inspired by the century-old
equitable doctrine of “copyright estoppel,” stating that,
once a work has been held out to the public as entirely
factual, an author-plaintiff cannot later claim it is
actually fiction, and entitled to the higher protection
accorded fictional works, the asserted truths doctrine
materially differs from copyright estoppel in rationale
and application. First, it rejects the equitable
underpinnings of copyright estoppel entirely, despite
this Court’s warnings against departures from long
traditions of equity practice, e.g., Weinberger v.
Romero-Barcelo, 456 U.S. 305, 320 (1982), and is

4
grounded instead in the Copyright Clause, as a means
of promoting the “Progress of Science.” Second, there is
no requirement that its triggering assertions be made
“to the public,” and unlike copyright estoppel, the
asserted truths doctrine applies to unpublished works.
Third, while copyright estoppel may preclude an
author-plaintiff from claiming an account is fictitious,
it does not place narrative expression in the public
domain. The asserted truths doctrine can, and did in
this case.
These differences alter the traditional contours
of copyright protection in ways reserved for Congress,
see Eldred v. Ashcroft, 537 U.S. 186, 212-213 (2003),
shifting the delicate balance Congress struck between
the rights of authors in their original expression, and
public access to their works. Id. The Copyright Act
accommodates First Amendment rights through the
idea/expression dichotomy and fair use, Golan v.
Holder, 565 U.S. 302, 327-29 (2012), including the
negative free speech rights embodied in the right of
first publication, which gives authors exclusive control
over their works while grooming them for public
dissemination, and the right to choose when, how, and
whether to publish. Harper & Row, 471 U.S. at 554555, 560. Under this scheme, original expression is
protected, before and after publication, subject only to
fair use. Id. at 548; 17 U.S.C. § 107. The asserted truths
doctrine subverts this, by reclassifying provably
original expression as fact, and permitting its
appropriation from unpublished works without fair use.
Moreover, it does so based on an objective under the
Copyright Clause that Congress did not select.

5
The equitable nature of copyright estoppel may
permit its limited interventions, to avoid unfairness in
a particular case. See Petrella v. Metro-Goldwyn-Mayer,
Inc., 572 U.S. 663, 688 (2014) (Breyer, J., dissenting).
But the Ninth Circuit’s asserted truths doctrine has no
equitable foundation, not only raising questions
regarding its authority, but also producing inequitable
and conflicting results. Here, statements in a draft,
unpublished manuscript, which had not been fully
vetted and edited for publication, or even formally
approved by its co-author/subject; was maintained in
confidence; had not been spoken of publicly; and, was
appropriated through deception, produced a judgment
that the work is “entirely true,” and a drastic,
“estoppel-type” remedy, without the misconduct for
which such estoppel is normally imposed.1 The court
used the doctrine to eliminate half of the similarities
considered; hold that the work’s subjective portraits of
real persons are unprotected, conflicting with this
Court’s contrary holding in Harper & Row, 471 U.S. at
563; and rule that reconstructed and fictitious dialogue
in biographical works is unprotected, placing the Ninth
Circuit in conflict with the Tenth,2 and in tension with
this Court’s treatment of an author’s first written
account of his own prior remarks. Id. at 566, n. 8.
These outcomes thwart the national uniformity
that is a primary purpose of the Copyright Clause.
1

Indeed, the subject statements may never have
appeared in the published text, or, may have been prefaced by a
disclaimer.
2

See Jacobsen v. Deseret Book Co., 287 F.3d 936, 947
(10th Cir. 2002).

6
Bonito Boats v. Thunder Craft Boats, 489 U.S. 141, 162
(1989). And no court in any other circuit has adopted
this doctrine, or applied copyright estoppel, its sibling,
in this way.3 Only this Court can resolve the circuit
conflict, enforce its prior decisions, and clarify whether
either “asserted truths” or copyright estoppel may be
invoked against unpublished works.
The Ninth Circuit’s decision also squarely raises
long-elusive issues concerning the scope of copyright
protection for historical narrative works, including
whether they are protected against paraphrasing and
adaptation, as well as the verbatim copying proscribed
in Harper & Row. Most remaining similarities between
the respective works which the lower court held did not
concern protected elements of petitioner’s work, were
dismissed on grounds that they involved only “ordinary
phrases.” But closer examination reveals that more was
taken, even where only short phrases were reproduced
verbatim. These larger passages should be protected
where they display, “as a whole, a sufficient degree of
creativity as to sequence of thoughts, choice of words,
emphasis, and arrangement . . . .” Salinger v. Random
House, Inc., 811 F.2d 90, 98 (2d Cir. 1987).

3

Notably, had the asserted truths doctrine, or the Ninth
Circuit’s construction of copyright estoppel, been applied in
Harper & Row, the outcome would have differed. President
Ford’s unpublished memoir was held out as entirely factual,
promising “‘significant hitherto unpublished material’ concerning
the Watergate crisis, Mr. Ford's pardon of former President
Nixon and ‘Mr. Ford's reflections on this period of history, and
the morality and personalities involved.’” Harper & Row, 471
U.S. at 542. Yet, copyright estoppel was not applied, and its
expression was protected, even against fair use.

7
These issues are not novel; are of tremendous
importance to authors and publishers of expressive
nonfiction works, and the need for guidance has long
been noted,4 including by the Court itself. In Harper &
Row, this Court acknowledged that “in the realm of
factual narrative, the law is currently unsettled
regarding the ways in which uncopyrightable elements
combine with the author’s original contributions to
form protected expression.” 471 U.S. at 548. Later, in
Feist, it provided a partial clarification: “no one may
claim originality as to facts,” which “do not owe their
origin to an act of authorship,” 499 U.S. at 347, but
factual compilations may be entitled to “thin”
protection for a compiler’s original selection and
arrangement of facts. Id. at 349. But the scope of
protection for more expressive factual works, including
“elegantly written biographies,” Harper & Row, 471
U.S. at 563, remains uncertain. This case is an ideal
vehicle for resolving that uncertainty at last, and the
petition for certiorari should be granted.
STATEMENT OF THE CASE
A.

Factual Background

1. Petitioner is the widow of Rex Woodard, an
attorney, author, and fan of the Four Seasons, who died
in May 1991. Shortly before his death, in January 1991,
Woodard completed a “rough manuscript” about the
group, and its co-founder, Tommy DeVito (“the Work”),

4

E.g., Jacobsen, 287 F.2d at 948 (noting, concerning the
paraphrasing of expression in biographies, that “the Supreme
Court has not settled this issue.”).

8
under an agreement entered with DeVito in 1988 for
his autobiography. The agreement provided Woodard
would do “all of the actual writing,” based on taped
interviews and “any other relevant information that
would benefit the book,” but the two would be “shown
as co-authors,” and DeVito would have “exclusive
control over the final text.” CA9 Br. 3-4.5 The Work is
a 275-page, first-person narrative, in DeVito’s “voice,”
with 222 pages devoted to the Four Seasons. Id. at 4.6
In late-1990, before completing the Work,
Woodard wrote prospective publishers, providing an
outline. The “pitch” was that the Work would reveal
the group’s previously undisclosed ties to organized
crime, and criminal histories for certain band members,
including DeVito, who had lied about their ages in the
1960's to appeal to teens, and conceal “missing years”
spent in prison. Id.; ER10844-10860. The letters
requested “discretion,” because “key individuals” in the
Work “remain unaware of its existence,” and did not
include copies of the Work itself. ER10846; CA9 Rep.
Br. 15-16. When this failed to generate interest,
Woodard contacted two prospective literary agents, in
late-January 1991, and sent both copies of the Work,
but each declined; returned the copies; and Woodard
died shortly thereafter. CA9 Br. 4; ER10874-10879.

5

Docket entries in Ninth Circuit Appeal No. 17-16337
are cited “R__.” References to petitioner’s Opening Brief, at R491, are cited “CA9 Br. __.” References to her Reply Brief, at R107,
are cited “CA9 Rep. Br. __.” References to petitioner’s Excerpts of
Record in the lower court are cited “ER__.”
6

The cover page for the draft manuscript read, “Untitled
Tommy DeVito/Four Seasons Biography.” ER12001.

9
Petitioner inherited Woodard’s rights in the
Work, and continued to seek a publisher after his
death, with his sister, Cindy Ceen, using the same form
letter Woodard had employed. Mrs. Ceen dispatched 10
such letters over a 12-to-13-year period. The number
petitioner sent is uncertain, but many were
misaddressed and “returned to sender,” because she
used an outdated address list that Woodard had
prepared. CA9 Rep. Br. 16. None included copies of the
Work. These efforts were unsuccessful, and the Work
remains unpublished. CA9 Br. 4.
Few were aware of the Work, or Woodard’s
authorship thereof during his lifetime, and neither he,
petitioner, nor Mrs. Ceen made public statements
regarding it before this action was filed. Nor did DeVito
discuss the Work publicly, or make public claims of
truthfulness. ER10443-10444. Like Woodard, DeVito
considered the Work a draft that was “never finished,”
CA9 Br. 5, and, he had not approved its “final text” per
the 1988 agreement, which was one of several barriers
to petitioner’s publication of the Work in its existing
form. In fact, in 2005, through his attorney, DeVito
rebuffed Mrs. Ceen’s renewed attempts to elicit his
cooperation, telling her the Work was “not saleable.”
(App. 4a).
DeVito registered the Work with the Copyright
Office in January 1991, shortly before Woodard’s death,
but solely in his name, without advising Woodard. The
deposit copy for his application was the manuscript
typed by Woodard’s secretary, but the title page
differed, and Chapter 41 was missing page 264 (App.
40a), which included harsh criticisms of Frankie Valli.

10
ER13048. (See also App. 5a). On July 3, 2007, the
registration was corrected, adding Woodard as coauthor and co-claimant. Id.; CA9 Br. 4.
2. Contrary to foundational assertions in the
Ninth Circuit’s decision, the Work, as registered with
the Copyright Office; used by respondents; and shown
to the jury, does not include the cited representations of
truthfulness on which the decision is based. The only
page of the Work where the words, “a complete and
truthful chronicle of the Four Seasons” (App. 4a, 21a)
appear, and the cited references to DeVito’s “candor”
(App. 4a), is page 264 – the page missing from the Work
as registered by DeVito and petitioner. See ER13048.7
This page was also missing from the “Defendants’
Copy” of the Work, see infra, p. 14, and respondents did
not see it. ER5549. Consequently, the district court
withheld it from the jury, permitting jurors to review
only the registered version in Trial Exhibit 15. ER55495551; ER1412.8
Moreover, the Work is not entirely factual, due,
in part, to the circumstances surrounding its creation.
Although DeVito provided interviews to Woodard, and

7

The decision states this appears “[a]t the outset of the
Work” (App. 4a), but it is eleven pages from the end.
8

The Prologue quotes from a mailgram sent to DeVito
upon his induction into the Rock and Roll Hall of Fame, and
DeVito wonders whether he would have received it, if “they knew
the whole story.” ER12002. It may be inferred that this is a
reference to his criminal history, rather than a claim that the
Work is “entirely true,” and it is not cited as an assertion on
which the decision is based.

11
taped stories for the Work, he had little familiarity
with the manuscript, because he did no “actual
writing,” and Woodard died so soon after completing
his draft. At his deposition, used as his trial testimony,
DeVito admitted the Work was not something he had
read numerous times;9 knew little about its structure
or content; and, denied making statements the Work
recounts, which would later surface in Jersey Boys.
CA9 Br. 5; ER5002. The Work was never vetted, lineedited, or groomed for publication, CA9 Br. 5, and
includes errors, as well as fictional accounts. CA9 Br. 67; CA9 Rep. Br. 33-34.
Woodard also invented dialogue, as is customary
for such works, according to a former editor of Time
magazine at trial. Id. A notable example concerns the
Four Seasons’ hit, “Walk Like a Man.” CA9 Br. 5-6. In
Woodard’s interview with DeVito about the song,
DeVito said he liked the music, but “couldn’t
understand the lyric,” explaining:
I thought that was . . . the winner right there.
Walk Like a Man itself, I don't know. You know,
I'm saying, Walk Like a Man, Walk Like a Man.
Whoever said the saying Walk Like a Man?
Nobody. I never heard anybody say Walk Like a
Man, you know? Or act like a man or something
else, but not Walk Like a Man. Or have I been
walking like a girl lately?

9

DeVito’s primary exposure to the manuscript occurred
during a cross-country drive, when his wife read it aloud in the
car. ER5046-5047.

12
ER6379. In the Work, Woodard transformed these
feelings into an exchange with Gaudio, which never
actually occurred:
“What's the name of your new hit, Bobby?”
“Walk Like A Man.” “Walk Like A Man? As
opposed to what -- like a woman?” “No, no,”
explains Gaudio defensively, “the song is
directed to teenage boys who need to walk and
talk like men.” “In other words, instead of like
girls?” “No! Instead of like boys. This song is
going to serve as an anthem for every teenage
boy who has let some girl twist him around her
little finger!”
CA9 Br. 5-6, 19; CA9 Rep. Br. 26.10 Woodard also
invented dialogue for the Work’s accounts of a faked
murder in Valli’s car, and the band’s induction into the
Rock Hall of Fame. CA9 Br. 6. And, the Work contains
“internal dialogue” in which the thoughts of DeVito and
others are quoted or described. Finally, it includes
DeVito’s subjective descriptions of himself and others,
including Valli, Gaudio, actor Joe Pesci, Valli’s first
wife Mary, and Four Seasons member, Nick Massi. Id.
Respondents Valli and Gaudio have also
confirmed numerous fictions in the Work, including
stories about DeVito’s intercession with a probation
officer at the behest of Valli’s mother, when Valli was
10

The Ninth Circuit’s decision incorrectly states that the
parties do not dispute this conversation actually happened. (App.
31a). That has always been disputed, including by DeVito, who
testified he had no recollection of it, and did not even know what
“anthem” means. CA9 Br. 6.

13
arrested as a teen; Valli’s performances with the
Variety Trio, for which the Work claims he knew only
one song; and Gaudio’s depiction as a naive virgin at an
orgy thrown by a record company. CA9 Br. 6-7.
A compendium of fictional and erroneous
accounts in the Work, with additional examples,
appears in Volume 41 of petitioner’s Excerpts of Record,
at ER10436-10441.
3. In 1999, DeVito and Nick Massi signed an
agreement with Valli/Gaudio for a stageplay based on
the Four Seasons. The agreement conveyed rights in
their names, likenesses, “biographies,” and other
“materials,” including derivative works rights. But it
also included a reversionary clause, under which these
conveyances were withdrawn, if the first producer’s
contract lapsed, and an agreement with a second was
not executed within a specified period of time. The
parties stipulated at trial that these rights did revert
to DeVito, on December 10, 2004. CA9 Br. 8. Because
neither DeVito nor Valli/Gaudio believed the
agreement covered the Work, of which Valli/Gaudio
were not yet aware, the rights conveyed were never
exercised before the lapse. Id. at 8-9.11
In mid-2003, the proposed Four Seasons play
still remained undeveloped, despite efforts that had
begun in 1999. But by early-2004, talks had became
more serious between writers, Rick Elice and Marshall
Brickman, director Des McAnuff, and producer Michael

11

The facts in this paragraph are relevant only to an
understanding of the first Ninth Circuit appeal.

14
David, and McAnuff suggested that the existing,
highly-fictionalized “treatment” for the play, called “Oh
What a Night!,” be replaced with an attempt to relate
the band’s history. All agreed, and the play was
reconceived between January and April 2004. CA9 Br.
9-10.
4. McAnuff also suggested that they contact
DeVito, which Brickman did on January 19, 2004.
During this conversation, DeVito expressed concern
about the way his friend, mobster, Ray DeCarlo, might
be portrayed in the play; told Brickman of the Work;
and offered to lend him a copy, so he could “flip through
it” for information about DeCarlo’s relationship with
DeVito’s family. But DeVito insisted that Brickman use
it only for that purpose; return it immediately; not
share it with anyone, including Elice; and not copy or
circulate it. At deposition, Brickman testified he was
aware of these restrictions. At trial, he backtracked,
calling DeVito “naive” if he thought Elice would not see
the Work. CA9 Br. 11.
Shortly before the Work arrived, McAnuff
scheduled the inaugural planning meeting for the play
– “a day in front of a bulletin board with index cards,”
to “start constructing an outline” – and he appointed
Elice to copy from the Work. ER4358-4360, 10960.
When delivered, between January 23 and January 27,
2004, Brickman gave it to Elice, who made copies,
keeping one, ER13071 (“the Defendants’ Copy”),
sending McAnuff another, and returning the original to
Brickman for DeVito, who was unaware of this copying.
Elice then mined the Work, marking almost 100 pages,
and writing notes, such as, “That’s a scene!,” and

15
“Scene,” in the margins. He also copied the Work’s
verbiage onto notecards for the planning meeting, and
the cards were used to structure and organize the play.
CA9 Br. 12-13.
On January 28, 2004, as early as one day
following his receipt of the Work, Elice created a “First
Scene Idea for Marshall” for the reconceived play,
dominated by verbatim copying and close paraphrasing
from its pages. For example, the “First Scene Idea”
adopts the Work’s descriptions of Valli’s early
performances, including the falsity that he knew only
one song. The Work states, “it’s the only song he
knows,” and “Frankie never receives a penny for
working with us,” while the First Scene portrays Valli
stating, “It’s the only song I know, as bandmate Nick
echoes, “it’s the only song he knows,” adding, “We’re not
paying you one penny.” The First Scene states, “Owner
says we set a house record, gives us a fat bonus,” from
the Work’s “The owner tells us . . . we’ve set a number
of crowd attendance records. He rewards us with a fat
bonus. The Work refers to the song “My Mother’s Eyes”
as “a real tear jerker,” while the First Scene calls it,
“the tear jerker.” The First Scene recites, “The kid is
desperate,” from the Work’s: “Frankie desperately
wants to get into the group.” Elice conceded this was
not “coincidental” – he admittedly copied from the
Work. ER4347-4348, ER4353-4354. CA9 Br. 14.
On February 6, 2004, McAnuff’s assistant wrote
Brickman, requesting a copy of the “Tommy DeVito
biography/transcript,” and Brickman’s response showed
his intent to violate the restrictions DeVito had
imposed:

16
[T]here's a 300 p. typescript of an unpublished
memoir of Tommy deVito & someone else given
to us by Tommy with the request that it not be
circulated. Des [McAnuff] has a copy. On
Monday we'll see about duplicating it . . . .
ER6712. Copies were made and provided to the
dramaturge, actors, choreographer, music director, and
prospective producer; excerpts were recited during
“table readings” for the cast; and, excerpts were used
for auditions, because no script had yet been prepared.
Meanwhile, because DeVito’s copy had been promptly
returned, he believed Brickman had abided by his
instructions. CA9 Br. 14-15.12
On February 13, 2004, the writers produced an
outline called “the Thing,” which was the “starting
point” for the new story that replaced “Oh What a
Night!,” and came to be known as Jersey Boys. It, too,
copied extensively from the Work, as shown in these
two examples:
The Thing: “They puff on cigarettes and dare
anyone to mess with them. They think they are
cool beyond belief” (ER10320)
The Work: “We puff on cigarettes and dare
anyone to mess with us. We are fourteen and
cool beyond belief.” (ER13076).

12

The Ninth Circuit’s decision omits any reference to
DeVito’s restrictions, instead portraying him as having given the
Work to the “writers” and “developers of the play” to use for
research. (App. 5a, 24a).

17
The Thing: “Bob is totally humiliated and
disgraced” (ER10342)
The Work: “Bob mutters, ‘I have never been so
humiliated and disgraced in my life.’” ER13217.
CA9 Br. 16.
5. Although Jersey Boys is filled with dialogue
from all four members of the Four Seasons, including
Valli, and Gaudio, as quoted above in The Thing, both
Valli and Gaudio have testified that they provided no
dialogue for the play. Gaudio testified that he provided
no dialogue, because “God knows, who can be specific
about what happened 40 years ago? Specifically what
was said. It's . . . dramatic license.” ER8811,
ER4473-4474. Valli also provided no dialogue. ER3783.
CA9 Br. 18. Thus, it may be inferred that where
dialogue appears in Jersey Boys that also appears in
the Work, the Work was the source, and as evidenced
by the recorded interviews between Woodard and
DeVito, Woodard was sometimes that source, rather
than DeVito himself.
6. The inaugural planning meeting, with
whiteboard, and notecards bearing expression from the
Work; the marked-up Defendants’ Copy, with Elice’s
annotations regarding “scenes” to include in Jersey
Boys; the “First Scene Idea for Marshall;” and “The
Thing,” were the earliest steps in an ongoing
appropriation extending through every outline and
draft script for the play. The Work was copied, not only
for these earliest treatments, but also for more
substantial outlines, dated March 11, ER10359; March

18
19, ER8663; and April 7, 2004, ER8735; complete draft
scripts dated May 28, ER8830, and July 7, 2004,
ER10471-10475; and, the final performance scripts for
the play, in La Jolla, where it debuted; on Broadway;
and in cities throughout the world. Certain outlines
and draft scripts were also used to greenlight the
production, or obtain approvals for the next phase of
development. CA9 Br. 18. Finally, Elice admitted that
he coped from the Work, or from notecards with its
verbiage, for the earliest treatments, and later outlines;
that such material carried into succeeding drafts; and,
that he undertook no effort to remove it from the final
scripts. CA9 Br. 16, 17, 19. For these reasons,
petitioner maintains that Jersey Boys is a derivative
work, based, in part, on the Work.
Petitioner’s expert, Richard Krevolin, whose
area of expertise is adaptation, has testified that “at
least thirty percent of the play . . . is attributable to the
Work,” after accounting for the music and other
creative elements,” CA9 Br. 64; ER10741, and his
report, which identifies all known similarities between
the Work and each landmark outline, draft script, and
final script for Jersey Boys, traces the adaptive process,
and appears in the record at ER7301-7466.
7. McAnuff’s pre-litigation interviews, including
a podcast, stated that, upon reading the Work, which
he described as “delicious,” “beyond description,” he
was “smitten,” and, “As soon as I read this material, I
went, ‘This is a story that really needs to be told.’” Elice
wrote that the Work provided the “guiding premise for
the entire musical,” while acknowledging that “another
individual” besides DeVito “probably did most of the

19
‘writing.’” ER10260; CA9 Br. 15. And, in an interview
with the Los Angeles Times, McAnuff and Elice
identified the line in Jersey Boys, “We weren’t a social
movement like the Beatles,” as a major theme of the
play, that runs through all of the songs, saying: “That’s
the moment in the show that people in the audience
thank us for, that blue-collar speech.” And, this themeestablishing dialogue was admittedly paraphrased from
the Work’s statement: “the Beatles come to represent
a whole social movement. We never aspire to be more
than entertainers.” CA9 Br. 19; ER3969; ER13234.
Upon learning of these and other public
statements by respondents, reading about the play;
speaking with Woodard’s sister, who saw it; and,
investigating the registration status of the Work, and
learning it was registered to DeVito alone, petitioner
filed suit.
B.

District Court Proceedings

Petitioner sued DeVito in Texas in 2007, for
declaratory relief, breach of contract, and equitable
accounting. The case was transferred to Nevada in
2008, and petitioner’s operative Third Amended
Complaint included actions against DeVito, and the
writers, director, and producers of Jersey Boys. for
declaratory relief, equitable accounting, foreign
infringement, and direct and secondary infringement,
in the alternative. (App. 5a-6a); CA9 Br. 26-27.13

13

Besides the copying of protected expression from the
Work for the final Jersey Boys production, the complaint included
actions for the intermediate copying in draft scripts used to

20
Petitioner ultimately settled with DeVito, who is not a
respondent in this appeal. (App. 5a-6a); CA9 Br. 31.
The district court issued summary judgments
adjudicating most of the claims. (App. 6a). First, it
declared that the Work is a “joint work,” under 17
U.S.C. § 101; Woodard and DeVito were co-authors and
co-owners thereof; and petitioner and DeVito are the
current co-owners, each holding an undivided 50%
share. (App. 6a, 51a). Second, it denied petitioner’s
accounting claims against respondents, holding that
the 1999 agreement for the play was not a transfer of
copyright. CA9 Br. 27. However, it ruled that the
agreement did convey a “selectively exclusive license”
to Valli/Gaudio, which foreclosed petitioner’s U.S. and
foreign infringement claims, and issued judgments
releasing all respondents except DeVito from the case.
Id. (App. 6a, 125a). Petitioner appealed. CA9 Br. 27.
C.

The First Appeal

On February 10, 2015, the Ninth Circuit
reversed, holding that the 1999 agreement was an
assignment to Valli/Gaudio of DeVito’s share in the
right to prepare derivative works based on the Work,
but that fact issues remained for trial regarding
whether the agreement lapsed under the reversionary
clause discussed supra, p. 13. The court further held
that DeVito did not grant respondents an implied
license to use the Work. (App. 120a-151a, 6a).

greenlight the production; the distribution of copies of the Work;
and unlicensed conveyances of rights therein. CA9 Br. 15-20, 6364, 22-24; CA9 Rep. Br. 12, 29.

21
D.

Proceedings Upon Remand

On remand, the district court revived, and
granted in part, a motion for summary judgment on
petitioner’s infringement claims, dismissed as moot
before the appeal. First, it held the Work is entitled to
only “thin” protection against “virtually identical”
copying.” (App. 109a-112a, 116a). Then, adjudicating
similarities between the works based on two “bulletlists” in Mr. Krevolin’s 148-page report (App. 113a117a); ER10593, the court: (1) applied copyright
estoppel, without using the term, to exclude over 100
similarities from consideration, including 22 involving
fictitious and erroneous matter (App. 114a-117a);14 (2)
dismissed other similarities as the copying of “ordinary
phrases” (App. 114a-117a); (3) held that DeVito’s
characterizations of real persons are “not protected by
copyright” (App. 115a, n. 5); and (4) treated dialogue as
“historical fact.” (App. 114a-117a).15 The order left only
four similarities for trial (App. 116a) under a “virtual
identity” standard for infringement.16
The trial commenced in October 2016. Before
trial, the parties stipulated that the 1999 agreement

14

The court examined 68 similarities involving the La
Jolla production, and 90 involving the Broadway production.
15

A chart, showing the court’s disposition of these
similarities appears at ER7856.
16

Petitioner moved for reconsideration, but the motion
was denied. ER7885; ER782. Petitioner also moved to certify the
order for interlocutory appeal, but the motion was denied.
ER7595; ER736.

22
lapsed, ER657, eliminating the accounting claims
against respondents, and leaving only infringement
claims for trial. During the trial, the court expanded
the number of similarities the jury could consider, but
only from four to twelve, CA9 Br. 34; prohibited
petitioner from arguing that Jersey Boys is a derivative
work, or from mentioning “adaptation” in front of the
jury, id. at 37; rejected petitioner’s claims concerning
the draft scripts, CA9 Rep. Br. 10-12; and denied
petitioner’s request for an instruction that
“combinations of unprotectable elements” may be
entitled to copyright protection. Id. at 30-31. Finally, on
November 16, 2016, at the conclusion of petitioner’s
case, the court granted JMOLs for Valli/Gaudio on
direct and secondary liability for infringement. CA9 Br.
37-38.
Despite these obstacles, on November 28, 2016,
the jury found that: (1) Jersey Boys infringes the Work;
(2) DeVito did not grant an implied license to
respondents; (3) respondents’ uses were not fair; (4)
10% of Jersey Boys’ success is attributable to
respondents’ infringements; and, (5) respondents were
liable for direct infringement. CA9 Br. 39.
Following the verdicts, the district court granted
respondents’ renewed motion for JMOL on fair use, and
motions for new trial on implied license and
apportionment. But the court denied motions for JMOL
on other grounds, and left the infringement verdicts
intact (App. 79a), noting: “[t]here was evidence adduced
at trial of direct copying and more than de minimis use”
(App. 74a), and “the jury could have properly found
that the average audience familiar with the Work

23
would recognize the protected, copied portions in the
Play.” (App. 75a). Petitioner again appealed.
E.

The Ninth Circuit’s Decision

The Ninth Circuit affirmed the district court’s
judgments, but solely on alternate grounds; namely,
that Jersey Boys does not infringe the Work. (App. 3a).
Limiting its review to the twelve similarities identified
for the jury by the district court, the court of appeals
held that six pertain to unprotectable elements of the
Work, because they are “historical,” “ordinary phrases”
or “scenes a faire” (App. 14a-18a), and the remainder
are barred by an analogue of copyright estoppel, coined
the “asserted truths doctrine.” (App. 19a-32a).
With respect to the initial six, the Ninth Circuit
first held that the Work’s characterizations and
descriptions of DeVito cannot be “original,” because
“DeVito is not a fictional character,” and “a character
based on a historical figure is not protected.” (App.
14a). The court also held unprotectable the Work’s
expression that the Four Seasons, unlike the Beatles,
did not represent a social movement, but instead were
merely entertainers, stating the Work is not likely the
first to describe the Beatles as a social movement, and
calling the phrase “all but inevitable” in the expression
of that idea. (App. 16a-17a). Finally, the court held that
using “time machine” to describe the feelings of a
former band member at a reunion, is both scenes a
faire, and an unprotectable ordinary phrase. (App. 18a).
The decision does not mention the other dialogue
copied for this scene and asserted by petitioner, and
words such as “paraphrase” and “adapt” are absent

24
from its text.
For the remaining similarities, the Ninth Circuit
unveiled its “asserted truths doctrine,” ostensibly
derived from the doctrine of copyright estoppel, which
the decision references. (App. 12a, 19a). But the
decision expressly “rejects” that terminology, and the
underlying equitable rationale (App. 23a), grounding
the doctrine in the Copyright Clause instead. According
to the court, it would hinder the progress of science to
permit a copyright owner to spring an infringement
suit on subsequent authors who “built freely” on a work
held out as factual. (App. 20a-21a). Moreover, the
decision rejects the notion that copyright estoppel
requires publication, or public representations of
truthfulness, before it may be invoked (App. 22a), and
suggests that any such requirement rests on the
detrimental reliance and culpability concepts connected
to the now-rejected “estoppel” terminology. (App. 23a).
Finally, the decision announces that the asserted
truths doctrine “applies not only to the narrative but
also dialogue reproduced in a historical nonfiction work
represented to be entirely truthful.” (App. 24a).
Based on this doctrine, and the court of appeals’
belief that the Work promises a “complete and truthful
chronicle of the Four Seasons,” see supra, p. 10, the
Ninth Circuit held that the Work’s account of Valli’s
introduction to Mary, and characterizations of her, are
not protectable, whether or not fictitious (App. 27a);
that the account of DeVito’s childhood intercession on
behalf of a young Valli upon his arrest, is unprotectable
fact (App. 27-28); that the characterization of Gaudio at
a “Roman Orgy,” and dialogue attributed to him at the

25
event, are also unprotected asserted truths; and that
the dialogue Woodard wrote for the “Walk Like a Man”
recording session and faked murder in Valli’s car, now
reside in the public domain, despite the fact that the
Work remains unpublished. Finally, it led to the
judgment entered on September 8, 2020, which leaves
little protectable expression in the Work.
The Ninth Circuit denied rehearing
November 13, 2020, and this petition followed.

on

REASONS FOR GRANTING THE WRIT
I.

The Ninth Circuit’s Newly-Adopted
“Asserted Truths Doctrine” Departs from
Traditional Principles of Equity; Decides
Important Questions of Federal Law Which
Should Be Settled By This Court; and
Conflicts with Relevant Decisions of Other
Circuits and This Court.
A.

The Purposes of Copyright Law,
Traditional Contours of Copyright
Protection, and the First Amendment

The primary purpose of copyright law is to
promote the progress of science and useful arts, and
increase, rather than impede, the flow of knowledge.
Feist, 499 U.S. at 349-350; Harper & Row, 471 U.S. at
545; Golan, 565 U.S. at 324. However, as this Court
cautioned in Harper & Row, sufficient deference must
be accorded the “scheme established by the Copyright
Act for fostering the original works that provide the
seed and substance of this harvest.” 471 U.S. at 545-

26
546. The Framers intended copyright to be the “engine
of free expression,” id. at 558, by rewarding individual
authors to benefit the public, and “[t]his principle
applies equally to works of fiction and nonfiction.” Id.
at 546 (citation omitted). “It is fundamentally at odds
with the scheme of copyright to accord lesser rights to
those works that are of greatest importance to the
public.” Id. at 559. Establishing “a marketable right to
the use of one’s expression” supplies the economic
incentive to create and disseminate ideas. Golan, 565
U.S. at 328. And “copyright assures those who write
and publish factual narratives . . . that they may at
least enjoy the right to market the original expression
contained therein as just compensation for their
investment.” Harper & Row, 471 U.S. at 556.
It is for Congress, not the courts to decide how
best to pursue the Copyright Clause’s objectives, and
Congress has been assigned the task of defining the
scope of rights that should be granted to authors, to
provide appropriate access to their work product.
Eldred, 537 U.S. at 212-213. The Copyright Clause
empowers Congress to determine the intellectual
property regimes which, “in its best judgment, will
serve the ends of the Clause.” Golan, 565 U.S. at 325.
And, that “delicate balance” is struck in the Copyright
Act.
The traditional contours of copyright protection
consist of of the “idea/expression dichotomy” and the
“fair use” defense, id. at 328, both of which also serve as
“built-in First Amendment accommodations.” Eldred,
537 U.S. at 219. The idea/expression dichotomy is
codified at 17 U.S.C. § 102(b), which provides: “In no

27
case does copyright protec[t] . . . any idea procedure
process, system, method of operation, concept,
principle, or discovery, described, explained,
illustrated, or embodied in [the copyrighted] work.”
Due to this dichotomy, “every idea, theory, and fact in
a copyrighted work becomes instantly available for
public exploitation at the moment of publication: the
author’s expression alone gains copyright protection.”
Golan, 565 U.S. at 328 (citing Eldred, 537 U.S. at 219).
This permits the free communication of facts while still
protecting an author’s expression. 565 U.S. at 329;
Harper & Row, 471 U.S. at 556.
The second traditional contour, “fair use,”
codified at 17 U.S.C. § 107, “allows the public to use not
only facts and ideas contained in a copyrighted work,
but also [the author’s] expression itself in certain
circumstances.” Golan, 565 U.S. at 328.
The Copyright Act also accommodates negative
free speech rights -- the countervailing First
Amendment interest in “freedom of thought and
expression [that] ‘includes both the right to speak
freely and the right to refrain from speaking at all.”
Harper & Row, 471 U.S. at 559 (quoting Wooley v.
Maynard, 430 U.S. 705, 714 (1977)). See also Pac. Gas
& Elec. Co. v. Pub. Utils. Com., 475 U.S. 1, 32-33 (1986)
(Rehnquist J, dissenting). This is accomplished through
the right of first publication, codified at 17 U.S.C. §
106(3), under which, a copyright owner has the right to
control the first public distribution of of his or her
work. Id.
Prior to the current Copyright Act, the right of

28
first publication was secured by common law copyright
– “the property of an author . . . in his intellectual
creation [was] absolute until he voluntarily [parted]
with the same.” Harper & Row, 471 U.S. at 551 (citing
American Tobacco Co. v. Werckmeister, 207 U.S. 284,
299 (1907). Today, that absolute control is tempered
somewhat by the fair use doctrine, which, since the
1992 amendment to 17 U.S.C. § 107, has been the
method designated by Congress for making lawful,
unlicensed use of an unpublished work. Id. Still, this
court has recognized what every author surely knows
– that “[t]he period encompassing the work's initiation,
its preparation, and its grooming for public
dissemination is a crucial one for any literary
endeavor.” Harper & Row, 471 U.S. at 554=555.
“The sine qua non of copyright is originality,”
Feist, 499 U.S. at 345, and it is a “constitutional
mandate.” Id. at 346.”Original” means only that the
work was independently created by the author, and
that it possesses at least some minimal degree of
creativity. Id. The requisite level of creativity is
extremely low; even a slight amount will suffice.” Id. at
i340. But no one may claim originality as to facts,
because facts do not owe their origin to authorship –
they are discovered, rather than created. Id. at 347
Under this scheme, original expression is
protected, before and after publication, unless fair use
applies. Id. at 548; 17 U.S.C. § 107.
B.

The Equitable Doctrine of Copyright
Estoppel

29
Although the Court has not previously addressed
this issue, it is not surprising, given the traditional
contours of copyright, and the constitutional mandate
of originality, that many lower courts follow the
general rule that: “fictional elements, or fictionalized
versions of factual elements, of an otherwise factual
work, are protectable under copyright law.” E.g., Houts
v. Universal City Studios, Inc., 603 F.Supp. 26, 28 (C.D.
Cal. 1984) (citing 1 Nimmer on Copyright § 2.11(c)). See
also Effie Film, LLC v. Pomerance, 909 F. Supp. 2d 273,
297 (S.D.N.Y. 2012).17 Absent a countervailing
equitable doctrine, this seems unavoidable. Such
expression would be “original,” and thus protected,
subject only to fair use.
Copyright estoppel is an exception to this
general rule. Under the doctrine of copyright estoppel,
once a plaintiff's work has been held out to the public
as entirely factual, the author-plaintiff cannot then
claim that the work is, in actuality, fiction and thus
entitled to the higher protection allowed to fictional
works. Nester's Map & Guide Corp. v. Hagstrom Map
Co., 796 F. Supp. 729, 733 (E.D.N.Y. 1992); Houts, 603
F.Supp. at 28. See also William F. Patry, 2 Patry on
Copyright § 4:8 (Sept. 2015) (“Where plaintiff has
previously asserted his or her work is “entirely factual”
. . . plaintiff should be estopped from later claiming to
the contrary . . . . Having deceived the public . . .
plaintiff should not later reap the benefit from a

17

See also Greenbie v. Noble, 151 F. Supp. 45, 65 (D.N.Y.
1957) (fictionalizing events and incidents in life of historic figure
protectable); De Acosta v. Brown, 146 F.2d 408, 409 (2d Cir.
1944) (original treatment of historic character).

30
contrary position.”).
The earliest known decision applying the
doctrine is Davies v. Bowes, 209 F.53 (S.D.N.Y. 1913),
in which an author-plaintiff who had published an
article in the newspaper, was not permitted to later
claim in a litigation that it was fiction. The court held:
“it is a matter of morals that he who puts forth a thing
as verity shall not be heard to allege for profit that it is
fiction.” Id. at 55. The court noted that “it was printed
as news; it was presented to the public as a matter of
fact and not of fiction; [and] the readers of the Sun
were invited to believe it . . . .” 209 F. at 55. Although
the words “copyright estoppel” were not employed, the
essential elements of the doctrine were present. Most
of the cases refer to a representation made “to the
public;” most indicate that the work must be
represented to be “entirely true,” and in every instance,
the dispute involves a published work. Never in the
history of U.S. jurisprudence has copyright estoppel
been applied to an unpublished work.
The Ninth Circuit avers that petitioner’s
assertion that copyright estoppel may be applied only
to published works, or works for which “public”
representations have been made, “has no basis in either
the case law or the doctrine of copyright law.” (App.
23a), and states that the phrase, “to the public”
appeared in only one unpublished case the court
reviewed. (Id.). But most copyright estoppel cases do
include such verbiage, and every such case involves
either a work that was published, or a public
representation regarding a work. E.g., Arica Inst., Inc.
v. Palmer, 970 F.2d 1067, 1075 (2d Cir. 1992)

31
(“expressly represented to the world”); Hughes v. Fox
Broad. Co.,2007 U.S. Dist. LEXIS 117783, *25-27 (W.D.
Mo. Oct. 10, 2007) (“to the public”); Marshall v. Yates,
1983 U.S. Dist. LEXIS 12305, *6-7 (C.D. Cal. Oct. 26,
1983) (“presented to the public as a non-fiction work”);
Nash v. CBS, Inc., 691 F. Supp. 140, 142 (N.D. Ill. 1988)
(“held out to the public as factual”); Nester’s Map &
Guide Corp., 796 F. Supp. at 731 (“held out to the
public as factual”); Oliver v. Saint Germain
Foundation, 41 F. Supp. 296 (S.D. Cal. 1941) (“held out
to the public”).
Additionally, the relationship between copyright
estoppel and publication almost certainly involves right
of first publication concerns. When the doctrine of
copyright estoppel arose, federal copyright protection
commenced on publication. Prior to publication, only
state common law copyright was available. And then,
perhaps even more than now, publication marked the
point at which the author’s ideas were released into the
world. Before that time, while a work remains
unpublished, an author has absolute control over his
work. To the extent that copyright estoppel would
encroach upon the right of first publication, by excusing
violations thereof, as an alternative to employing the
fair use defense, it would create conflict, not only with
that right, but also with the manifest intentions of
Congress, which amending the fair use provisions of
the Copyright Act in 1992, to make fair use the
mechanism for appropriations from unpublished works.
Finally, it would be inequitable, leading to
circumstances such as those in this case, where the act
of purloining a manuscript that was not yet intended or
ready for circulation, It would also be inequitable,

32
leading to circumstance such as those that arose in this
case. The law should not be such that someone can
steal a private unfinished manuscript from a desk
drawer, and, because there are representations of
truthfulness within it, copy original expression
therefrom, the right of first publication would be
meaningless, along with the negative free speech rights
it helps protect.
Finally, at present there are questions regarding
whether copyright estoppel is necessarily applies to
histories and biographies. Copyright commentators
have suggested that the answer is no. Nimmer, for
example, has long maintained:
[W]ith respect to histories and biographies,
there is some indication that the courts will not
imply a representation that the work is entirely
factual, and consequently, will not raise such an
estoppel against the authors of such works, in
the absence of an express representation that
the entire work is factual. This is in accord with
the accepted literary usage that histories and
biographies may to some minor degree be
fictionalized in order to more accurately convey
the flavor of the period or persons depicted.
1-2 Nimmer on Copyright § 2.11[C]
Speaking of a different kind of copyright
estoppel, the Southern District of New York has
warned: “Estoppel [in a copyright action] is drastic
remedy, and must be utilized sparingly.” Cooley v.
Penguin Grp. (USA) Inc., 31 F. Supp. 3d 599, 613

33
(S.D.N.Y. 2014), as corrected (July 14, 2014) This is
true, regardless of the type of estoppel involved. Any
judicially-created doctrine that eliminates copyright
protection for original works of authorship should be
used sparingly, if at all, given the purpo;ses of the
Copyright Clause and Copyright Act to protect and
reward an author’s original expression, to stimulate
creativity and advance the progress of science.
C.

The Ninth Circuit’s “Asserted
Truths Doctrine,” and Its
Constitutional, Statutory, and
Common Law Defects

As discussed, supra, pp. 4, the Ninth Circuit’s
asserted truths doctrine alters the traditional contours
of copyright protection in ways reserved for Congress,
bypassing fair use as the Congressionally-specified
mechanism for permissible use of unpublished works.
The 1992 amendments to the Copyright Act created an
opportunity, subject to the equitable principles and
elements of fair use, to make permissible, unlicensed
use of original expression in unpublished works in
limited circumstances. But Congress has not passed
legislation permitting others, outside of the
Congressional body, to invalidate or reclassify original
expression, otherwise protected by our copyright laws,
for reasons other than equitable ones.
Courts have the power to employ equitable
doctrines and remedies to help “avoid the unfairness
that might otherwise result if legal rules are applied
strictly to every case no matter how unusual the
circumstances.” Petrella, 572 U.S. at 688 (Breyer, J.,

34
dissenting). But copyright estoppel exists for that
purpose already, and has been used therefor for 108
years. The asserted truths doctrine strips copyright
estoppel of its equitable foundations without cause, and
accordingly, warrants the scrunity of this Court. See
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 394-95,
(2006) (Roberts, CJ, concurring) (“a major departure from the
long tradition of equity practice should not be lightly implied).
But it also conflicts with other courts and legal
doctrines, warranting this Court’s review.
1.

The Asserted Truths Doctrine’s
Treatment of Dialogue Creates a
Conflict with the Tenth Circuit and
Tensions with This Court.

The Ninth Circuit’s asserted truths doctrine
“applies . . . to dialogue reproduced in a historical
nonfiction work represented to be entirely truthful.”
(App. 24a), and stripped the Work of all protection for
the fictitious and reconstructed dialogue created by
Woodard and DeVito.
It is clear that one cannot copyright the actual
statements of others reported in a work, because they
are not original. Suid v. Newsweek Magazine, 503 F.
Supp. 146, 148-49 (D.D.C. 1980). However, if the
statements were not contemporaneously recorded, but
instead, are fictionalized or reconstructed from
memory, they exhibit originality, and sufficient
creativity, to warrant protection. Finally, even if the
purported statements of third parties were not
protectable, DeVito’s first written account, in the Work,
of his own prior oral remarks, is protectable, and was

35
protected in Harper & Row, which also involved a
biographer memoir purloined by the defendants
therein.
In the Tenth Circuit, reconstructed and fictitious
dialogue are protected in biographies. This is because
such authorship involves creativity, and is sufficiently
original to meet the minimum constitutional threshold.
Jacobsen, 287 F.3d at 947. As stated by the Tenth
Circuit:
We agree quotations may be freely copied if the
quotation is recorded contemporaneously or
taken directly from a written source as in Suid.
Dr. Jacobsen did not, however,
contemporaneously record the quotations or
copy them from a written source. For this
reason, a trier of fact might conclude the
material in quotation marks in Who Refused to
Die was original expression rather than the
actual words used.
This is consistent with the holdings of other
courts, including . Harris v. Miller, 50 U.S.P.Q. 306,
(S.D.N.Y. 1941), wherein the court held:
It is apparent no stenographer was present and
that the statement of the conversations is the
biographer's version, the result of his literary
effort. If Harris was only trying to reconstruct
the conversations he had with Wilde that would
be authorship . . . . There is no point to compare
these conversations to a bald statement of
historical facts, which cannot be copyrighted

36
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully Submitted,
April 2021

GREGORY HARRIS GUILLOT
Counsel of Record
GREGORY H. GUILLOT, P.C.
2626 Cole Ave., Suite 300
Dallas, TX 75204
(972) 888-6072
gregory@guillot-law.com
Attorney for Petitioner

APPENDICES

1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16337
D.C. No. 2:08-cv-00867-RCJ-PAL
DONNA CORBELLO,

Plaintiff-Appellant,
v.
FRANKI VALLI; ROBERT J. GAUDIO; MARSHALL
BRICKMAN; ERIC S. ELICE; DES MCANUFF;
DSHT, INC., FKA DODGER STATE HOLDING
THEATRICALS, INC.; DODGER THEATRICALS, LTD.;
JB VIVA VEGAS, LP; MICHAEL S. DAVID;
JERSEY BOYS BROADWAY LIMITED PARTNERSHIP;
JERSEY BOYS RECORDS LIMITED PARTNERSHIP;
SKUNK, INC.; GETTING HOME, INC.,

Defendants- Appellees.
Appeal from the United States
District Court for the District of Nevada
Robert Clive Jones, District Judge, Presiding
Argued and Submitted June 11, 2019
Anchorage, Alaska
Filed: September 8, 2020

2a

OPINION
Before: A. Wallace Tashima, William A. Fletcher, and
Marsha S. Berzon, Circuit Judges.
BERZON, Circuit Judge:
The musical Jersey Boys depicts the history of a
popular musical quartet, the Four Seasons (“the
Band”), from its origins in Belleville, New Jersey, in
the 1950s, to the Band's induction into the Rock and
Roll Hall of Fame in 1990. Four Seasons hits such as
“Walk Like a Man,” “Big Girls Don't Cry,” and
“Sherry” accompany the play's dialogue, recreating the
Band's musical legacy on stage. Jersey Boys (“the
Play”) debuted on Broadway in 2005 and ran for over
ten years, toured the country repeatedly, and was
adapted as a movie in 2014.
In the late 1980s, Band member Tommy DeVito
partnered with Rex Woodard to write a book telling
“the whole story” of The Four Seasons. The result of
this partnership was an autobiography of DeVito (“the
Work”), ghostwritten by Woodard and completed
before the Play was developed.
Our question is whether Four Seasons front man
Frankie Valli and other defendants associated with
Jersey Boys infringed Woodard's copyright in the
autobiography, now owned by Donna Corbello,
Woodard’s surviving wife. After many years of
litigation, including several summary judgment
orders, one previous appeal, and a trial, the district
court granted judgment as a matter of law (“JMOL”)
on *971 the basis that much of the alleged
infringement concerned unprotected elements of the
Work, and that any infringement of protected elements

3a

was fair use. We affirm on the sole ground that Jersey
Boys did not infringe DeVito's biography, and so do not
reach the district court's fair use rationale.

Our decision rests primarily on “the unremarkable
proposition that facts, in and of themselves, may not
be form [sic] the basis for a copyright claim.” 1
Nimmer on Copyright § 2.11(A). Although books
generally contain the author's creative expression,
protectable by copyright, a nonfiction biography like
the work in this case is necessarily structured around
historical facts and events, not themselves
copyrightable. See Harper & Row, Publishers, Inc. v.
Nation Enters., 471 U.S. 539, 547, 105 S.Ct. 2218, 85
L.Ed.2d 588 (1985).
On close examination, each of the alleged
similarities between the Play and the Work are based
on historical facts, common phrases and scenes-a-faire
(scenes that are “indispensable, or at least standard,
in the treatment of a given idea,” Apple Computer, Inc.
v. Microsoft Corp., 35 F.3d 1435, 1444 (9th Cir. 1994)
(internal alteration and quotation marks omitted)), or
elements that were treated as facts in the Work and
are thus unprotected by copyright, even though now
challenged as fictional. Neither Valli nor the other
defendants violated Corbello's copyright by depicting
in the Play events in their own lives that are also
documented in the Work. Because the Play did not
copy any protected elements of the Work, we conclude,
there was no copyright infringement.

4a

I.

Background
A. Factual History

Rex Woodard was an attorney, a writer, and a
devoted Four Seasons fan. In 1988, Woodard agreed to
ghostwrite the autobiography of Tommy DeVito, one
of the original members of the Four Seasons, and to
share equally in any profits arising from the book.
Woodard completed the autobiography in early 1991,
but he and DeVito were unable to find a publisher
before Woodard's death that same year. Woodard's
widow, Donna Corbello, is the successor to Woodard's
interest in the Work. Corbello and Woodard's sister
Cindy Ceen continued the search for a publisher after
Woodard's death, still without success.
The Work reads as a straightforward historical
account and is presented as an autobiography, with
DeVito listed as a co-author. At the outset of the Work,
the first-person narrator, whom the reader
understands is DeVito, describes the book as the
“complete and truthful chronicle of the Four Seasons.”
The narrator contrasts the Work with assertedly
inaccurate accounts that others had published, and
notes his own “candor.” In addition, Woodard and
Corbello both emphasized in letters to potential
publishers that the Work provided a behind-the-scenes
factual look at the Four Seasons.
Ceen contacted DeVito in September 2005 to
discuss her family's continuing interest in publishing
the Work. She noted that she and Corbello were
considering self-publishing the Work if they could not
“attract a recognized publishing company.” A few
months later, DeVito's attorney told Ceen that DeVito
had concluded that the Work was “not saleable.”

5a

The musical Jersey Boys debuted soon after. A
smash hit, it garnered four Tony Awards. Hopeful that
the show could renew interest in the Band, Corbello
and Ceen sought to confirm the registration of
Woodard's and DeVito's copyright in the Work.
The U.S. Copyright Office's records, it turned out,
indicated that shortly before Woodard's death in 1991,
DeVito had registered *972 the Work solely under his
own name. The copy deposited with DeVito's copyright
application was identical to the Work written by
Woodard with two exceptions: the title page now
excluded Woodard and changed the title, and a single
page in Chapter 41 was missing. Corbello was
eventually able, without DeVito's cooperation, to
secure recognition of Woodard as a co-author and
co-claimant of the copyrighted Work; Corbello's
copyright of the work was registered in 2007.
Around the same time, Corbello learned through
news accounts that writers of the Play had had access
to the Work while creating the production and that
DeVito was profiting from the Play's success. DeVito
confirmed that he had provided a copy of the Work to
individuals who were involved with developing the
Play to use in their research.
B. Procedural History
In 2007, Corbello sued DeVito for breach of
contract and an equitable accounting, among other
claims. The operative third amended complaint listed
fourteen defendants – band members DeVito, Frankie
Valli, and Bob Gaudio, as well as writers, directors,
and producers of the Play (and related entities – and
twenty causes of action, including various forms of
copyright infringement. DeVito subsequently settled

6a

with Corbello and is not a party to this appeal.
The district court issued summary judgment
orders that, taken together, adjudicated most of the
claims. The court first declared that the Work was a
joint work, that Woodard was a co-owner, and that
Corbello, as successor-in-interest to her husband, had
a 50 percent interest in the Work. But the court then
entered summary judgment in favor of all defendants
other than DeVito and one producer of the Play based
on its interpretation of a contract between DeVito,
Valli, and Gaudio.
A panel of this court reversed in part. Corbello v.
DeVito, 777 F.3d 1058, 1066 (9th Cir. 2015).
Corbello held that a material issue of fact remained
regarding the construction of DeVito's contract with
Valli and Gaudio. Id. at 1064, 1066. Concurring, Judge
Sack noted that “it would vastly simplify matters. . .
if [on remand] the district court first decided the
defendants' summary judgment motion arguing that
Jersey Boys does not infringe the Work as a matter of
law in any event, an issue which it previously avoided
by granting summary judgment on contract grounds.
That might be the end of the matter as far as ‘Jersey
Boys’ Valli and Gaudio are concerned irrespective of
the difficult issues that the majority and we address
here.” Corbello, 777 F.3d at 1073 (Sack, J., concurring)
(citations omitted).
On remand, the district court granted summary
judgment in part, holding that, while there was
substantial similarity sufficient to avoid summary
judgment at least with respect to “thin” copyright
protection, most of the similarities were based on
historical fact or ordinary phrases, and the similarities

7a

based on protectable material were insufficient to
entitle the work to regular “thick” protection as a
matter of law. That ruling had large impact on the
scope of the trial and on the jury instructions, as
explained later, infra pp. 974–75.
The case proceeded to trial. The jury found for
Corbello on the contract issue, and, on the
infringement claim, found that the Play infringed the
Work, use of the Work was not fair use, and 10% of the
success of the Play was attributable to infringement of
the Work. The jury was not asked to calculate or
award damages.
After the verdict, the district court granted the
Defendant's motion for JMOL as to fair use, denied
Defendant's motion for JMOL on other grounds,
and granted a *973 motion for a new trial on
apportionment. This appeal followed.
We review the grant of judgment as matter of law
de novo, Spencer v. Peters, 857 F.3d 789, 797 (9th Cir.
2017), viewing the evidence in the light most favorable
to the non-moving party, Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 150, 120 S.Ct.
2097, 147 L.Ed.2d 105 (2000); Torres v. City of Los
Angeles, 548 F.3d 1197, 1205–06 (9th Cir. 2008). Grant
of new trial under Rule 59 is reviewed for abuse of
discretion. Kode v. Carlson, 596 F.3d 608, 612–13 (9th
Cir. 2010).
II. Discussion
Some basic precepts of copyright law are at play
in this case, so we begin with fundamentals.
“To qualify for copyright protection, a work must
be original to the author.” Feist Publ’ns, Inc. v. Rural

8a

Tel. Serv. Co., 499 U.S. 340, 345, 111 S.Ct. 1282, 113
L.Ed.2d 358 (1991) (citing Harper & Row, 471 U.S.

at 547–49, 105 S.Ct. 2218 ). A work is original if it is
created by the author with “at least some minimal
degree of creativity.” Id. Although the “[c]reation of a
nonfiction work, even a compilation of pure fact,
entails originality,” Harper & Row, 471 U.S. at 547,
105 S.Ct. 2218, “[n]o author may copyright his ideas
or the facts he narrates,” id. at 556, 105 S.Ct. 2218.
Copyright law, in other words, protects authors’
original expression in their work but does not protect
ideas and facts. Id . at 547, 105 S.Ct. 2218.
This division as to the copyright protection
accorded creative expression on the one hand and the
lack of such protection for facts and ideas on the other
often leads to the need to delineate, with respect to the
copyright protection accorded a particular work,
whether the particular claim of infringement concerns
the protected or the unprotected aspects of the work.
“The mere fact that a work is copyrighted does not
mean that every element of the work may be protected.
Originality remains the sine qua non of copyright;
accordingly, copyright protection may extend only to
those components of a work that are original to the
author.” Feist Publ’ns., 499 U.S. at 348, 111 S.Ct.
1282. As a result, “copyright does not prevent
subsequent users from copying from a prior author’s
work those constituent elements that are not original
– for example, . . . facts.” Harper & Row, 471 U.S. at
548, 105 S.Ct. 2218.
It is thus a feature of copyright law, not a bug or
anomaly, that an author who deals in fact rather than
fiction receives incomplete copyright protection for the
results of his labor. “The primary objective of copyright

9a

is not to reward the labor of authors, but ‘to promote
the Progress of Science and useful Arts.’” Feist
Publ’ns., 499 U.S. at 349, 111 S.Ct. 1282 (alteration
omitted) (quoting U.S. Const. Art. I, § 8, cl. 8 ). “To this
end, copyright assures authors the right to their
original expression, but encourages others to build
freely upon the ideas and information conveyed by a
work.” Id. at 349–50, 111 S.Ct. 1282 (citation omitted).
It is against this backdrop that we must evaluate
Corbello’s claims alleging infringement of the Work, a
nonfiction autobiography. “Proof of copyright
infringement requires [a plaintiff] to show: (1) that he
owns a valid copyright. . .;1 and (2) that [the defendant]
copied protected aspects of the work.” Skidmore v. Led
Zeppelin, 952 F.3d 1051, 1064 (9th Cir. 2020) (en banc)
(citing Rentmeester v. Nike, Inc., 883 F.3d 1111, 1116–
17 (9th Cir. 2018) ).
Only the second element is here at issue. “The
second prong of the infringement analysis contains two
separate *974 components: ‘copying’ and ‘unlawful
appropriation.’” Id. (quoting Rentmeester, 883 F.3d at
1117 ). Copying can be demonstrated either through
direct evidence or “by showing that the defendant had
access to the plaintiff’s work and that the two works
share similarities probative of copying,” while “the
hallmark of ‘unlawful appropriation’ is that the works
share substantial similarities.” Id.
Similarity only as to unprotected aspects of a work
does not result in liability for copyright infringement.
See id.; see also Harper House, Inc. v. Thomas Nelson,
1

Defendants do not dispute that Corbello is a joint owner
of the Work.

10a

Inc., 889 F.2d 197, 207–08 (9th Cir. 1989). So, “[t]o

determine whether similarities result from
unprotectable expression, analytic dissection of
similarities may be performed. If this demonstrates
that all similarities in expression arise from use of
common ideas, then no substantial similarity can be
found.” Data E. USA, Inc. v. Epyx, Inc., 862 F.2d 204,
208 (9th Cir. 1988) (citing Aliotti v. R. Dakin & Co.,
831 F.2d 898, 901 (9th Cir. 1987)).

The parties’ central disagreements in this case are
whether the Play is substantially similar to the Work
and whether the defendants copied any protectable
portions of the Work. “The substantial- similarity test
contains an extrinsic and intrinsic component.” Funky
Films, Inc. v. Time Warner Ent. Co., L.P., 462 F.3d
1072, 1077 (9th Cir. 2006), overruled on other
grounds by Skidmore, 952 F.3d 1051. The extrinsic test
requires a three- step analysis: (1) the plaintiff
identifies similarities between the copyrighted work
and the accused work; (2) of those similarities, the
court disregards any that are based on unprotectable
material or authorized use; and (3) the court must
determine the scope of protection (“thick” or “thin”) to
which the remainder is entitled “as a whole.” Apple
Computer, 35 F.3d at 1443 (referring to what we here
call “thick” protection as “broad” protection). Only if
the extrinsic analysis succeeds does the so- called
“intrinsic” analysis takes place. See Funky Films, 462
F.3d at 1077. The intrinsic test “examines an ordinary
person’s subjective impressions of the similarities
between two works,” and involves questions of fact
determined by the jury under instructions as to the
level of protection applicable. Funky Films, 462 F.3d at
1077 (citing Shaw v. Lindheim, 919 F.2d 1353,

11a

1360–61 (9th Cir. 1990) ).
Applying this framework, the district court, before
trial, conducted the extrinsic analysis and granted
partial summary judgment for the defendants,
concluding that much of the alleged infringement in
this case involved either elements original to the Play
or similarities between the Play and unprotected
elements of the Work, such as “historical fact[s] or
ordinary phrases.” Twelve alleged similarities between
the Work and the Play survived this initial review and
went to the jury.2 *975 In its post-trial order granting
2

Corbello argues that the district court improperly limited
the jury’s consideration to twelve potentially protectable
similarities, because she should have been able to seek protection
for the original selection and arrangement of otherwise
unprotectable elements. “We have extended copyright protection
to ‘a combination of unprotectable elements . . . only if those
elements are numerous enough and their selection and
arrangement original enough that their combination constitutes
an original work of authorship.’” Skidmore, 952 F.3d at 1074
(alteration in original) (quoting Satava v. Lowry, 323 F.3d 805,
811 (9th Cir. 2003)). “Put another way, what a selection and
arrangement copyright protects is the particular way in which the
artistic elements form a coherent pattern, synthesis, or design.”
Id.
There is no viable arrangement and selection argument
here, both because the unprotectable elements that appear in both
the Play and the Work are not “numerous enough” and because,
even if there were an original “synthesis” of those elements in the
Work, it is not present in the Play. See id. The selection of the true
stories behind the Band’s most popular songs and the
arrangement of those stories in roughly chronological order is not
original, and so not protectable by copyright. The Work and the
Play depict those historical events from different perspectives,
with different characterizations of the people involved, in different
media, and communicating a different overall message. “Without
[a particular, original] arrangement, there is no liability for taking

12a

JMOL for Defendants, the district court concluded that
most of the twelve remaining similarities were aspects
of the Work not protectable by copyright. The court
undertook this analysis as part of its conclusion that
any infringement was fair use and did not explicitly
frame its conclusions as rulings on infringement.
We conclude that all twelve similarities the jury
considered were not infringing, some under an analysis
similar to that used in the district court’s order and
others under what some courts have referred to as the
doctrine of copyright estoppel.3
We discuss each category in turn.

‘ideas and concepts’ from the plaintiff’s work, ‘even in
combination.’” Id. at 1075 (quoting Rentmeester, 883 F.3d at
1122–23).
3

We may affirm entirely on the ground that the Play did
not infringe protected aspects of the Work, rather than relying at
all on the district court’s fair use rationale, even though
Defendants did not cross-appeal the infringement verdict. “An
appellee who does not take a cross-appeal may ‘urge in support of
a decree any matter appearing in the record, although his
argument may involve an attack upon the reasoning of the lower
court.’” Jennings v. Stephens, 574 U.S. 271, 135 S. Ct. 793, 798,
190 L.Ed.2d 662 (2015) (quoting United States v. Am. Ry. Express
Co., 265 U.S. 425, 435, 44 S.Ct. 560, 68 L.Ed. 1087 (1924) ). The
appellee must file a cross-appeal only if he is “attack[ing] the
decree with a view either to enlarging his own rights thereunder
or of lessening the rights of his adversary.” Id. Our decision will
neither enlarge Defendants’ rights nor lessen Corbello’s. The
district court granted judgment in favor of Defendants. As a result
of our affirmance on alternative grounds, it remains true that
Defendants are not liable to Corbello, so all parties remain in the
same position they were as a result of the district court’s
judgment.

13a

A. Application of the Extrinsic Test to Elements
of the Work that Are Undisputedly Factual
We first carefully examine whether the alleged
copying or similarities are based on protectable
elements of the copyrighted work. The extrinsic test for
substantial similarity lays out a useful framework for
this inquiry.
“Extrinsic analysis is objective in nature,” and
examines “articulable similarities between the plot,
themes, dialogue, mood, setting, pace, characters, and
sequence of events in the two works.” Funky Films,
462 F.3d at 1077 (internal quotation marks omitted).
“Protectable expression includes the specific details of
an author’s rendering of ideas. . . .[The court] must
take care to inquire only whether the protectable
elements, standing alone, are substantially similar. In
so doing, we filter out and disregard the nonprotectable elements.” Id. (citations and internal
quotation marks omitted). Non-protectable elements
include ideas; historical facts; common phrases;
scenes-a-faire (that is, “situations and incidents that
flow necessarily or naturally from a basic plot premise”
or generic plot line) and “ [f]amiliar stock scenes and
themes that are staples of literature.” Benay v. Warner
Bros. Ent., Inc., 607 F.3d 620, 624–25 (9th Cir. 2010)
(citations omitted), overruled on other grounds by
Skidmore, 952 F.3d 1051; see also Narell v. Freeman,
872 F.2d 907, 910–11 (9th Cir. 1989).
As the district court correctly summarized,
[t]he Work is a work of historical fact, as
recounted by DeVito with the assistance *976
of Woodard’s writing skills. The creative
aspects of the Work do not generally concern

14a

things like character, plot, and setting, but
rather writing style and presentation. Neither
DeVito nor Woodard created or even claimed to
have created any characters, plot lines,
settings, etc.
Though the creative expression that is in the Work
– the “writing style and presentation” – is protected by
copyright, the assertedly historical elements are not.
Each of the six similarities between the Play and
the Work discussed below fails the extrinsic test for
substantial similarity because each involves only
non-protectable elements of the Work.
1. Tommy DeVito’s Introduction
Chapter One of the Work introduces Tommy
DeVito “hanging out on a Jersey Street Corner” with
his friends, “puff[ing] on cigarettes and dar[ing]
anyone to mess with [them,] . . . cool beyond belief.” At
the outset of the Play, the DeVito character addresses
the audience, his cool demeanor on display. Corbello
alleged that this description of DeVito is substantially
similar to the one in the Play and so infringing. But
DeVito is not a fictional character whose personality
was created in the Work. This depiction of DeVito – as
Corbello’s expert put it, his “voice, cool demeanor, and
braggadocio” – is not original to the Work, and so not
a protectable element. See Benay, 607 F.3d at 627. A
character based on a historical figure is not protected
for copyright purposes. Id.
2. Introduction of the Song “Sherry”
Both the Play and the Work depict Bob Gaudio
arriving late to a rehearsal excited about a new song
he just wrote, “Sherry,” which — no surprise —

15a

became a major hit. In the Work, DeVito recalls that
he liked the song but “didn’t think [they] could get
away with it,” because it was “clearly intended for
someone younger than us.” In the Play, DeVito says it
was a “fuckin’ insult” that Gaudio arrived late “with
some bullshit song he wrote fifteen minutes ago.” As
the district court concluded, “[t]he dialogue is
completely different, as is DeVito’s initial reaction to
the song.” The only similarities are unprotectable
historical facts: Gaudio wrote the song at the last
minute, he was late to rehearsal, and the song was
ultimately successful. See Narell, 872 F.2d at 912.
3. Introduction of the Song “Big Girls Don’t
Cry”
The Work recounts that Bob Crewe, a producer and
songwriter who worked with the Four Seasons, was
inspired to write the song “Big Girls Don’t Cry” after
watching a movie in which a female character
dramatically says exactly that – “big girls don’t cry.”
In the Play, Gaudio tells the audience a transformed
version of this story – Gaudio was the person who saw
the movie, it was a John Payne movie, and Rhonda
Fleming was the actress who delivered the line. Both
the Play and the Work report that Crewe and Gaudio
co-wrote the song. As the district court correctly
concluded, the “only similarity is the unprotectable
historical fact that the song was inspired by the
Rhonda Fleming line.” That similarity does not
include any protectable element of the Work.4 See
4

In writing the Work, Woodard relied on notebooks he
had assembled containing research and articles about the Four
Seasons. His research notebooks included an article that quoted
Gaudio telling this story. Just as Woodard, writing the Work, was

16a

Narell, 977 872 F.2d at 912.*977
4. Comparisons between the Four Seasons
and the Beatles
The Work states that “[i]n the Beatles we are not
just competing against another band; the Beatles come
to represent a whole social movement. [The Four
Seasons] never aspire to be more than entertainers.” In
the Play, the Gaudio character describes the
competition between the Band and the Beatles, telling
the audience,
We weren’t a social movement like the Beatles.
Our fans didn’t put flowers in their hair and
try to levitate the Pentagon. Maybe they
should have. Our people were the guys who
shipped overseas . . . and their sweethearts.
They were the factory workers, the truck
drivers. The kids pumping gas, flipping
burgers. The pretty girl with circles under her
eyes behind the counter at the diner. They’re
the ones who really got us, who pushed us over
the top.
The similarities between the Work’s allusions to
the Beatles and the longer, more detailed and more
evocative comparison in the Play are the words “social
movement” and the unprotectable historical fact that
the two music groups competed for record sales and
chart placements. See Harper & Row, 471 U.S. at 556,
105 S.Ct. 2218. Even if the Work was the first to

able to recount historical events documented in another author’s
work, it is not infringement for the writers of the Play to use the
Work as a source for this historical event.

17a

describe the Beatles as representing a “social
movement” – which is neither proven nor disproven in
the record – this concept is an idea unprotectable by
copyright. See id. The expression of that idea could be
protected if it was original to the Work, but use of the
phrase “social movement” is all but inevitable in the
presentation of that idea. The words “social movement”
thus form an unprotectable common phrase describing
an idea. “Ordinary phrases are not entitled to
copyright protection.” Narell, 872 F.2d at 911. Grosso
v. Miramax Film Corp., 383 F.3d 965 (9th Cir.2004),
for example, held that there was no substantial
similarity where “the only similarities in dialogue
between the two works come from the use of common,
unprotectable poker jargon,” id. at 967.
5. Introduction of the Song “Dawn”
The Work recounts that the Beatles had “hit the
public consciousness like a load of bricks” when the
Four Seasons song “Dawn” was ready for release. The
Work then goes on to describe competition between the
two bands in the Billboard charts, noting that “Dawn”
charted third, “sandwiched in by the Beatles at
number one, number two, number four and number
five!”
In the Play, Gaudio says, “Around this time,
there’s a little dust-up called the British Invasion.
Britannia is ruling the airwaves. So we start our own
American Revolution. The battle begins on a Sunday
night at eight o’clock, and the whole world is
watching.” The scene shifts to historical footage of Ed
Sullivan introducing the Band, which then performs
“Dawn.”
Again, it is an unprotectable historical fact that the

18a

Beatles and the Four Seasons generally competed for
chart placement. That “Dawn” charted against songs
by the Beatles is similarly an unprotectable historical
fact. See Narell, 872 F.2d at 912. No protectable
elements of the Work share any similarity with the
“American Revolution” scene in the Play.
6. Description of the Rock and Roll Hall of
Fame Induction Ceremony
Both the Play and the Work depict the Four
Season’s induction into the Rock and Roll Hall of Fame
in 1990. The Band’s members reunited at the induction
ceremony and performed for the first time in many
years. These historical events are not protectable by
copyright. See *978 Harper & Row, 471 U.S. at 556,
105 S.Ct. 2218; Narell, 872 F.2d at 912.
In the Work, DeVito describes “reunit[ing] with
Frankie Valli, Bob Gaudio, Nick Massi and Bob Crewe
for the first time since 1965. I felt like I was stepping
from a time machine.” In the play, as the Band
performs, DeVito asks, “Is this like being in a fuckin’
time machine, or what?” The idea that band members
performing together after many years apart would
evoke the feeling of a time machine flows naturally
from the plot premise of a band reuniting and is classic
scenes-a-faire. See Cavalier v. Random House, Inc.,
297 F.3d 815, 823 (9th Cir. 2002). And as the district
court correctly ruled, the words “time machine”
constitute an ordinary phrase and so is not protectable.
See Narell, 872 F.2d at 911; Grosso, 383 F.3d at 967.

19a

B. Application of the Extrinsic Test to Claimed
Fictions Represented to be Facts — So-Called
“Copyright Estoppel”
Other circuits, and district courts in this circuit,
have employed a doctrine of copyright law sometimes
called “copyright estoppel.” Under the doctrine,
elements of a work presented as fact are treated as
fact, even if the party claiming infringement contends
that the elements are actually fictional. An author who
holds their work out as nonfiction thus cannot later
claim, in litigation, that aspects of the work were
actually made up and so are entitled to full copyright
protection. See Nash v. CBS, Inc., 899 F.2d 1537, 1541
(7th Cir. 1990); Hoehling v. Universal City Studios,
Inc., 618 F.2d 972, 979 (2nd Cir. 1980); Idema v.
Dreamworks Inc., 162 F. Supp. 2d 1129, 1183 (C.D.
Cal. 2001); Houts v. Universal City Studios, Inc., 603
F. Supp. 26, 30–31 (C.D. Cal. 1984); Lake v. Columbia
Broad. Sys., 140 F. Supp. 707, 708–09 (S.D. Cal.
1956); Oliver v. Saint Germain Found, 41 F. Supp. 296,
299 (S.D. Cal. 1941). “Given an express representation
that the work is factual, the case law indicates that the
author will be estopped from claiming fictionalization,
even if most readers would not believe the
representation.” 1 Nimmer on Copyright § 2.11.
Claimed fictions that have been treated as facts for
copyright purposes under this approach include a novel
hypothesis about the cause of the Hindenburg
explosion, Hoehling, 618 F.2d at 978–79; a theory that
John Dillinger was not killed by law enforcement and
instead retired to the West Coast, Nash, 899 F.2d at
1538, 1541; a “true crime” book with fantastical
stories, Houts, 603 F. Supp. at 30; and representations
that the author was the scribe of a spiritual power,

20a

Oliver, 41 F. Supp. at 297.
In legal parlance, “estoppel” encompasses various
equitable doctrines that ordinarily include as an
element detrimental reliance. See, e.g., Barnes v.
Yahoo!, Inc., 570 F.3d 1096, 1099 (9th Cir. 2009), as
amended (Sept. 28, 2009); see also Restatement
(Second) of Contracts § 90 (1981). “Estoppel” is not, in
our view, an apt descriptor for the doctrine at work
here. For one thing, as the court correctly observed in
Houts, detrimental reliance is not an element of this
doctrine, as “the [so-called] estoppel [is] created solely
by plaintiff’s affirmative action and representation
that the work was factual.” 603 F. Supp. at 31. For
another, application of estoppel concepts often suggests
that the party against whom estoppel is applied is in
some way culpable. See, e.g., Santa Maria v. Pac. Bell,
202 F.3d 1170, 1176 (9th Cir. 2000) (equitable
estoppel looks to “evidence of improper purpose on the
part of the defendant”); Russell v. Rolfs, 893 F.2d
1033, 1037 (9th Cir. 1990) (judicial estoppel “protect[s]
against a litigant playing ‘fast and loose with the
courts’” (quoting Religious Tech. Ctr. v. Scott, 869 F.2d
1306, 1311 (9th Cir. 1989) (Hall, J., dissenting))).*979
There are core concerns of copyright law, not equitable
or estoppel principles, that, in our view, animate the
misnamed “copyright estoppel” analysis. “ [C]opyright
. . . encourages others to build freely upon the ideas
and information conveyed by a work,” Feist, 499 U.S.
at 349–50, 111 S.Ct. 1282, “‘[t]o promote the Progress
of Science and useful Arts,’” id. at 349, 111 S.Ct. 1282
(quoting U.S. Const. Art. I, § 8, cl. 8 ). It would hinder,
not “promote the progress of science and useful arts” to
allow a copyright owner to spring an infringement suit
on subsequent authors who “buil[t] freely” on a work

21a

held out as factual, contending after the completion of
the copyrighted work, and against the work’s own
averments, that the purported truths were actually
fictions. Id. at 350, 111 S.Ct. 1282. Copyright protects
the creative labor of authors; it does not protect
authors’ post-completion representations about the
lack of veracity of their own avowedly truthful work.
We find this copyright-grounded rationale for this
principle compelling and so adopt the doctrine. Rather
than “copyright estoppel,” we will refer to this rule of
copyright law as the “asserted truths” doctrine,
because it is the author’s assertions within and
concerning the work that the account contained in the
book is truthful that trigger its application.
Here, the text of the Work explicitly represents its
account as historically accurate, not historical fiction.
In the Work’s early pages, the DeVito narrator
describes the Work as the “complete and truthful
chronicle of the Four Seasons.” He promises not to
allow “bitterness to taint the true story,” and notes his
“candor.” Both Corbello’s husband and she herself sent
potential publishers cover letters emphasizing that the
Work provided a behind-the-scenes factual look at the
Band, promising “disclosure[ ]” of “the truth about”
several events, including the “secret past that these
performers successfully hid for almost three decades.”
Consistent with those promises of truthfulness, the
Work reads as a straightforward historical account and
is presented as an autobiography, with DeVito listed as

22a

co-author. So the Work was expressly and repeatedly
held out as a factual account.5
Corbello argues strenuously that the asserted
truths doctrine cannot apply in this case because the
Work was never published. She argues that only
representations of truth made to the public trigger the
asserted truths doctrine, and that there was no
representation to the public because the Work was
unpublished.
This suggested limitation of the asserted truths
doctrine to published works has no basis in either the
case law or the doctrine’s copyright law foundations.
As to the case law, Corbello does not point to any case
supporting the limitation, and we are not aware of any.
One district court, in an unpublished opinion,
characterized the doctrine as “normally applied to . . .
a plaintiff who represented to the public that his work
was factual.” Garman v. Sterling Pub. Co., No.
C-91-0882 SBA, 1992 WL 12561293, at *3 (N.D.
Cal. Nov. 5, 1992) (emphasis added). Aside from the
nonbinding nature of its source, this passing reference
to “the public,” does not suggest that publication is
a prerequisite to the application of the asserted truths
doctrine; “the public” could include actual or intended

5

We note that the asserted truths doctrine would not
cover fictional works that use claims to truthfulness as a literary
device, like the Orson Welles radio broadcast of “War of the
Worlds.” See Terror by Radio, N.Y. Times, Nov. 1, 1938, at A22.
We are not required, in this case, to decide what the outer limits
should be of the test for whether a work’s representations for
truthfulness are sufficient to support the application of this rule.
We hold only that the representations here are definitely
sufficient.

23a

*980 readers of work, including works not mass
produced for sale.
As to the copyright origins of the doctrine, the
suggested publication limitation appears to rest on the
detrimental reliance and culpability concepts
connected to the “estoppel” locution. But we have
rejected both the terminology and its related
implications as not pertinent to the asserted truths
copyright principle as we understand it.
Rather than treat prior publication as dispositive,
we examine the representations made by a work,
whether made only to a few actual readers, to future
intended readers, or, upon publication, to the general
public. In this case, again, the Work made unequivocal
representations of truthfulness. The Work’s emphatic
and express representations of truthfulness were made
both to potential publishers and to readers of the
unpublished manuscript, as well as to future readers
of the Work if published. Those representations were,
as described earlier, central to the manuscript’s claim
to readers’ attention and appreciation. And the
representations applied to the book as a whole, a
consideration emphasized in the case law. In Houts,
for example, the district court stressed that the book
had been held out as completely factual, because its
jacket described the book as containing “real life
detective stories,” the book had the notation “N-F” for
nonfiction on its spine, and the first page proclaimed
that the book “shows that truth can be more brutal
than fiction.” 603 F. Supp. at 28–29 (emphasis in
original). Similarly, Lake held that a plaintiff could not
claim copyright protections for portions of a book about
Wyatt Earp as fictionalized because the book’s preface
promised “an accurate historical biography based on a

24a

factual account of Wyatt Earp’s career [that was] ‘in no
part a mythic tale.’” 140 F. Supp. at 708.
Just as the court in Houts determined that “[g]iven
these broad and inclusive representations [that the
book is factual], the reader is compelled to conclude
that the entire book is true,” 603 F. Supp. at 29, here
the Work presents itself to the reader as a reliable
source of factual information about the Four Seasons.
So, when DeVito, an owner and co- author of the book,
gave it to the Play’s writers as they researched the
history of the Four Seasons, they had reason to view it
as a factual source, even better than newspaper or
magazine articles, because it was co-written by a
participant in the events described. Whether a Work is
published may inform how its readers perceive and
evaluate any claims of truthfulness – for example, a
reader may discount such claims made in an
unpublished work that appears to be an unfinished
draft, or find assertions that a book is nonfiction
particularly compelling if the publisher has a strong
reputation for fact-checking its publications. But
publication alone is not dispositive of whether this
doctrine applies.
Relatedly, the asserted truths doctrine applies not
only to the narrative but also to dialogue reproduced in
a historical nonfiction work represented to be entirely
truthful. As detailed above, even dubious assertions of
truthfulness can prevent an author from later claiming
that part of a work is fiction. See, e.g., Oliver, 41 F.
Supp. at 297, 299. The asserted truths doctrine thus
includes dialogue that an author has explicitly
represented as being fully accurate, even if the author
was unlikely to have recalled or been able to report the
quotations exactly. Courts have applied the doctrine to,

25a

for example, dialogue surrounding the death of Pope
John Paul, see Crane v. Poetic Prods. Ltd., 593 F.
Supp. 2d 585, 595 (S.D.N.Y.), aff’d, 351 F. App’x 516
(2d Cir. 2009), and to other purportedly accurate
conversations, *981 even where the author “could not
possibly have been present to experience” them, Houts,
603 F. Supp. at 30.
As the court observed in Houts, this dialogue
corollary follows from “the very nature of biographical
works that involve any historical perspective. All
historical renditions would be deemed fictionalized
under [a contrary] theory merely because the author
was not there personally.” Id. Requiring readers of
purported nonfiction to investigate the accuracy of
each quoted statement in a work that presents itself as
completely true and accurate nonfiction would
frustrate the pro-creation goals of copyright law. “To
avoid a chilling effect on authors who contemplate
tackling an historical issue or event, broad latitude
must be granted to subsequent authors who make use
of historical subject matter.” Hoehling, 618 F.2d at
978.
There may be instances in which extensive
dialogue – for instance, dialogue in a biography of an
ancient politician – necessarily indicates that a work
is partially fictional. But this is indubitably not such a
case. Here, the Work purports to accurately document
conversations in which its co-author, DeVito, actually
participated. Because of the autobiographical
representation that is central to the Work, the
assertions of accuracy carry extra force, and the
asserted truths doctrine applies to the dialogue as well
as to the narrative.

26a

Each of the six similarities between the Play and
the Work we next discuss fail the extrinsic test for
substantial similarity because, whether or not actually
factual, they involve – sometimes in combination with
other non-protected features – elements of the work
held out as facts and so not protectable.
1. DeVito’s Introduction of Valli to Mary and
Mary’s Characterization
In the Work, Valli first sees Mary Mandel, a friend
of DeVito’s current girlfriend, while hanging out with
DeVito at a “hotdog joint.” Valli asks DeVito about her;
DeVito reports that Mary is several years older than
Valli, has a daughter, and “comes from a rotten
family; her two brothers are junkies and a lot of her
people are in prison. She talks kind of rough herself,
but she seems nice.”
In the Play, Valli notices Mary Delgado – a
composite character of two of Valli’s ex-wives – at a
show, and DeVito warns him away but ultimately
introduces them. Valli then takes Mary on a date. No
dialogue is alleged to have been copied. The only
similarity between the two accounts is the fact that
Valli asked DeVito about a woman named Mary.
The Work and the Play characterize Mary and her
relationship with Valli very differently. The Work
depicts Mary Mandel as “mean spirit[ed]” and highly
critical of Valli, causing him to become more reserved
and “quenching the sparkle in his eye.” The Play does
not portray Mary Delgado negatively, although it does
depict an argument between Valli and Mary before the
couple divorces. Gaudio reports to the audience that
Valli told the other band members his divorce was “for
the best,” but they knew “that wasn’t the whole story”;

27a

Valli’s character then sings a love song, indicating he
had loved Mary and was sad about the divorce.
As the district court correctly concluded, “the Play
copied no creative expression from the Work in relation
to Valli’s introduction to or relationship with Mary.
The Play used its own creative expression in telling the
story of Valli’s interest in Mary, DeVito having warned
him away, and any conflict between Valli and Mary.
The historical facts of these events are not protectable
by copyright.”
At his deposition, Valli testified that DeVito did
not in fact introduce him to Mary Mandel, and that he
couldn’t remember *982 whether DeVito helped set
them up. Whether Valli’s recollection is correct or not
does not affect whether the Work’s version is
protectable as an original creation of the writers.
DeVito may have remembered events differently than
Valli did, or he may have reported his memory to
Woodard inaccurately, or he or Woodard may have
invented the story that he introduced Valli and Mary.
Any such inconsistency, inaccuracy, or invention does
not transform what was represented in the Work as a
completely truthful account into creative fiction
protectable by copyright. Facts presented in a
historical work, “whether correct or incorrect,” may be
used by subsequent authors without infringing.
Hoehling, 618 F.2d at 979; see also Idema, 162 F.
Supp. 2d at 1183. As the Work holds it out as true that
DeVito talked to Valli about Mary, that asserted fact
is unprotectable under copyright law.
2. DeVito’s Intercession After Valli’s Arrest
Both the Play and the Work relay a story about
DeVito helping Valli after he was arrested. In the

28a

Work, DeVito says that “Frankie Valli and a kid
named Lamonica get arrested for stealing. [Valli’s
mother] calls me very worried, so I tell her I’ll look
into it. She’s terrified Frankie will get sent away.”
DeVito knows the probation officer writing Valli’s
presentence report and convinces him to recommend
probation. In the Play, DeVito promises Valli’s mother
he will watch out for him, then pressures Valli to join
DeVito in robbing a jewelry store. After they are
caught, DeVito tells the judge, “Your Honor. Please.
The kid didn’t know what he was doing. I conned him
into it.” Valli gets probation and DeVito goes to prison.
The only similarities are the unprotectable
historical fact of intervention by DeVito on Valli’s
behalf and Valli’s probation sentence. That Valli
testified at his deposition that neither story is accurate
does not change this analysis. Again, if DeVito’s
memory of events differs from Valli’s, then the account
in the Work is either inconsistent with Valli’s, but
accurate, or it is inaccurate. Either way, it is not
protectable creative fiction. See Hoehling, 618 F.2d at
978–79. As the Work holds it out as true that DeVito
helped Valli, that asserted fact is not copyright
protectable.
3. The “Roman Orgy” Scene
Both the Work and the Play depict a party the
record label threw for the Band during their first
nationwide tour. At the party, DeVito encourages a shy
Gaudio to approach a girl. The Work compares the
party to “a Roman orgy,” and describes a naïve and
embarrassed Gaudio sitting on the ground “look[ing]
like he is going to throw up.” DeVito asks, “‘What’re
you doing? Grab a girl and have a good time.’. . .

29a

[Gaudio] eventually gets up and leaves with one of the
girls. He reminds me of a condemned man leaving for
his last meal. I didn’t know whether it was from his
youth or shyness, but Gaudio is definitely not in a
party mood.”
The Play takes a more graphic approach. The
party scene is set to the song “December, 1963 (Oh,
What a Night).” DeVito tells Gaudio to “grab some
Christmas cheer,” and Gaudio is approached by a girl
and eventually loses his virginity off stage, with
DeVito and Massi reporting his progress to the
audience using space travel metaphors.
As the district court correctly noted, that the party
took place is an unprotectable historical event. That is
also true of the account that Gaudio left the party with
a girl. The only similar dialogue in the two accounts
are the “grab a girl”/”grab some Christmas cheer” lines,
which share only the word “grab.” This loose similarity
does not involve any protectable elements of the
Work, both because the Work represents *983 as
historical fact that DeVito told Gaudio to “grab a girl,”
and because “grab a girl” – actually, “grab” – is an
unprotectable ordinary phrase. See Narell, 872 F.2d at
911.
4. Fake Murder in Valli’s Car
The Work and the Play both depict an incident in
which some men attempt to extort money from Valli
after staging a fake murder in his car. In the Work,
Valli’s car is being driven by a friend, and Valli and
two other people are passengers. An argument between
the two men in the front seat ends when the
passenger says, “Well, asshole, what do you plan to do
about it?” and the driver shoots him. A few days later,

30a

the driver and the other passenger ask Valli for money
in exchange for their silence. Valli turns to DeVito,
who contacts Ray DeCarlo, a mobster. DeCarlo says he
knows the men, assures Valli it was a scam and that
the man was not really killed, and arranges for Valli’s
car to be returned to him unharmed two days later.
The Play recounts a version of the same story, and the
“victim” similarly says, “Yeah, asshole, what’re you
gonna do about it?” before being shot.
The incident itself is an unprotectable historical
event, see Narell, 872 F.2d at 912, and Valli himself
has told the story many times, including to the writers
of the Play. The only similar expression is the
“asshole” line. That line alone is unprotected by
copyright because the Work holds it out as historically
accurate dialogue. The Play may have “taken facts and
ordinary phrases from [the Work], but [it] has not
taken protected expression.” Id.
5. and 6.

The Dialogue Surrounding the
Song Title and Subject Matter of
the Song “Walk Like a Man”

The Work and the Play feature a similar portrayal
of the origin of the title of the song “Walk Like a Man,”
written by Gaudio. The Work describes the Band
kidding Gaudio about the title but does not attribute
the teasing to a specific person:
“‘Walk Like A Man?’. As opposed to what —
like a woman?”
“No, no,” explains Gaudio defensively, “the
song is directed to teenage boys who need to
walk and talk like men.”
“In other words, instead of like girls.”

31a

“No! Instead of like boys. This song is going to
serve as an anthem for every teenage boy who
has let some girl twist him around her little
finger!”
The Play features similar dialogue, but portrays
DeVito as mocking Gaudio rather than playfully
teasing him:
TOMMY: I don’t get it.
BOB: What don’t you get, Tommy?
TOMMY: The title, Walk like a man. . . . As
opposed to what — a woman?
BOB: It’s for boys, Tommy. Teenage boys.
We’re telling them to act like men.
TOMMY: Instead of like girls.
BOB: Instead of like boys. Why are you doing
this?
CREWE: Look, Miss Congeniality — it’s a
metaphor. This is an anthem for every guy
who’s ever been twisted around a girl’s little
finger!
The parties do not dispute that this conversation
actually happened, so the event itself is not
protectable. They do dispute whether the particular
language used in the Work was original expression,
rather than a report of what was actually said.
Corbello claims that the dialogue was “Woodard’s
invented banter,” and thus protected expression.
DeVito testified that he did not remember supplying
Woodard the words “anthem” or “twisted around a
girl’s finger.” Gaudio testified that the dialogue does

32a

reflect the substance and language of the actual
conversation, and that he described the argument
using these phrases to the writers of the Play.*984 We
need not resolve this factual dispute. Whether the
dialogue accurately represents what was actually said
does not change our analysis. The dialogue is held out
by the Work as a historically accurate depiction of a
real conversation. The asserted facts do not become
protectable by copyright even if, as Corbello now
claims, all or part of the dialogue was made up.
III.

Conclusion

Given the Work’s emphatic representation that it
is a nonfiction autobiography, the Play did not infringe
on any of the protected expressive elements of the
Work, even if the writers of the Play “appropriated
[Woodard’s] historical research.” Narell, 872 F.2d at
911. As the similarities between the Play and the
Work involve only elements of the Work not protected
by copyright, we affirm the district court’s grant of
JMOL.6
AFFIRMED.

6

Because we affirm, we do not reach the questions
whether the district court erred in granting JMOL that Valli and
Gaudio had not committed infringement, whether the district
court abused its discretion in ordering a new trial, or whether this
case should be reassigned to another district judge.

33a

APPENDIX B
UNITED STATES DISTRICT COURT
District of Nevada
2:08-cv-00867-RCJ-PAL

DONNA CORBELLO,

Plaintiff,
v.
THOMAS GAETANO DEVITO, et al.,

Defendants.
Decided June 13, 2017
ROBERT C. JONES, United States District Judge
ORDER
Plaintiff Donna Corbello is the widow and heir of
Rex Woodard, who assisted Defendant Thomas
Gaetano “Tommy” DeVito in writing his unpublished
autobiography Tommy DeVito – Then and Now (“the
Work”). Plaintiff sued DeVito and others when they
used the Work to develop the screenplay for Jersey
Boys (“the Play”), a hit musical based on the band The
Four Seasons that has played in the United States,
Canada, England, and Australia. Corbello sued several
Defendants for copyright infringement, and she sued
DeVito for an accounting. The Court granted summary
judgment to Defendants. The Court of Appeals
reversed in part and remanded for trial. At the close of

34a

Plaintiff’s evidence, Defendants orally moved for
judgment as a matter of law, and the Court granted
the motion in part and denied it in part, ruling that
Defendants Frankie Valli and Robert Gaudio were
entitled to judgment as a matter of law against the
claims of copyright infringement, and that all
Defendants were entitled to judgment as a matter of
law against enhanced damages for willful copyright
infringement. The jury returned a verdict for Plaintiff.
Three post- trial motions are pending before the Court.
I.

FACTS AND PROCEDURAL HISTORY
A. Factual Background
1.

The Work

Rex Woodard was an attorney, author, and avid
Four Seasons fan. He finally met Defendant and
founding Four Seasons member Tommy DeVito for an
interview on December 9, 1981, as a result of the
publicity generated from an article Woodard had
written about the band in Goldmine magazine earlier
that year (the “1981 Article”) that focused on the years
between the band’s breakup in 1970 and reconstitution
in 1975. (See Third Am. Compl. ¶¶ 26–29, ECF No.
457). On December 23, 1981, Woodard interviewed
Tommy’s brother Nick DeVito, and on January 8, 1982,
he interviewed Nick Massi, another founding member
of The Four Seasons. (Id. ¶ 29). The result of these
three interviews was a second article published in
Goldmine in June of 1982 (the “1982 Article”), which
focused on the band’s earliest incarnation, The Four
Lovers. (Id.).
Woodard kept in touch with DeVito and founding
Four Seasons member Frankie Valli throughout the

35a

1980s, and in November of 1988 Woodard flew to Las
Vegas, Nevada for a series of interviews (the “1988
Interviews”) with DeVito that sowed the seeds of the
present litigation. (See id. ¶ 31–32). During these
interviews, DeVito explained to Woodard that except
for Valli and final Four Seasons founding member
Robert “Bob” Gaudio, the members of the band (DeVito
and Massi) had spent several years engaged in
criminal enterprises and in prison and retained
“underworld contacts” throughout the band’s era of
popularity. (See id. ¶ 32). Because this revelation was
in stark contrast to the clean-cut image of the band
presented in the popular media, Woodard realized the
journalistic value of the story, and DeVito offered
Woodard the opportunity to write his authorized
biography with full credit and an equal share in any
profits. (See id.).
Woodard returned to Beaumont, Texas to begin
writing DeVito’s authorized biography (the
“Work”),which has never been *1060 published. (See
id.). On December 1, 1988, Woodard sent DeVito a
letter (the “Letter Agreement”) memorializing their
previous verbal understandings concerning creation of
the Work. (Id. ¶ 33). DeVito signed the Letter
Agreement beneath the word “APPROVED” and
mailed it back to Woodard. (See id.; Letter Agreement,
Dec. 1, 1988, ECF No. 457–11). The Letter Agreement
reads in full:

36a

December 1, 1988
Mr. Tommy DeVito [street address] Las Vegas,
Nevada [zip code]
Dear Tommy:
I am making progress on the taped interviews
we did. You suggested that I prepare a written
memorandum of our arrangement for future
reference. I will do so by this letter.
I agreed to write your authorized biography
based on the recorded interviews you gave me,
plus any other relevant information which
would benefit the book. You and I will be
shown as co- authors, with you receiving first
billing. I will do all of the actual writing, but
you will have absolute and exclusive control
over the final text of this book.
We have further agreed that we will share
equally in any profits arising from this book,
whether they be in the form of royalties,
advances, adaptations fees, or whatever. This
agreement will be binding upon our heirs, both
as to obligations and benefits, in the event one
or both of us should die.
If this letter accurately sets forth our
agreement as you understand it, sign the
enclosed photocopy where indicated and return
it to me in the enclosed self- addressed,
stamped envelope. Keep this original letter in
your own file.

37a

Thank you for asking me to work with you on
this project. I look forward to working with you
over the next several months.
Sincerely,[signed Rex Woodard] Rex Woodard
RW/mlEnclosures
APPROVED: [signed Tommy Devito]
TOMMY DEVITO (Letter Agreement).
Over the next two years, Woodard used the 1988
Interviews and all of his other knowledge about the
band to create the Work, including his past interviews
with band members, newspaper articles, magazine
articles, album linings, Freedom of Information Act
requests he filed with law enforcement agencies, and
questionnaires he sent to DeVito. (Third Am. Compl.
¶ 34). Woodard compiled all of this information into
the Work, resulting in a first- person, narrative-style
biography told from DeVito’s perspective. (See id.).
Woodard remained in close contact with DeVito
throughout his creation of the Work and sent DeVito
each chapter for approval and editing as it was
completed. (Id. ¶ 35).
2. Woodard’s and DeVito’s Publication Attempts
As the Work neared completion in late 1990,
Woodard and DeVito attempted to find a publisher and
even provided an outline of the Work to actor Joe Pesci
to explore adaptation to a screenplay. (See id. ¶ 36).
Plaintiff provides a copy of what she claims is a cover
sheet to a January 1991 version of the Work, which
reads in full:
UNTITLED

TOMMY

DEVITO/FOUR

38a

SEASONS BIOGRAPHY
....
TOMMY DEVITOREX WOODARD©,
January, 1991
(See January 1991 Work Cover Page, ECF No.
1061457–15).*1061 Though he never smoked, Woodard
had been diagnosed with lung cancer in 1989, and his
condition had begun seriously to worsen by late 1990.
(Id. ¶ 39). By February or March of 1991, he was
bedridden, and he died on May 25, 1991, at age fortyone. (Id. ¶ 40). Woodard had hoped that income
generated from the Work would support his wife and
children. (Id. ¶ 41).
3.

Plaintiff’s
Attempts

and

Ceen’s

Publication

In accordance with Woodard’s wishes, Plaintiff and
Woodard’s sister Cindy Ceen continued to seek
publication after Woodard’s death independently of
DeVito; however, public interest in The Four Seasons
had waned, making it difficult to find a publisher. (Id.
¶ 42). In September 2005, Ceen decided to contact
DeVito for his assistance in publishing the Work. (See
id.). Ceen first contacted a prominent member of an
Internet Four Seasons fan group named Charles
Alexander to facilitate contact with DeVito. (See id. ¶
43). On September 22, 2005, Alexander responded to
Ceen that he had met with DeVito the previous day,
had told DeVito of Ceen’s desire to publish the Work,
and that DeVito had agreed to help. (See id.). Ceen
called DeVito the same day at a telephone number
provided by Alexander, and DeVito indicated that he
wanted to update the Work with post-1990 events and

39a

restore some “obscene” language Woodard had omitted.
(Id.). DeVito also claimed he had lost his copy of the
Work and asked Ceen for a replacement, which she
mailed to DeVito the next day, along with a letter
memorializing their telephone conversation and
informing DeVito that Plaintiff was considering selfpublishing the Work if a traditional publisher could
not be found. (Id.). Neither Plaintiff nor Ceen heard
from DeVito again. (Id. ¶ 44). DeVito’s attorney Jay
Julien left Ceen a voicemail message on November 2,
2005, and Ceen returned his call the next day, during
which conversation Julien told Ceen that he had
spoken with DeVito regarding the Work and concluded
that it was “not saleable.” (Id.). Ceen was surprised by
this conclusion, because the play Jersey Boys was
scheduled to open on Broadway a few days later. (Id.).
Julien did not disclose that the Work had been used or
exploited in any way or that rights in the Work had
been licensed or assigned. (Id.).
4.

Jersey Boys and Plaintiff’s Discovery of
the Alleged Infringements

By late 2006, Jersey Boys had become a Broadway
hit, earning four Tony Awards. (Id. ¶ 45). Plaintiff had
not seen the show, but she and Ceen estimated that
the show’s success would revive interest in the band
and make publication of the Work viable. (Id.).
Plaintiff and Ceen engaged counsel to confirm the
registration of Woodard’s and DeVito’s copyright in the
Work, to register the copyright if not yet registered,
and to contact Julien to see if DeVito had changed his
mind about joint publication of the Work in light of
Jersey Boys ‘s success. (Id.). A January 3, 2007 search
of the U.S. Copyright Office’s online records indicated

40a

no registration of the Work to Woodard but showed
that on January 11, 1991 (four months before
Woodard’s death), DeVito had registered a literary
work entitled Tommy DeVito – Then and Now, Reg.
No. Txu 454 118 (the “DeVito Work”). (Id. ¶ 46).
Plaintiff’s counsel ordered a copy of the registration
and discovered that DeVito had registered the DeVito
Work in his own name only, claiming that the work
was unpublished and that he wrote it in its entirety in
1990. (Id. ¶ 47). Plaintiff’s counsel ordered a copy of
the DeVito Work itself and discovered that the DeVito
Work was identical to the Work, and in fact appeared
to be a photocopy of the manuscript typed by
Woodard’s secretary Myrtle Locke, with two *1062
exceptions. (Id. ¶¶ 48–49). First, the original cover
page from the January 1991 version of the Work had
been replaced with a cover page in a different font and
font size, reading:
TXu 454 118
....
Tommy DeVito – Then and Now by Tommy DeVito
(Id. ¶ 49; see DeVito Work Cover Page, ECF No.
457–23). Second, the first page of Chapter 41 (page 264
of the Work) was missing. (See Third Am. Compl. ¶
49). Plaintiff concluded in light of the Letter
Agreement and her dealings with DeVito and his
counsel after Woodard’s death that DeVito had
registered the Work without credit to Woodard or
disclosure to Woodard or his heirs. (Id. ¶ 50).
Plaintiff also soon discovered that the writers of
and several actors in Jersey Boys had access to the
Work and that DeVito had received royalties or other

41a

profits from Jersey Boys, and she concluded that the
Work had “inspired the form, structure, and content of
the musical. . ..” (See id. ¶ 51). As support for this
conclusion, Plaintiff notes that Defendant Des
McAnuff, the director of Jersey Boys, was quoted in a
July 8, 2006 report in Backstage magazine as stating
that Defendants Marshall Brickman and Eric Elice
had relied in part on “an unpublished autobiography
by DeVito” in creating the libretto. (See id. ¶ 52).
Plaintiff notes that Christian Hoff, the first actor to
play DeVito in Jersey Boys, stated in what appears to
be an online interview that he was provided with a
synopsis of the Work for his audition and a full copy
for background research. (See id.). Plaintiff also cites
to a Wikipedia entry for support that the Work served
as a basis for the musical. (See id.). Plaintiff also notes
an exchange on a Jersey Boys podcast website
indicating that one fan had reported to another that
the musical was based on DeVito’s unpublished
biography. (See id.). Plaintiff also saw public reports of
DeVito’s financial profits from the musical. (See id.).
5.

Pre–Litigation Negotiations

On June 13, 2007, Plaintiff’s counsel wrote Julien
by email and overnight courier demanding that DeVito
execute an application for supplementary registration
with the U.S. Copyright Office to add Woodard as a
coauthor and co-claimant of the Work and demanding
an accounting of profits in accordance with the Letter
Agreement. (Id. ¶ 53). Counsel conferred with one
another by email and telephone between June and
October 2007, and Julien admitted at one point that
DeVito had provided a copy of the Work “to Jersey
Boys” and expressed interest in the possibility of a

42a

joint copyright infringement action against “Jersey
Boys,” but later decided that Plaintiff’s only recourse
was a suit against DeVito because he had authorized
the use of the Work. (Id. ¶ 54). Although DeVito
initially considered filing a supplemental registration
of the Work to credit Woodard, he later refused,
claiming that he in fact was the sole author and that
Woodard had been a mere scribe. (Id.).
On July 2, 2007, Plaintiff filed her own
supplementary application with the U.S. Copyright
Office to add Woodard as a coauthor and co-claimant
of the Work, but the office rejected the application
because DeVito, the original claimant, had not signed
it. (Id. ¶ 55). Under 17 U.S.C. § 201(a), the office could
not permit a non-author, non-claimant of an original
registration, i.e., a “basic registration,” to supplement
the basic application. However, such a person could
apply to register her own work, in which case the office
would consider the new claim to be adverse to the
existing claim if the claims purported to register the
same work exclusively to *1063 different claimants.
(See Copyright Office Letter, June 16, 2008, ECF No.
457–27, at 7). However, the Copyright Office Review
Board granted Plaintiff’s appeal based on a closer
examination of regulations and practices, determining
that her supplemental registration could be accepted,
and that a certificate of registration would be issued
after processing. (See Copyright Office Letter, Mar. 27,
2009, ECF No. 457–28). The amended certificate, Reg.
No. Txu1 372–636, lists Woodard and DeVito as
coauthors of the entire text of the Work and coclaimants thereto. (See Certificate of Registration
TXu1 372–636, July 3, 2007, ECF No. 457–29).

43a

Thereafter, further indication of the connection
between Jersey Boys and the Work emerged through
public sources such as public interviews of certain
Defendants. (See Third Am. Compl. ¶ 56). Plaintiff
alleges that the evidence that the musical was an
adaptation of the Work means that Jersey Boys is a
“derivative work” of the Work under 17 U.S.C. § 101.
(See id. ¶ 57). Plaintiff recounts various similarities
between Jersey Boys and the Work. (See id.).
6.

The “Cover–Up”

DeVito and Julien then took steps to conceal the
fact that DeVito had exploited the Work to create and
profit from Jersey Boys. (See id. ¶ 58). First, DeVito
withdrew his quotes from Charles Alexander’s forward
to the upcoming Jersey Boys book, because the use of
those quotations would have linked the book, and
hence the musical, to the Work. (See id.). Second,
DeVito reported in an interview that he had never
shown the Work to anyone except Brickman, Elice, and
McAnuff, the writers and director of Jersey Boys. (Id.).
Third, DeVito “dismantled” his website (www.tommy
devito.com) to remove reference to “his SMASH HIT
Jersey Boys.” (Id.). Fourth, he stated in an interview
that he had dictated the Work to a lawyer and that the
book was not to be published yet. (Id.).
7.

DeVito’s Licensing of the Work

Certain documents made public during Valli’s
divorce proceedings in July 2008 revealed that DeVito
had granted Valli and Gaudio an exclusive,
irrevocable, perpetual, worldwide, assignable license
(the “1999 Agreement”) freely to use and adapt certain
“Materials,” including his “biographies,” for the

44a

purpose of creating a musical based on the “life and
music” of The Four Seasons. (Id. ¶ 59). The 1999
Agreement included the right to “ancillary and
subsidiary exploitations thereof including, without
limitation, cast albums, motion picture and televised
versions, merchandise, and/or other works . . . in all
media now existing or later devised.” (Id.). The 1999
Agreement waived any claim of copyright infringement
by DeVito, provided that DeVito would be entitled to
20% of any royalties Valli and Gaudio obtained
through exploitation of the Materials, and provided
that Massi would be entitled to 5% of any such
royalties. (See id.). Plaintiff suspects that Valli and
Gaudio further licensed the Materials, which included
the Work, to one or more unknown authors in 1999 for
adaptation into an early version of Jersey Boys called
Walk Like a Man. (See id.). When the original
producer rejected Walk Like a Man, Valli and Gaudio
fired its authors, permitted their agreement with the
original producer to lapse, and further licensed the
Materials to Brickman and Elice, who used them to
write Jersey Boys. (See id.). Plaintiff implies that
Valli’s and Gaudio’s joint ventures related to their
exploitation of the Materials constitute a general
partnership as a matter of law that Plaintiff refers to
as “The Four Seasons Partnership.” (See id. ¶ 4–5).
8.

Jersey Boys

The Jersey Boys
foundational production
agreement (the “Jersey Boys Agreement”) *1064 is
dated May 1, 2004. (See id. ¶ 61; Jersey Boys
Agreement 1, ECF No. 457–34, at 2). The Jersey Boys
Agreement lists five parties: Valli and Gaudio as
“Owner,” Brickman and Elice as “Bookwriter,” and

45a

Dodger Stage Holding Theatricals, Inc. (now known as
DSHT, Inc.) as “Producer.” (See Jersey Boys
Agreement 1). The copies of the signature page of the
Jersey Boys Agreement attached to the Third
Amended Complaint (“TAC”) include signatures by all
of these parties except Brickman, and DSHT’s
signature is typewritten, without the handwritten
signature of any natural person as an agent of DSHT.
(See id. at 24, ECF No. 457–34, at 25–26).
The signatures are not dated. (See id.). The Jersey
Boys Agreement is comprehensive and appears to
govern the worldwide exploitation of Jersey Boys. (See
generally id.). The details of the twenty- three-page
agreement need not be recounted here, but will be
noted where relevant to the determination of claims.
The Jersey Boys Agreement includes a schedule and
two exhibits as attachments, all of which the base
agreement identifies. Schedule A is a table of musical
compositions to be used in the musical along with
details of authorship and copyright ownership. Exhibit
A is the 1999 Agreement. Exhibit B is a list of
“payment instructions” consisting of addresses for
mailing payments to the signatories and other
beneficiaries.
Plaintiff believes that DSHT further assigned or
licensed its rights under the Jersey Boys Agreement to
Defendant Dodger Theatricals, Ltd., which is the
primary producer of Jersey Boys on Broadway, tours
throughout the United States, and in London, U.K.
(See Third Am. Compl. ¶ 62). Plaintiff believes that
DSHT and/or Dodger Theatricals further licensed their
rights to others and eventually assigned them to
Defendant Jersey Boys Broadway Limited

46a

Partnership, which in turn licensed them to several
parties, including Defendants JB Viva Vegas and
Jersey Boys Records Limited Partnership. (See id.).
Plaintiff alleges that Jersey Boys has earned profits of
approximately $150 million per year, with a life
expectancy of at least ten years, and believes she is
entitled to at least $6.5 million. (See id. ¶ 70).
B. Procedural History
1.

The Present Lawsuit

In December 2007, Plaintiff sued DeVito in the
U.S. District Court for the Eastern District of Texas on
three causes of action: (1) declaratory judgment; (2)
equitable accounting; and (3) breach of contract. That
court transferred the case to this District in 2008
pursuant to 28 U.S.C. § 1404(a), without deciding
whether it had personal jurisdiction over DeVito, and
it denied Plaintiff’s motion to reconsider. The TAC,
filed in March 2011, lists fourteen Defendants and
twenty causes of action: (1) declaratory judgment
(DeVito); (2) equitable accounting (DeVito); (3) breach
of contract (DeVito); (4) unjust enrichment (DeVito);
(5) breach of the covenant of good faith and fair dealing
(DeVito); (6) constructive fraud (DeVito); (7) fraud
(DeVito); (8) conversion (DeVito); (9) copyright
infringement under § 16(2) of the Copyright, Designs,
and Patents Act of 1988 (U.K.) (DeVito); (10) copyright
infringement under § 27(1) of the Copyright Act,
R.S.C. 1985 (Can.) (DeVito); (11) copyright
infringement under §§ 115(1), 36, and 39 of the
Copyright Act of 1968 (Cth) (Austl.) (DeVito); (12)–(13)
declaratory judgment (Valli, Gaudio, DSHT, Dodger
Theatricals, and Jersey Boys Broadway); (14) equitable
accounting (Valli, Gaudio, DSHT, Dodger Theatricals,

47a

and Jersey Boys Broadway, in the alternative) (15)
copyright infringement under 17 U.S.C. § 501(a) (Valli,
Gaudio, Brickman, Elice, McAnuff, DSHT, Dodger
Theatricals, *1065 Jersey Boys Broadway, JB Viva
Vegas, and Jersey Boys Records); (16) vicarious
copyright infringement under 17 U.S.C. § 502 (Valli,
Gaudio, Brickman, Elice, McAnuff, DSHT, Dodger
Theatricals, Jersey Boys Broadway, Jersey Boys
Records, Skunk, and Getting Home); (17) contributory
copyright infringement under 17 U.S.C. § 502 (Valli,
Gaudio, Brickman, Elice, McAnuff, Michael S. David,
DSHT, Dodger Theatricals, Jersey Boys Broadway,
and Jersey Boys Records); (18) copyright infringement
under § 16(2) of the Copyright, Designs, and Patents
Act of 1988 (U.K.) (Valli, Gaudio, Brickman, Elice,
McAnuff, DSHT, Dodger Theatricals, and Jersey Boys
Broadway); (19) copyright infringement under § 27(1)
of the Copyright Act, R.S.C. 1985 (Can.) (Valli, Gaudio,
Brickman, Elice, McAnuff, DSHT, Dodger Theatricals,
and Jersey Boys Broadway); and (20) copyright
infringement under §§ 115(1), 36, and 39 of the
Copyright Act of 1968 (Cth) (Austl.) (Valli, Gaudio,
Brickman, Elice, McAnuff, DSHT, Dodger Theatricals,
and Jersey Boys Broadway).
2.

The First Summary Judgment Order
(ECF No. 300)

On March 31, 2010, the Court issued an order
resolving ten pretrial motions as against the Second
Amended Complaint (“SAC”). The Court denied
DeVito’s motion to dismiss, or in the alternative for
summary judgment, finding that certain state law
defenses were preempted by the Copyright Act and
that in any case there was no evidence of an attorney-

48a

client relationship but only of a business relationship
between DeVito and Woodard. The Court also found
that there remained genuine issues of material fact as
to the eligibility of the Work or certain parts of it for
copyright protection and as to what parts of the Work
were used to create Jersey Boys. The Court granted
Corbello’s cross motion for summary judgment as to
DeVito’s state law defenses but denied it as to
infringement for the same reasons the Court denied
DeVito’s motion.
The Court denied Valli’s, Gaudio’s, Brickman’s,
Elice’s, McAnuff’s, DSHT’s, Dodger Theatricals’, and
JB Viva Vegas, LP’s (collectively, “New Defendants”)
motion to dismiss counts 15–17 for copyright
infringement. New Defendants argued that DeVito had
waived and released any right to sue them and that
they had an implied nonexclusive license from DeVito.
Finding no New York law to the contrary, the Court
ruled in accordance with Ninth Circuit precedent that
a failed attempt to grant an exclusive license could
result in a nonexclusive license and that that was
what happened in this case according to undisputed
facts. The Court denied the motion to dismiss,
however, because it had been sufficiently alleged that
New Defendants had sublicensed the work beyond the
scope of their own license.
The Court denied Brickman’s, Elice’s, McAnuff’s,
DSHT’s, Dodger Theatricals’, and JB Viva Vegas, LP’s
other motion to dismiss counts 15–17 for copyright
infringement. Movants argued that the alleged
similarities were unprotectable under copyright law,
that many alleged similarities were not similarities,
and that there was no “bodily appropriation” or

49a

“wholesale appropriation” of the Work by the Jersey
Boys script. The Court found the claims to have been
sufficiently alleged.

The Court denied Valli’s, Gaudio’s, DSHT’s, and
Dodger Theatricals’ motion to dismiss counts 13–14 for
declaratory judgment and an equitable accounting,
finding that Corbello had sufficiently alleged in the
alternative that DeVito had assigned his copyright in
the Work via the 1999 Agreement such that movants
could authorize others to use it but would owe *1066
Corbello, a joint owner, an accounting for any profits
thereby obtained.
3.

The Second Summary Judgment Order
(ECF No. 661)

On October 27, 2011, the Court granted in part
and denied in part two summary judgment motions.
Corbello and Defendants Valli, Gaudio, DSHT, Dodger
Theatricals, and Jersey Boys Broadway filed cross
motions for summary judgment as to counts 12–14 for
declaratory judgment and an equitable accounting. As
to count 12 for a declaration that DeVito as a joint
owner of the Work lacked the legal ability to grant
Valli and Gaudio an exclusive license and that the
1999 Agreement was therefore either void, a
nonexclusive license, or a transfer of DeVito’s rights in
the Work, the Court denied summary judgment, ruling
that the 1999 Agreement was not a transfer of
ownership but a license that was exclusive as against
DeVito but nonexclusive as against Corbello. As to
count 13 for an alternative declaration that the 1999
Agreement permitted Valli and Gaudio to further
transfer or license the Work, that they did transfer or
license the Work to DSHT and/or Dodger Theatricals

50a

via the Jersey Boys Agreement, and that Dodger
Theatricals thereafter transferred or licensed the
Work to Jersey Boys Broadway, the Court granted
summary judgment to Plaintiff in part, ruling that the
1999 Agreement permitted further assignment and
that Valli and Gaudio had further assigned the rights
in the Work to DSHT via the Jersey Boys Agreement,
but that it was not clear whether there had been any
further assignment. The Court granted summary
judgment to Defendants as to count 14 for an
accounting because there had been no transfer of the
Work, and the relevant agreements included no duty
to account.
4.

The Third Summary Judgment Order
(ECF No. 780)

On January 31, 2012, the Court adjudicated seven
of the seventeen claims then remaining and entered
judgment in favor of all Defendants except DeVito and
David. Jersey Boys Records had moved for summary
judgment based on personal jurisdiction and failure to
state a claim. The Court found that it had personal
jurisdiction over Jersey Boys Records but granted the
motion on the merits, ruling that Plaintiff had adduced
no evidence that Jersey Boys Records had control over
any other Defendant, that there was no allegation that
Jersey Boys Records was aware of any infringement
(so it could not be liable for contributory infringement),
and that the album at issue did not pass the extrinsic
test as to substantial similarity to the Work. The
Court denied two motions for summary judgment
based on the statute of limitations. The Court denied
David’s motion for summary judgment based on
personal jurisdiction. The Court denied a motion for

51a

summary judgment on the merits of the infringement
issue as moot because the Court contemporaneously
granted another motion based on the Defendants’
having licenses to use the Work. The Court granted a
motion for summary judgment as against the claims of
infringement under foreign law, following the Second
Circuit’s persuasive ruling that the Berne Convention
did not provide choice-of-law rules for copyright
claims, finding that U.S. law governed issues of
copyright ownership and licensing in this case even if
foreign law governed substantive infringement claims
and that the licenses under U.S. law protected
Defendants from the foreign infringement claims. The
Court granted Corbello’s motion for summary
judgment as to declarations that the Work was a joint
work, that Woodard was a co-owner of the Work, and
that DeVito held a 50% interest in the *1067 Work in
constructive trust for Corbello, as successor-in-interest
to Woodard.
5.

Further District Court Proceedings

At that point, claims 2–11 against DeVito
remained for trial. On July 9, 2012, the Court denied
fees to Defendants, added David to the Judgment, and
certified the Third Summary Judgment Order and the
present order for immediate appeal under Rule 54(b).
6.

The Appeal and Remand

Corbello appealed the certified orders, and on
February 10, 2015, the Court of Appeals reversed in
part, ruling that the 1999 Agreement had been a
transfer of ownership such that Valli and Gaudio
became joint owners with Corbello in 1999, Corbello v.
DeVito, 777 F.3d 1058, 1064 (9th Cir. 2015), and that

52a

although Valli and Gaudio could not be liable for
infringement while they were joint owners, there
remained a genuine issue of material fact whether the
1999 Agreement’s reversionary clause had later been
triggered such that Valli and Gaudio might be liable
for infringement for their use of the Work thereafter,
id. at 1066–67. The Court of Appeals also ruled there
remained a genuine issue of material fact as to
whether DeVito had granted Valli and Gaudio an
implied nonexclusive license upon reversion. Id. at
1067–68.
7.

The Fourth Summary Judgment Order
(No. 872)
Before trial, the parties requested that the Court
determine certain issues as a matter of law, i.e.,
whether certain parts of the Work were protected at
all, whether the Work was entitled to “thick” versus
“thin” copyright protection, and whether Defendants
were entitled to summary judgment on the
infringement issue under the extrinsic test. The Court
ruled that under the law of the case, the jury would
have to be instructed that the 1999 Agreement was a
transfer of ownership whereby Valli and Gaudio
became joint owners with Corbello, and that Valli and
Gaudio could not be liable for infringement while they
were joint owners. The jury would also have to
determine whether the 1999 Agreement’s reversionary
clause was ever triggered such that Valli and Gaudio
might be liable for infringement thereafter. If the
exclusive license had reverted, the jury would also
have to determine whether DeVito had granted Valli
and Gaudio an implied nonexclusive license such that
they could not have been liable for infringement even
after their ownership interest reverted to DeVito.

53a

Finally, the jury would have to determine
infringement under direct copying or substantial
similarity theories. To find liability under the latter
theory, the jury would first have to perform the
extrinsic test. The Court granted summary judgment
in part as to the extrinsic test, finding that regular
“thick” copyright protection did not apply as a matter
of law, so the jury would have to be instructed that if
the Work passed the extrinsic test, the jury would then
have to apply “thin” protection under the intrinsic test.

See Funky Films, Inc. v. Time Warner Entm’t Co.,
L.P., 462 F.3d 1072, 1076–77 (9th Cir. 2006); Apple
Computer, Inc. v. Microsoft Corp., 35 F.3d 1435, 1443

(9th Cir. 1994). The Court also noted at a status
conference that it intended to bifurcate the trial into
infringement and damages phases and intended to
hold accounting proceedings without a jury if any
Defendant were found to be liable for infringement or
an accounting.
8.

The Fifth Summary Judgment Order
(No. 972)

The parties filed four additional motions for
summary judgment. Plaintiff asked the Court to grant
her summary judgment against the affirmative
defense of an implied *1068 nonexclusive license and
whether the 1999 Agreement had reverted. Defendants
asked the Court to grant them summary judgment
based on fair use and against the UK, Canadian, and
Australian infringement claims. The Court denied all
four motions.
9.

The Trial

After 15 days of trial, the Court mostly denied
Defendants’ motion for a judgment as a matter of law

54a

but granted the motion in favor of Valli and Gaudio as
to infringement and in favor of all Defendants as to
willful infringement. The jury found: (1) Tommy
DeVito did not grant Defendants an implied
nonexclusive license to use the Work to create the
Play; (2) the Play infringed the Work; (3) the use of the
Work in the Play did not constitute fair use; (4) 10% of
the success of the Play was attributable to
infringement of the Work; and (5) the remaining
Defendants were liable for direct infringement (as
opposed to vicarious or contributory infringement).
II. DISCUSSION
Three substantive motions are pending before the
Court. First, DeVito has asked the Court to vacate part
of a previous order requiring his royalty payments
from Defendants to be placed into escrow, because he
has settled with Plaintiff. Second, Defendants have
renewed their motion for judgment as a matter of law.
Third, Defendants have moved for a new trial.
A. DeVito’s Motion
The Court grants DeVito’s motion and will
separately enter the proposed order attached thereto.
No party has objected (although Defendants have
“replied” to the motion in order to make additional
arguments against the outcome of the trial).
B. Renewed Motion for Judgment as a Matter of
Law
Defendants note that during trial, the Court stated
it believed Defendants were entitled to a directed
verdict on the fair use issue but did not want to risk a
retrial in the case of reversal, and it therefore denied

55a

the Rule 50(a) motion but intended to grant a Rule
50(b) motion. Plaintiff notes that the Court later
opined that it believed the fair use issue was properly
a jury question. The Court has closely examined the
evidence under the relevant standards and concludes
Defendants are entitled to a judgment as a matter of
law on the fair use issue.
Fair use is a mixed question of law and fact
determined by four nonexclusive statutory factors: “(1)
the purpose and character of the use; (2) the nature of
the copyrighted work; (3) the substantiality of the
portion used in relation to the copyrighted work as a
whole; (4) the effect on the potential market for or
value of the copyrighted work.” Harper & Row
Publishers, Inc. v. Nation Enters., 471 U.S, 539,
560–61, 105 S.Ct. 2218, 85 L.Ed.2d 588 (1985) (citing
17 U.S.C. § 107).
1.

Effect on the Potential Market for or
Value of the Copyrighted Work

The fourth Harper & Row factor is the most
important, id. at 566, 105 S.Ct. 2218 (citing 3 M.
Nimmer, Copyright § 13.05[A], at 13–76 (1984)), so the
Court will begin there. The evidence at trial indicated
that before the Play debuted, the Work had no market
value. Woodard, DeVito, Plaintiff, and Plaintiff’s sister
had been unable to find any company interested in
publishing the Work despite their various attempts to
do so between 1990 and 2005, because interest in the
Four Seasons was not great enough to make sales of
the Work profitable. Under these circumstances, the
fourth and most important *1069 Harper & Row factor
“greatly favors” a defendant. Blanch v. Koons, 467 F.3d
244, 258 (2nd Cir. 2006) (affirming summary judgment

56a

under similar circumstances even where the infringing
use was commercial and successfully so, the
copyrighted work was an artistic photograph created
for a magazine advertisement, and the third factor did
not favor either party). Plaintiff only discovered that
DeVito had registered the Work when she attempted
to register it herself in 2007, having been motivated by
the success of the Play, which had opened in 2006. To
the extent the Work may be profitable today, it is
almost certainly only because of the Play, which – and
this is important under the third Harper & Row factor
– consists of over 50% musical works (by running time)
in which Plaintiff has no copyright, and the remainder
of which (the non-musical script of the Play) is
comprised of less than 1% of creative expression found
in the Work and uses less than 1% of the Work. If
anything, the Play has increased the value of the
Work. The fourth, most important factor strongly
favors a finding of fair use.
2.

Purpose and Character of the Use

Commercial use, as here, generally weighs against
a finding of fair use. Harper & Row Publishers, Inc.,
471 U.S. at 562, 105 S.Ct. 2218. The first factor weighs
against fair use in the present case as it does in most
cases, because the producers of the Play have profited
from exploitation of the copyrighted material without
paying the customary price. See id.
3.

Nature of the Copyrighted Work

This factor depends on the extent of the Work’s
creativity and whether it is published. The
biographical nature of the Work (which is claimed
therein to constitute a factual relation of events as

57a

contrasted with other allegedly untrue accounts of
events) weighs in favor of a finding of fair use. See id.
at 563, 105 S.Ct. 2218 (“The law generally recognizes
a greater need to disseminate factual works than
works of fiction or fantasy.”). The unpublished nature
of a work normally weighs against a finding of fair use.
Id. at 564, 105 S.Ct. 2218 (“[T]he scope of fair use is
narrower with respect to unpublished works [because
of] the author’s right to control the first public
appearance of his expression.”). As Defendants note,
however, in this case the publication of (small parts of)
the Work did not diminish its value by preempting
Plaintiff’s right to control the first public appearance
of the Work. The reason the Work was not yet
published was because it was simply not publishable
despite years of effort. As the Supreme Court has
noted, the Senate reasoned that “[t]he applicability of
the fair use doctrine to unpublished works is narrowly
limited since, although the work is unavailable, this is
the result of a deliberate choice on the part of the
copyright owner.” S.Rep. No. 94–473, p. 64 (1975)
(emphasis added). A work that is only unpublished
because it is unpublishable despite great efforts,
however, is an atypical situation. Such a work is not
unavailable to the public because of a deliberate choice
by the copyright owner, but because it is not
commercially viable. In this case, the unpublished
nature of the Work does not overshadow its
biographical nature. The Court finds that this factor
weighs in favor fair use.
4.

Substantiality Used in Relation to the
Copyrighted Work as a Whole

After discounting those similarities based on

58a

unprotected elements of the Work or where the
corresponding element of the Play was original to the
Play, the jury was permitted to consider 12 similarities
between the Work and the Play. (See Jury Instr. No.
27, ECF No. 1076). As recounted in detail, infra, the
amount of protectable, creative material potentially
*1070 copied in relation to the Work as a whole is very
small, less than 1%, even if the jury were to have
applied “thick” as opposed to “thin” copyright
protection.
a. Tommy DeVito’s Introduction
Tommy DeVito’s introduction in the Play
concerning his background copies no creative words
form the Work and accounts for approximately one
minute of the Play from 5:09 to 6:50 (excluding a
musical interlude from 5:30 to 6:07).1 Chapter 1 of the
Work is a five-page tale ofa fourteen-year-old Tommy
DeVito and four of his friends stealing a car for a
joyride and their subsequent arrest. Before the story
about the car begins, the first three sentences
(consisting of 33 words) sets the scene of Tommy
DeVito and his friends “hanging out on a Jersey Street
Corner . . . puff[ing] on cigarettes and dar[ing] anyone
to mess with [them] . . . cool beyond belief.” That is the
copyrightable comparison – DeVito’s “voice, cool
demeanor, and braggadocio” – allegedly copied form
the Work as the DeVito character addresses the
audience at the outset of the Play, after the opening
musical performance. The Play does not recreate the

1

The Court has painstakingly reviewed Exhibit 602 (a
DVD of a Broadway performance of the Play) from the trial and
compared it to Exhibit 13 (the Work).

59a

scene of DeVito and his teenage friends on the street
corner, however, and copies no words from the Work.
b. The Dialogue Surrounding the Song Title
and Subject Matter of the Song “Walk
Like a Man”
In the Play, DeVito argues with Gaudio over the
title to the song, saying he doesn’t “get it.” “Walk like
a man? As opposed to what? A woman?!” DeVito gives
Gaudio a comical concerned look as if to imply the song
has homosexual overtones. Gaudio explains that the
message is not for young boys to act like men instead
of girls but to act like men instead of boys. Band
manager Bob Crewe then explains the song is “an
anthem for any guy who’s ever been twisted around a
girl’s little finger.” The scene then shifts to the band
performing the song. Although the Work indicates that
the band was only “kid [ding]” Gaudio, as opposed to it
having been a legitimate argument with DeVito, and
that Gaudio, not Crewe, made the comment about
being twisted around a girl’s little finger, the dialogue
is very similar. Assuming the jury believed the
dialogue was not a historical recounting but a creation
of DeVito and Woodard – a finding that is unlikely and
perhaps not even permissible given the Work’s claim
of historical accuracy – the closely copied dialogue
consists of about 65 words.
c.

The Beatles Line

The Work contains the protectable lines, “[T]he
Beatles come to represent a whole social movement.
We never aspire to be more than entertainers.”
In the Play, Gaudio says, “Around this time,
there’s a little dust-up called the British Invasion.

60a

Britannia’s ruling the airwaves. So we start our own
American Revolution. The battle begins on a Sunday
night at eight o’clock, and the whole world is
watching.” The scene shifts to historical footage of Ed
Sullivan introducing the band, and then to the band
performing the song “Dawn” onstage. That is, the
actors in the Play perform the song onstage with a
studio camera crew, as if on the Ed Sullivan Show. The
live footage, from the perspective of the camera crew,
is displayed on a screen behind the band in black-andwhite, mimicking what was presented to the TV
audience of the time, along with what are presumably
clips from the actual 1964 studio audience watching
*1071 the actual 1964 performance. The band finishes
the song, and Gaudio says:
We weren’t a social movement like the Beatles.
Our fans didn’t sit and put flowers in their
hair and try to levitate the Pentagon. Maybe
they should have. Our people were the guys
who were shipped overseas, and their
sweethearts. They were factory workers, the
truck drivers, the kids pumping gas, flipping
burgers. The pretty girl with circles under her
eyes behind the counter at the diner. They’re
the ones who really got us, who pushed us over
the top.
The line about the Beatles being a “social
movement” by contrast to the Four Seasons is arguably
protectable as original expression in the Work beyond
bare historical fact.

61a

d. The Creative Expression Within the
Description of the Rock & Roll Hall of
Fame Induction Ceremony
In the Play, Crewe briefly introduces the band,
noting that it had been over 20 years since they last
played together onstage. The band rises up from below
the stage, performing “Rag Doll.” They pause, and
DeVito says, “Is this like bein’ in a fuckin’ time
machine, or what?” Valli asks DeVito how Las Vegas
is. DeVito gives his condolences to Valli about his
daughter’s untimely death. Gaudio says Valli has a
new family now, “three boys.” DeVito invites Valli and
Gaudio to his room after the event. Valli accepts.
Massi asks if they ever thought they’d be standing on
the same stage, and DeVito responds that he never
thought he’d be standing, “period.” DeVito explains
that the Rock and Roll Hall of Fame is the best honor
an artist can receive. Other awards, such as the Oscars
or the Emmys, can be bought, but the Hall of Fame is
an affirmation by the fans. The band then finishes
performing “Rag Doll.”
In the Work, DeVito recalls how he took a phone
call from Valli the morning of the ceremony (January
17, 1990, in New York City) and held a small
gathering in his room. Family and friends attended,
including Massi, but not Valli, whom DeVito didn’t see
until the press conference. Before the press conference,
DeVito was reunited in the same room with Valli,
Massi, and Gaudio for the first time since 1965. “I felt
like I was stepping from a time machine.” He recalled
a “rush of good feelings and warm memories.” Crewe
introduced the band at the ceremony. DeVito recalls
playing a free-for-all “jam session” on stage but does

62a

not recount the band having played “Rag Doll” or any
other song together as a band at the ceremony.
The events recounted in both the Work and the
Play, apart from the basic fact of the induction
ceremony, include the gathering in DeVito’s room and
the “time machine” line. The gathering in DeVito’s
room, however, is a historical event that was not
created by the authors of the Work, and the Court has
already ruled that the “time machine” line is an
ordinary phrase that is not protectable.
e.

The Creative Expression Within the
Description of the “Roman Orgy” Scene

In the Play, Gaudio sings the song “December,
1963 (Oh, What a Night)” while DeVito and Massi
make out with one or more women (Valli is not present
in the scene). Gaudio breaks to explain that the record
company had set up a party in Chicago with some
women around Christmastime during the band’s first
nationwide tour. Gaudio explains that he was a virgin
at the time, but he eventually takes a girl “downstairs”
after DeVito tells him to “grab some Christmas cheer.”
DeVito and Nick Massi look “downstairs” and report
Gaudio’s progress play-by-play to the audience *1072
with comically obscene space travel metaphors. Gaudio
returns “upstairs” and finishes the song.
In the Work, the record company sets up the party
in Detroit. DeVito compares the scene to a “Roman
orgy.” DeVito tells Gaudio to “Grab a girl and have a
good time,” and Gaudio leaves with a girl. DeVito does
not claim in the book that Gaudio was a virgin, but
that he was a “naïve kid.” The only dialogue
potentially copied form the Work into the Play is the

63a

“[g]rab a girl” line, which is not reproduced exactly.
Even assuming it were not a historical fact that DeVito
said that line, the Play added creative elements to it.
The word “grab” and the image of Gaudio bowed over
with his hands on his knees are protectable if not
meant to be historically accurate, about 20 words
worth. The event itself is an unprotectable historical
event.
f.

The Creative Expression Regarding the
Introduction of the Song “Sherry”

The Play, like the Work, recounts how Bob Gaudio
arrived late to a rehearsal excited about a new song he
just wrote. In the Play, contrary to Gaudio’s and Valli’s
enthusiasm for the song, DeVito thinks the song is no
good, “bullshit,” and that it was a “fuckin’ insult”
Gaudio wrote it “fifteen minutes ago.” The band calls
Crewe, who loves it. The scene shifts to disc jockey
“Barry Belson” praising the record and announcing the
band’s upcoming appearance on American Bandstand.
The scene then shifts to the band performing “Sherry”
on stage.
In the Work, Gaudio arrives late to the rehearsal
and announces he thinks he wrote a hit. He plays
“Sherry” on the piano. DeVito recalls he liked the song
but “didn’t think [they] could get away with it,”
because the song was about a girl much younger than
the band members. Crewe, however, was at the
rehearsal and heard “Sherry” the same time the band
members did. He added it to the recording session
because he though it had potential. The band released
the song on their album but didn’t yet perform it on
stage. Disc jockey “Murry the K” played the song in
New York City for a call-in poll, but the song came in

64a

third. The band was dejected, but soon found out the
record had sold 180,000 copies. They then play
“Sherry” onstage, and the audience “goes nuts.”
The dialogue in the Play is not copied from the
Work. Only the unprotectable historical facts of
Gaudio having written the song at the last minute and
the song being a hit are potentially copied from the
Work. The dialogue is completely different, as is
DeVito’s initial reaction to the song.
g. The Creative Expression Regarding the
Introduction of the Song “Big Girls Don’t
Cry”
In the Play, Gaudio recounts to the audience that
he was wondering where his next hit would come from
as he was watching a John Payne movie. Payne’s
character slapped Rhonda Flemming’s character and
asked her what she thought about it, to which she
replied, “Big girls don’t cry.” In the Play, Gaudio
finishes the story with the words, “and she says “ The
line “Big girls don’t cry” is then sung by Valli as the
band begins the song onstage.
In the Work, DeVito relates that it was Crewe who
was inspired by the Rhonda Flemming line and that
Crewe co-wrote the song with Gaudio. The only
similarity is the unprotectable historical fact that the
song was inspired by the Rhonda Flemming line.
h. The Creative Expression Regarding the
Introduction of the Song “Walk Like a
Man”
This issue is redundant with “The Dialogue
Surrounding Song Title and Subject *1073 Matter of

65a

the Song ‘Walk Like a Man.’” See supra.
i.

The Creative Expression Regarding the
Introduction of the Song “Dawn”

The introduction of the song “Dawn” in the Play is
described, supra, in connection with “The Beatles
Line.” The Work recounts that Sandy Lindzer
approached Gaudio with a partially written “Dawn,”
and that Gaudio recognized its potential and finished
it. The Work notes that the Beatles had “hit the public
consciousness like a load of bricks” when “Dawn” was
ready for release. The Work recounts the billboard
competition between the Beatles and the Four Seasons
for several pages, but the Play does not address this.
In summary, the Court cannot identify any protectable
expression in the Work concerning the release of
“Dawn” that appears in the Play, apart from the
“social movement” line noted supra.
j.

The Creative Expression Regarding
Devito’s Introduction of Valli to Mary and
the Characterization of Mary

In the Work, Valli’s introduction to Mary and his
interest in her is recounted for about half a page on
pages 58–59, and his further interest in her, as well as
his mother’s disapproval stated to DeVito, is recounted
for a little more than half a page on page 62. Valli’s
first encounter with Mary in the Play is three minutes
long from 17:05 to 20:05. In the Work, Valli inquires
about Mary to DeVito as they drive home from a show
where Valli had noticed her, and DeVito warns him
away but ultimately agrees to help him with her. In
the Play, Valli notices Mary at the show, and DeVito
warns him away, but Valli ultimately leaves with

66a

Mary on a date that comprises most of the threeminute scene. No dialogue appears to have been
copied, only the unprotectable historical facts that
Valli first noticed Mary at a show and that DeVito
warned Valli away when Valli inquired about her.
In the Work, Valli’s mother later calls DeVito and
asks him to “get Frankie away from this whore.” In the
Play, DeVito recounts immediately after the date scene
that Valli has now married Mary and that he wanted
to buy her some jewelry, which leads into the fake
murder scene, without any indication that Valli’s
mother asked DeVito to try to break up Valli and
Mary.
On pages 67–71 of the Work, DeVito recounts how
Mary took advantage of Valli’s devotion to her and
sometimes criticized and ridiculed Valli to his face,
even in front of his friends, causing him to become
more reserved and transforming him “into a different
type of person.” In DeVito’s opinion, the change made
Valli less likeable but also perhaps fueled his drive for
perfection and success. Ultimately, DeVito was unable
to “forgive Mary for her role in quenching the sparkle
in his eye.” He wrote that Mary, like some other
women involved with rock band members, had
“profoundly test[ed] the group.” The Play depicts an
argument between Valli and Mary where Mary
complains that he is rarely home with the family, and
Valli complains about her substance abuse. But apart
from Mary once insulting Valli as “a dumb wop from
Jersey who never even graduated high school,” the
only similarity is the fact of some sort of conflict. The
Play does not depict Mary criticizing Valli into timidity
or berating him in front of others. Gaudio, who is

67a

narrating the Play at that point, does not indicate that
Mary had changed Valli’s personality through any
kind of prolonged emotional abuse. To the contrary, he
notes that Valli had told the band members that his
divorce from Mary had been “for the best,” but that
they knew “that wasn’t the whole story.” The scene
then shifts to Valli singing “My *1074 Eyes Adored
You,” with Mary watching from the side of the stage
and eventually joining Valli in the song, followed by
the other members of the band. It is a song about
unrequited childhood love that does not perfectly fit
the story, but which clearly enough expresses the
Play’s authors’ message that Valli was unhappy about
the divorce, had genuinely loved Mary, and perhaps
still did. The Play’s narrative is contrary to the Work’s
narrative about Valli having been beaten down
emotionally by Mary.
In summary, the Play copied no creative
expression from the Work in relation to Valli’s
introduction to or relationship with Mary. The Play
used its own creative expression in telling the story of
Valli’s interest in Mary, DeVito having warned him
away, and any conflict between Valli and Mary. The
historical facts of these events are not protectable by
copyright.
k. The Creative Expression Regarding
Devito’s Intercession After Valli’s Arrest
at The Request of Valli’s Mother
The Play recounts DeVito’s intercession after
Valli’s arrest (excluding a musical interlude), for a
total of about one minute. The Work recounts the
incident for about one page. No creative expression
from the Work relating to this event is copied into the

68a

Play. In the Play, Valli’s mother tells DeVito that Valli
looks up to him, and DeVito promises to look out for
Valli. Valli’s interrogation by the police and release by
the judge at DeVito’s urging follows, and although
Valli’s mother appears as an observer in the courtroom
scene, there is no indication she specifically asked
DeVito to intercede after Valli’s arrest, as recounted in
the Work. Rather, she had only given DeVito a general
admonition to look out for Valli. Valli’s mother’s only
dialogue in the scene is original to the Play. She has no
dialogue in the Work as to this incident.
In summary, there is nothing creative in the Work
as to this scene that was copied into the Play, but only
the unprotectable historical fact of DeVito’s
intervention. The Play does not even recount the
details of the intervention accurately, but creates a
slightly different scene in order to abbreviate the
incident and merge it with a recounting of DeVito’s
return to prison. That is, the Work recounts DeVito’s
indirect intervention via a probation officer he knew,
whereas the Play depicts DeVito directly intervening
with the judge during a hearing, after which the judge
gives DeVito his own sentence. Only the broad,
unprotectable historical fact of intervention by DeVito
on behalf of Valli is potentially copied from the Work.
l.

The Creative Expression Regarding the
Fake Murder in Valli’s Car

The fake murder scene runs from 20:40 to 25:20 in
the Play, approximately 1:20 for the fake murder itself
in the car, 1:00 for DeVito’s discussion with Valli
explaining it was a scam, and 2:20 for the scene with
Gyp DeCarlo, who had fixed the problem for Valli. In
the Play, there are two men in the front of Valli’s car,

69a

with Valli in the back. The two men are ostensibly
driving Valli to a jewelry store to buy gifts for Mary.
The argument between the driver and the front
passenger erupts based on a disagreement over driving
directions. Ultimately, the passenger “shoots” the
driver after they call one another “asshole,” then tells
Valli to get out of the car and that he will take care of
it and call him the next day. Valli leaves, and the two
men laugh. The scene shifts to Valli telling DeVito that
the passenger wants $25,000 to get rid of the “body”
and the car. DeVito tells Valli it was a scam and that
he will take care of it without bothering Gyp DeCarlo,
a local organized crime boss. DeVito then explains to
the audience that he indeed called Gyp DeCarlo to fix
the situation. *1075 The scene shifts to DeCarlo,
DeVito, and Valli. After giving DeVito some tasks,
DeCarlo asks Valli to sing “My Mother’s Eyes.” Valli
says he doesn’t sing that song anymore but agrees
after DeCarlo patiently explains that Valli owes him a
favor because DeCarlo took care of the fake murder
situation and got his car back. The scene implies that
Valli didn’t initially realize DeCarlo was the one who
had fixed the situation (because DeVito had previously
told Valli that he would handle it himself without
bothering DeCarlo).
In the Work, the scene comprises the entirety of
Chapter 23, five pages. There are two men in the front
of Valli’s car, but they pick up a third man who joins
Valli in the back. The driver is ostensibly returning
Valli’s car after having borrowed it. The plan is to pick
up Valli, drive to the driver’s house, and have Valli
drive his car back home. The argument between the
driver and the front passenger erupts based on a
disagreement over some unspecified illegal “business.”

70a

The driver pulls over and calls the passenger a
“mother-fucker,” and the passenger calls the driver an
“asshole.” The driver then shoots the passenger,
rejoins traffic, and tells Valli he’ll dump the car in the
river and that he should report it stolen. Valli tells
DeVito what happened, and DeVito tells Valli to wait
for the driver’s call and to tell DeVito exactly what he
says. The driver calls three days later and tells Valli
that the man in the back seat is going to go to the
police unless they pay him an unspecified amount.
Valli tells DeVito, and DeVito goes directly to DeCarlo,
who tells DeVito to tell Valli not to worry about it and
to meet him on the golf course the next day. On the
golf course, DeCarlo has Valli retell the whole story,
then tells Valli everything will be fine. Valli’s car
shows up at his house unharmed two days later.
There is very little creative expression here that
may have been copied from the Work into the Play.
The incident recounted is historical, which is not
protectable. Many details are recounted differently, in
any case, i.e., created by the authors of the Play (the
number of people in the car, the reason for the trip,
who shoots whom, the explanation of the need for
money, whether DeVito told Valli he would not involve
DeCarlo, the dialogue with DeCarlo, and whether Valli
spoke to DeCarlo before or after the problem was
fixed). The only protectable element that may have
been copied is the “asshole” line. Assuming that line
was fabricated in the Work (as opposed to having been
recounted as a historical fact) and copied into the Play,
it consists only of the ten words, “Well, asshole, what
do you plan to do about it?” And only the gist of the
line is copied – it is not copied word-for-word. The line

71a

in the Play is, “Oh yeah, asshole, what are you gonna
do about it?”
m. Summary of the Substantiality Factor
In summary, at most, the jury could have found
about 145 creative words to have been copied from the
Work into the Play, whether as dialogueor creative
descriptions of events. Those 145 words constitute
about 0.2% of the approximately 68,500 words in the
Work (approximately 250 words per page times 274
pages). This factor strongly weighs in favor of a finding
of fair use, at least where the “heart” of the Work was
not infringed. See Elvis Presley Enters., Inc. v.
Passport Video, 349 F.3d 622, 630 (9th Cir. 2003).
Because the Work is biographical in nature, its “heart”
consists of unprotected facts (in this case, those facts
DeVito claimed in the Work had previously been
hidden or distorted). It is that collection of
uncopyrightable facts that was “the most likely to be
newsworthy and important in licensing serialization.”
Id. Woodard’s writing style, which is the only aspect of
the Work producing *1076 protectable elements,
although necessary to production of the Work, was not
the heart of the Work. An author’s writing style could
perhaps constitute the “heart” of a biographical work
in an extreme case, for example where the facts of the
subject’s life were already known to the reader or
mostly uninteresting but where a highly skilled writer
celebrated for his wit and commentary had written the
biography. But that is not the case here. Here, the
interest of a reader of the Work would be in the facts
revealed by DeVito, not in Woodard’s writing skills.
That is not to say that Woodard was not a good (or
even excellent) writer, but there is no evidence that

72a

there was any market for his writing in-and-of- itself.
He was not a known author. The “heart” of the Work
– that aspect of the Work likely to attract buyers—was
the unprotected historical information conveyed by
DeVito.
5.

Transformation

Finally, “[T]he more transformative the new work,
the less will be the significance of other factors, like
commercialism, that may weigh against a finding of
fair use.” Monge v. Maya Magazines, Inc., 688 F.3d
1164, 1174–75 (9th Cir. 2012) (quoting Campbell v.
Acuff–Rose Music, Inc., 510 U.S. 569, 579, 114 S.Ct.
1164, 127 L.Ed.2d 500 (1994)). That is, a work is
“transformative” to the extent it adds a different
purpose and/or character to the expression in an
original work, e.g., a parody. Id. at 1173–75. Such a
“transformation” of purpose or character is important
to fair use because a parody, for example, is not likely
to affect the market for the parodied work, the effect
on the market for a work being the most important
consideration under a fair use analysis. Id. at 1182
(citing Campbell, 510 U.S. at 591, 114 S.Ct. 1164).
The “transformation” in the present case is both a
change of purpose and a change of character. The Play
takes on a different purpose from the Work when the
script (most of which was not taken from the Work) is
incorporated into musical performances using material
in which Plaintiff has no copyright. The purpose of the
Work is primarily to inform. Tommy DeVito set out to
vindicate his perspective and reveal hidden truths.
Woodard’s writing skills made the Work readable,
even if the material was ultimately not commercially
publishable. The purpose of the Play, however, is

73a

primarily to entertain. Even if the purpose of the Play
were primarily to inform, the Play takes on a different
character from the Work by the incorporation of
Tommy DeVito’s singular perspective into a more
complete and balanced description of events based on
competing perspectives of all four band members. The
Play is structured around this concept, with the
characters of DeVito, Gaudio, Massi, and Valli
sequentially narrating the Play from their own
perspectives during the respectively titled Spring,
Summer, Fall, and Winter portions of the play, i.e., the
figurative “four seasons” of the history of the band.
And in doing so, the Play adds creative expression
beyond mere republication. See L.A. News Serv. v.
CBS Broad., Inc., 305 F.3d 924, 939 (9th Cir. 2002).
The transformative nature of the use in this case is
significant. To the extent the character and purpose of
the Play differ from the character and purpose of the
Work, the importance of any factors counseling against
a finding of fair use are diminished. See Monge, 688
F.3d at 1174–75.
In summary, the first factor weighs against fair
use as in any typical case of commercial use, the
second factor weighs in favor of fair use, the third
factor weighs heavily in favor of fair use, the fourth
(most important) factor weighs heavily in favor of fair
use, and the transformative nature of the use
diminishes the significance of the sole factor weighing
against fair use. To permit a finding of no fair use
*1077 based purely on the fact of commercial use
where the importance of that factor is significantly
diminished by the transformative nature of the use
and the other factors weigh in favor of fair use (two of
them heavily so, including the most important factor),

74a

would be to impermissibly treat the first factor as
conclusive. See Campbell v. Acuff–Rose, 510 U.S. 569,
585, 114 S.Ct. 1164, 127 L.Ed.2d 500 (1994). A finding
of no fair use, where such a tiny part of the creative
elements of a biographical work with little to no
market value were copied, and where the use was
significantly transformative, would hinder rather than
further the purposes of copyright. See id. at 579, 114
S.Ct. 1164. The Court finds that Defendants are
entitled to a judgment of fair use as a matter of law.2
The Court denies the renewed motion for judgment
as a matter of law on the other grounds presented.
There was evidence adduced at trial of direct copying
and more than de minimis use. The evidence of access
to the Work in January 2004; the February 2004
meeting at which Brickman, Elice, and McAnuff
examined the Work; and the Krevolin Report’s
comparisons of the Work to the evolving scripts
provided sufficient evidence to find direct copying.
Next, the jury could have properly found that the
2

Having heard the trial evidence and many times
examined similar evidence submitted with pre- and post-trial
motions over the last decade, the Court is of the overall
impression that the only bad actor in this case was DeVito. He
was deceitful with Plaintiff regarding his registration and
licensing of the joint Work, and he was deceitful with New
Defendants as to his alleged sole ownership of the Work. Plaintiff,
however, has chosen to settle her claims against DeVito, basically
allowing him to keep royalties and waiving any accounting
against him. New Defendants were ignorant of DeVito’s
obligations to Plaintiff and were unaware of any potential
copyright infringement via their use of the Work based on
DeVito’s representations in the 1999 Agreement and otherwise.
New Defendants are as much victims of DeVito’s actions as
Plaintiff.

75a

average audience familiar with the Work would
recognize the protected, copied portions in the Play;
audience recognition is the test for de minimis copying,
regardless of how minimal the copying is in relation to
the infringing work or the copyrighted work as a
whole. See VMG Salsoul, LLC v. Ciccone, 824 F.3d
871, 878 (9th Cir. 2016) (quoting Newton v. Diamond,
388 F.3d 1189, 1193 (9th Cir. 2004)).
C. Motion for a New Trial
After a jury trial, a district court may grant a new
trial “for any reason for which a new trial has
heretofore been granted in an action at law in federal
court . . ..” Fed. R. Civ. P. 59(a)(1)–(a)(1) (A). Although
a court of appeals may only overturn a jury verdict on
appeal for excessiveness if it is “grossly excessive or
monstrous,” a trial court may grant a new trial if the
verdict is against the clear weight of the evidence.
Siebrand v. Gossnell, 234 F.2d 81, 94–95 (9th Cir.
1956) ; Bradley Mining Co. v. Boice, 194 F.2d 80, 83
(9th Cir. 1951) ; S. Pac. Co. v. Guthrie, 186 F.2d 926,
932 & n.10 (9th Cir. 1951). The Court is compelled to
find this to be the case here. Specifically, the finding
that 10% of the success of the Play was attributable to
protected elements copied from the Work cannot be
supported by the evidence adduced at trial.
As recounted in detail, supra, after subtracting
those potential similarities based on unprotected
elements of the Work or where the corresponding
creative element was not copied from the Work but
original to the Play, the Court permitted the jury to
consider only 12 similarities between the Work and the
Play. Those 12 similarities constituted approximately
0.4% of the Play’s script, which itself accounted for

76a

*1078 less than half of the Play’s running time, the
remainder being comprised of music for which Plaintiff
does not own the copyright. Therefore, assuming that
the music that comprised roughly half of the running
time of the Play accounts for roughly half of its
success, a finding of 10% implies that the few words
copied from the Work (which account for
approximately 0.2% of the running time of the Play)
account for roughly 20% of the success of the Play
attributable to the dialogue. That assessment is
unsupportable. Of course, determining the percentage
of the Play attributable to infringement of the Work is
not a strict, mathematical calculation. But the verdict
must be supported by sufficient evidence, and the
Court cannot find under the present circumstances
that a figure of 10% could be reached based on the
evidence adduced at trial.
The Court’s analysis under the substantiality
factor of the fair use test, supra, leads the Court to
find that the verdict of 10% is against the clear weight
of the evidence. Roughly 0.2% of the Work was both
protectable by copyright and copied into the Play, and
the copied portions accounted for no more than 1% of
the running time of the Play. Importantly, there is no
evidence that the copied creative elements were
disproportionately important to the Play’s success.
Additionally, the jury appears to have disregarded the
evidence of the limited effect on the success of the Play
due to its use of parts of the Work. There was
substantial evidence admitted at trial to the effect that
many additional elements contributed to the
worldwide success and profits of the Play: the
additional inventive material in the script, the
stagecraft used in live production, the use of

77a

copyrighted music in the Play for which Plaintiff has
no copyright, direction and production efforts
(including the employment of world-renowned writers,
directors, and producers), and advertising and
promotion efforts, among other elements. The jury
cannot have reached the conclusion it did without
disregarding these elements that contributed to the
success of the Play, even assuming the 10% figure
were an accurate calculation of the amount of the
infringed material as compared to the Play as a whole,
a conclusion that itself is not supported by the
evidence.
The jury also failed to focus on the relevant facts
as to the remanded question of an implied
nonexclusive license, although the Court accepts some
responsibility for the error. In the Court’s summary
judgment analysis of an implied nonexclusive license,
the Court had found an implied nonexclusive license
based upon the sole factor of DeVito’s delivery of the
Work to the authors of the Play. The Court of Appeals
reversed on that issue, clarifying that delivery may be
considered but cannot be a sole basis for a finding of an
implied nonexclusive license. The Court finds that the
verdict of no implied nonexclusive license is against
the clear weight of the evidence given DeVito’s
attendance at the Play and continued receipt of
royalties therefrom.
The Court of Appeals’ remand on the implied
nonexclusive license issue cannot be construed as
requiring jury consideration solely on the factor of
delivery. There can be no implied license where an
express license is given. In this case, an express license
was given by DeVito in the 1999 Agreement, which

78a

gave full license to use of the Work in creating and
producing a play, but that express license terminated
by its own terms on December 10, 2004, before the
Play debuted. No implied license may be found during
the period from the execution date of the 1999
Agreement until its termination, which time period
includes DeVito’s delivery of the Work to the writers of
the Play in January 2004. The basis for an implied
license therefore cannot be found in the circumstances
surrounding *1079 delivery of the Work to the writers
of the Play, but only in the facts that DeVito continued
to receive royalty payments and personally attended
productions of the Play after the 1999 Agreement had
terminated without ever objecting to the (albeit
minimal) use of the Work therein, which DeVito would
have recognized. See supra, discussion concerning de
minimis copying. When DeVito’s delivery of the Work
and his intent when doing so are discounted as
irrelevant (because the express license was then in
effect), the only evidence as to implied license was
DeVito’s attendance at the Play in La Jolla in 2004
and on Broadway in 2005 and his receipt of royalties
without objection. These factors must be considered as
part of the totality of the parties’ conduct. See 3
Melville B. Nimmer & David Nimmer, Nimmer on
Copyright § 10.03[A][7], at 10–55 (2015). Neither the
Court’s Instructions, nor the evidence, nor the parties’
closing arguments, focused on these facts. The Court,
the parties, and the jury therefore failed to focus on
the factual issues directly relevant to implied license
as directed by the Court of Appeals. For all of these
reasons, the Court grants the motion for a new trial on
the implied license issue, as well.

79a

CONCLUSION
The Court appreciates the jury’s service in this
complex case. Comparisons of a several-hundred- page
book to a several-hour play are tedious and complex.
Those comparisons are made even more difficult when
they must be guided by over 40 pages of technical legal
instructions. Even for a court, such a task is difficult,
because the law in this area is not totally clear in all
respects. The Court therefore appreciates the difficulty
of the task with which the jury was charged, but the
law and evidence compels the result the Court reaches
today. Defendants are entitled to a judgment as a
matter of law on the fair use issue. Even if they were
not, a new trial would be required on the implied
nonexclusive license issue and the damages award.
IT IS HEREBY ORDERED that the Motion to Vacate
(ECF No. 1108) is GRANTED.
IT IS FURTHER ORDERED that the Renewed Motion
for Judgment as a Matter of Law (ECF No. 1112) is
GRANTED IN PART as to fair use but is otherwise
denied.
IT IS FURTHER ORDERED that the Motion for New
Trial (ECF No. 1113) is GRANTED IN PART with
respect to Questions 1 and 4 of the Verdict but is
otherwise denied.
IT IS FURTHER ORDERED that the Clerk shall enter
judgment and close the case.
IT IS SO ORDERED.

80a

APPENDIX C
UNITED STATES DISTRICT COURT
District of Nevada
2:08-cv-00867-RCJ-PAL

DONNA CORBELLO,

Plaintiff,
v.
THOMAS GAETANO DEVITO, et al.,

Defendants.
Decided November 17, 2016
ROBERT C. JONES, United States District Judge
ORDER
Plaintiff Donna Corbello is the widow and heir of Rex
Woodard, who assisted Defendant Thomas Gaetano
“Tommy” DeVito in writing his unpublished
autobiography (the “Work”). Plaintiff alleges that
DeVito and others wrongfully appropriated the Work
to develop the screenplay for Jersey Boys, a hit
musical based on the band The Four Seasons that has
played in the United States, Canada, England, and
Australia. Corbello has sued several companies and
individuals for copyright infringement, and she has
sued DeVito for an accounting and under several state
law causes of action. The Court granted summary
judgment to certain Defendants and certified the order

81a

for immediate appeal. The Court of Appeals reversed
and remanded for further proceedings. At the close of
Plaintiff’s evidence, Defendants orally moved for
judgment as a matter of law under Rule 50(a) on all
issues, and the Court orally granted the motion in
part and denied it in part. This written order follows.
*2
If a party has been fully heard on an issue
during a jury trial and the court finds that a
reasonable jury would not have a legally
sufficient evidentiary basis to find for the
party on that issue, the court may . . . resolve
the issue against the party . . . and . . . grant a
motion for judgment as a matter of law against
the party on a claim or defense that, under the
controlling law, can be maintained or defeated
only with a favorable finding on that issue.
Fed. R. Civ. P. 50(a)(1)(A)-(B). The Court finds that
sufficient evidence has been presented at trial of
infringement for the jury to determine the question of
infringement generally. The Court also finds that the
defenses of implied license and fair use must be
determined by the jury. The Court finds, however, that
sufficient evidence has not been presented at trial for
a reasonable jury to find infringement by Defendants
Valli or Gaudio or willful infringement by any
Defendant.
As to Valli and Gaudio, the evidence at trial was
unrebutted that neither of them ever even saw the
copyrighted Work until their depositions in this case.
Plaintiff argued that Charles Alexander had testified
(by deposition) that he had discussed the Work with

82a

Gaudio in a July 2005 interview before the Broadway
premier of Jersey Boys in November 2005. The
transcript of the interview was admitted as Exhibit
183A. The Court reviewed the transcript with counsel
on the record. It indicated that Gaudio was aware
that DeVito had employed a “ghostwriter” to help him
write a “[b]ook or something” and that he had sent it
to Defendants Brickman and Elice. But there was no
evidence from Alexander (or any other witness) that
Gaudio (much less Valli) was ever aware that
Brickman or Elice copied from that “book or
something” to create the script for Jersey Boys, nor
that Valli or Gaudio had the ability to exercise any
control over that activity. As discussed on the record
the following morning, although infringement does not
require a willful intent to violate a copyright as
required for enhanced damages, it still requires an
intent to copy even if the copier does not realize that
the copying violates a copyright. There was no
evidence adduced at trial indicating that Valli or
Gaudio knew that the writers had copied from the
Work in creating Jersey Boys. *3
As to willful infringement, there was no evidence
adduced at trial that any Defendant knew of or
recklessly disregarded the possibility that any copying
from the Work infringed a copyright. Tommy DeVito’s
failure to object to any portion of the Jersey Boys script
that may have been copied from the Work either before
or after public performances began, after having given
access to the Work for the purpose of helping write the
script, not only strongly implies a license (a separate
issue) but also obviates any claim that Brickman,
Elice, or McAnuff (the Defendants who allegedly

83a

actually copied from the Work) had reason to believe
that any copying was wrongful.
CONCLUSION
IT IS HEREBY ORDERED that Defendants Frankie
Valli and Robert Gaudio are entitled to judgment as a
matter of law against the claims of copyright
infringement, and all Defendants are entitled to
judgment as a matter of law against enhanced
damages for willful copyright infringement.
IT IS SO ORDERED. Dated this 17th day of
November, 2016.
/s/
ROBERT C. JONES
United States District Judge

84a

APPENDIX D
UNITED STATES DISTRICT COURT
District of Nevada
2:08-cv-00867-RCJ-PAL
DONNA CORBELLO,

Plaintiff,
v.
THOMAS GAETANO DEVITO, et al.,

Defendants.
Decided Sep 29, 2015
ORDER
ROBERT C. JONES, United States District Judge
Plaintiff Donna Corbello is the widow and heir of
Rex Woodard, who assisted Defendant Thomas
Gaetano “Tommy” DeVito in writing his unpublished
autobiography (the “Work”). Plaintiff alleges that
DeVito and others wrongfully appropriated the Work
to develop the screenplay for Jersey Boys, a hit
musical based on the band The Four Seasons that has
played in the United States, Canada, England, and
Australia. Corbello has sued several companies and
individuals for copyright infringement, and she has
sued DeVito for an accounting and under several state
law causes of action. The Court granted summary
judgment to certain Defendants and certified the order
for immediate appeal. The Court of Appeals reversed

85a

and remanded for further proceedings. The Court now
determines whether, and to what extent, Defendants
are entitled to summary judgment on the infringement
issue under the extrinsic test. *2
I.

FACTS AND PROCEDURAL HISTORY
A. Factual Background
1.

The Work

Rex Woodard was an attorney, author, and avid
Four Seasons fan who finally met Defendant and
founding Four Seasons member Tommy DeVito for an
interview on December 9, 1981 as a result of the
publicity generated from an article Woodard had
written about the band in Goldmine magazine earlier
that year (the “1981 Article”) that focused on the years
between the band’s breakup in 1970 and reconstitution
in 1975. (See Third Am. Compl. ¶¶ 26-29, ECF No.
457). On December 23, 1981, Woodard interviewed
Tommy’s brother Nick DeVito, and on January 8, 1982
he interviewed Nick Massi, another founding member
of The Four Seasons. (Id. ¶ 29). The result of these
three interviews was a second article published in
Goldmine in June of 1982 (the “1982 Article”), which
focused on the band’s earliest incarnation, The Four
Lovers. (Id.).
Woodard kept in touch with DeVito and founding
Four Seasons member Frankie Valli throughout the
1980s, and in November of 1988 Woodard flew to Las
Vegas, Nevada for a series of interviews (the “1988
Interviews”) with DeVito that sowed the seeds of the
present litigation. (See id. ¶ 31-32). During these
interviews, DeVito explained to Woodard that except
for Valli and final Four Seasons founding member

86a

Robert “Bob” Gaudio, the members of the band (DeVito
and Massi) had spent several years engaged in
criminal enterprises and in prison and retained
“underworld contacts” throughout the band’s era of
popularity. (See id. ¶ 32). Because this revelation was
in stark contrast to the clean-cut image of the band
presented in the popular media, Woodard realized the
journalistic value of the story, and DeVito offered
Woodard the *3 opportunity to write his authorized
biography with full credit and an equal share in any
profits. (See id.).
Woodard returned to Beaumont, Texas to begin
writing DeVito’s authorized biography (the “Work”),
which has never been published. (See id.). On
December 1, 1988, Woodard sent DeVito a letter (the
“Letter Agreement”) memorializing their previous
verbal understandings concerning creation of the
Work. (Id. ¶ 33). DeVito signed the Letter Agreement
beneath the word “APPROVED” and mailed it back to
Woodard. (See id.; Letter Agreement, Dec. 1, 1988,
ECF No. 457-11). The Letter Agreement reads in full:
December 1, 1988
Mr. Tommy DeVito
[street address]
Las Vegas, Nevada [zip code]
Dear Tommy:
I am making progress on the taped
interviews we did. You suggested that I
prepare a written memorandum of our
arrangement for future reference. I will do so
by this letter.

87a

I agreed to write your authorized biography
based on the recorded interviews you gave me,
plus any other relevant information which
would benefit the book. You and I will be
shown as co- authors, with you receiving first
billing. I will do all of the actual writing, but
you will have absolute and exclusive control
over the final text of this book.
We have further agreed that we will share
equally in any profits arising from this book,
whether they be in the form of royalties,
advances, adaptations fees, or whatever. This
agreement will be binding upon our heirs, both
as to obligations and benefits, in the event one
or both of us should die.
If this letter accurately sets forth our
agreement as you understand it, sign the
enclosed photocopy where indicated and return
it to me in the enclosed self- addressed,
stamped envelope. Keep this original letter in
your own file.
Thank you for asking me to work with you
on this project. I look forward to working with
you over the next several months.
*4 Sincerely,
[signed Rex Woodard]
Rex Woodard
RW/ml Enclosures
APPROVED:
[signed Tommy DeVito]
TOMMY DEVITO

88a

(Letter Agreement). Over the next two years,
Woodard used the 1988 Interviews and all of his other
knowledge about the band to create the Work,
including his past interviews with band members,
newspaper articles, magazine articles, album linings,
Freedom of Information Act requests he filed with law
enforcement agencies, and questionnaires he sent to
DeVito. (Third Am. Compl. ¶ 34). Woodard compiled
all of this information into the Work, resulting in a
first- person, narrative-style biography told from
DeVito’s perspective. (See id.). Woodard remained in
close contact with DeVito throughout his creation of
the Work and sent DeVito each chapter for approval
and editing as they were completed. (Id. ¶ 35).
2.

Woodard’s
Attempts

and

DeVito’s Publication

As the Work neared completion in late 1990,
Woodard and DeVito attempted to find a publisher and
even provided an outline of the Work to actor Joe Pesci
to explore adaptation to a screenplay. (See id. ¶ 36).
Plaintiff provides a copy of what she claims is a cover
sheet to a January 1991 version of the Work, which
reads in full:
UNTITLED
TOMMY
DEVITO/FOUR
BIOGRAPHY
....
TOMMY DEVITO
REX WOODARD
©, January, 1991

SEASONS

89a

*5 (See January 1991 Work Cover Page, ECF No.
457-15).
Though he never smoked, Woodard had been
diagnosed with lung cancer in 1989, and his condition
had begun seriously to worsen by late 1990. (Id. ¶ 39).
By February or March of 1991, he was bedridden, and
he died on May 25, 1991 at age forty-one. (Id. ¶ 40).
Woodard had hoped that income generated from the
Work would support his wife and children. (Id. ¶ 41).
3.

Plaintiff’s
Attempts

and

Ceen’s Publication

In accordance with Woodard’s wishes, Plaintiff and
Woodard’s sister Cindy Ceen continued to seek
publication after Woodard’s death independently of
DeVito; however, public interest in The Four Seasons
had waned, making it difficult to find a publisher. (Id.
¶ 42). In September 2005, Ceen decided to contact
DeVito for his assistance in publishing the Work. (See
id.). Ceen first contacted a prominent member of an
Internet Four Seasons fan group named Charles
Alexander to facilitate contact with DeVito. (See id. ¶
43). Alexander responded to Ceen on September 22,
2005 that he had met with DeVito the previous day,
had told DeVito of Ceen’s desire to publish the Work,
and that DeVito had agreed to help. (See id.). Ceen
called DeVito the same day at a telephone number
provided by Alexander, and DeVito indicated that he
wanted to update the Work with post-1990 events and
restore some “obscene” language Woodard had omitted.
(Id.). DeVito also claimed he had lost his copy of the
Work and asked Ceen for a replacement, which she
mailed to DeVito the next day, along with a letter
memorializing their telephone conversation and

90a

informing DeVito that Plaintiff was considering
self-publishing the Work if a traditional publisher
could not be found. (Id.). Neither Plaintiff nor Ceen
heard from DeVito again. (Id. ¶ 44). DeVito’s attorney
Jay Julien left Ceen a voice mail message on
November 2, 2005, and Ceen returned his call the next
day, during which conversation Julien told Ceen that
he had spoken with DeVito regarding the Work and
concluded that it was “not *6 saleable.” (Id.). Ceen was
surprised by this conclusion, because the play Jersey
Boys was scheduled to open on Broadway a few days
later. (Id.). Julien did not disclose that the Work had
been used or exploited in any way or that rights in the
Work had been licensed or assigned. (Id.).
4.

Jersey Boys and Plaintiff’s Discovery of
the Alleged Infringements

By late 2006, Jersey Boys had become a Broadway
hit, earning four Tony Awards. (Id. ¶ 45). Plaintiff had
not seen the show, but she and Ceen estimated that
the show’s success would revive interest in the band
and make publication of the Work viable. (Id.).
Plaintiff and Ceen engaged counsel to confirm the
registration of Woodard’s and DeVito’s copyright in the
Work, to register the copyright if not yet registered,
and to contact Julien to see if DeVito had changed his
mind about joint publication of the Work in light of
Jersey Boys’s success. (Id.). A January 3, 2007 search
of the U.S. Copyright Office’s online records indicated
no registration of the Work to Woodard but showed
that on January 11, 1991 (four months before
Woodard’s death) DeVito had registered a literary
work entitled Tommy DeVito - Then and Now, Reg.
No. Txu 454 118 (the “DeVito Work”). (Id. ¶ 46).
Plaintiff’s counsel ordered a copy of the registration

91a

and discovered that DeVito had registered the DeVito
Work in his own name only, claiming that the work
was unpublished and that he wrote it in its entirety in
1990. (Id. ¶ 47). Plaintiff’s counsel ordered a copy of
the DeVito Work itself and discovered that the DeVito
Work was identical to the Work, and in fact appeared
to be a photocopy of the manuscript typed by
Woodard’s secretary Myrtle Locke, with two
exceptions. (Id. ¶¶ 48-49). First, the original cover
page from the January 1991 version of the Work had
been replaced with a cover page in a different font and
font size, reading:
TXu 454 118
....
*7 Tommy DeVito - Then and Now
by
Tommy DeVito
(Id. ¶ 49; see DeVito Work Cover Page, ECF No.
457-23). Second, the first page of Chapter 41 (page 264
of the Work) was missing. (See Third Am. Compl. ¶
49). Plaintiff concluded in light of the Letter
Agreement and her dealings with DeVito and his
counsel after Woodard’s death that DeVito had
registered the Work without credit to Woodard or
disclosure to Woodard or his heirs. (Id. ¶ 50).
Plaintiff also soon discovered that the writers of
and several actors in Jersey Boys had access to the
Work and that DeVito had received royalties or other
profits from Jersey Boys, and she concluded that the
Work had “inspired the form, structure, and content of
the musical . . ..” (See id. ¶ 51). As support for this

92a

conclusion, Plaintiff notes that Defendant Des
McAnuff, the director of Jersey Boys, was quoted in a
July 8, 2006 report in Backstage magazine as stating
that Defendants Marshall Brickman and Eric Elice
had relied in part on “an unpublished autobiography
by DeVito” in creating the libretto. (See id. ¶ 52).
Plaintiff notes that Christian Hoff, the first actor to
play DeVito in Jersey Boys, stated in what appears to
be an online interview that he was provided with a
synopsis of the Work for his audition and a full copy
for background research. (See id.). Plaintiff also cites
to a Wikipedia entry for support that the Work served
as a basis for the musical. (See id.). Plaintiff also notes
an exchange on a Jersey Boys podcast website
indicating that one fan had reported to another that
the musical was based on DeVito’s unpublished
biography. (See id.). Plaintiff also saw public reports of
DeVito’s financial profits from the musical. (See id.). *8
5.

Pre-Litigation Negotiations

On June 13, 2007, Plaintiff’s counsel wrote Julien
by email and overnight courier demanding that DeVito
execute an application for supplementary registration
with the U.S. Copyright Office to add Woodard as a
coauthor and co-claimant of the Work and demanding
an accounting of profits in accordance with the Letter
Agreement. (Id. ¶ 53). Counsel conferred with one
another by email and telephone between June and
October 2007, and Julien admitted at one point that
DeVito had provided a copy of the Work “to Jersey
Boys” and expressed interest in the possibility of a
joint copyright infringement action against “Jersey
Boys,” but later decided that Plaintiff’s only recourse
was a suit against DeVito because he had authorized
the use of the Work. (Id. ¶ 54). Although DeVito

93a

initially considered filing a supplemental registration
of the Work to credit Woodard, he later refused,
claiming that he in fact was the sole author and that
Woodard had been a mere scribe. (Id.).
On July 2, 2007, Plaintiff filed her own
supplementary application with the U.S. Copyright
Office to add Woodard as a coauthor and co-claimant
of the Work, but the office rejected the application
because DeVito, the original claimant, had not signed
it. (Id. ¶ 55). The office could not under 17 U.S.C. §
201(a) permit a non-author, non-claimant as to an
original registration, i.e., a “basic registration,” to
supplement the basic application, but such a person
could apply to register her own work, in which case the
office would consider the new claim to be adverse to
the existing claim if the claims purported to register
the same work exclusively to different claimants. (See
Copyright Office Letter, June 16, 2008, ECF No.
457-27, at 7). However, the Copyright Office Review
Board granted Plaintiff’s appeal based on a closer
examination of regulations and practices, determining
that her supplemental registration could be accepted,
and that a certificate of registration would be issued
after processing. (See Copyright *9 Office Letter, Mar.
27, 2009, ECF No. 457-28). The amended certificate,
Reg. No. Txu1 372-636, lists Woodard and DeVito as
coauthors of the entire text of the Work and coclaimants thereto. (See Certificate of Registration
TXu1 372-636, July 3, 2007, ECF No. 457-29).
Thereafter, further indication of the connection
between Jersey Boys and the Work emerged through
public sources such as public interviews of certain
Defendants. (See Third Am. Compl. ¶ 56). Plaintiff
alleges that the evidence that the musical was an

94a

adaptation of the Work means that Jersey Boys is a
“derivative work” of the Work under 17 U.S.C. § 101.
(See id. ¶ 57). Plaintiff recounts various similarities
between Jersey Boys and the Work. (See id.).
6.

The “Cover-Up”

DeVito and Julien then took steps to conceal the
fact that DeVito had exploited the Work to create and
profit from Jersey Boys. (See id. ¶ 58). First, DeVito
withdrew his quotes from Charles Alexander’s forward
to the upcoming Jersey Boys book, because the use of
those quotations would have linked the book, and
hence the musical, to the Work. (See id.). Second,
DeVito reported in an interview that he had never
shown the Work to anyone except Brickman, Elice, and
McAnuff, the writers and director of Jersey Boys. (Id.).
Third, DeVito “dismantled” his website
<www.tommydevito.com> to remove reference to “his
SMASH HIT Jersey Boys.” (Id.). Fourth, he stated in
an interview that he had dictated the Work to a lawyer
and that the book was not to be published yet. (Id.).
7.

DeVito’s Licensing of the Work

Certain documents made public during Valli’s
divorce proceedings in July 2008 revealed that DeVito
had granted Valli and Gaudio an exclusive,
irrevocable, perpetual, worldwide, assignable license
(the “1999 Agreement”) freely to use and adapt certain
“Materials,” including his “biographies,” for the
purpose of creating a musical based on the “life and
music” of The *10 Four Seasons. (Id. ¶ 59). The 1999
Agreement included the right to “ancillary and
subsidiary exploitations thereof including, without
limitation, cast albums, motion picture and televised
versions, merchandise, and/or other works . . . in all

95a

media now existing or later devised.” (Id.). The 1999
Agreement waived any claim of copyright infringement
by DeVito, provided that DeVito would be entitled to
20% of any royalties Valli and Gaudio obtained
through exploitation of the Materials, and provided
that Massi would be entitled to 5% of any such
royalties. (See id.). Plaintiff suspects that Valli and
Gaudio further licensed the Materials, which included
the Work, to one or more unknown authors in 1999 for
adaptation into an early version of Jersey Boys called
Walk Like a Man. (See id.). When the original
producer rejected Walk Like a Man, Valli and Gaudio
fired its authors, permitted their agreement with the
original producer to lapse, and further licensed the
Materials to Brickman and Elice, who used them to
write Jersey Boys. (See id.). Plaintiff implies that
Valli’s and Gaudio’s joint ventures related to their
exploitation of the Materials constitutes a general
partnership as a matter of law that Plaintiff refers to
as “The Four Seasons Partnership.” (See id. ¶ 4-5).
8.

Jersey Boys

The Jersey Boys foundational production
agreement (the “Jersey Boys Agreement”) is dated May
1, 2004. (See id. ¶ 61; Jersey Boys Agreement 1, ECF
No. 457-34, at 2). The Jersey Boys Agreement lists five
parties: Valli and Gaudio as “Owner,” Brickman and
Elice as “Bookwriter,” and Dodger Stage Holding
Theatricals, Inc. (now known as DSHT, Inc.) as
“Producer.” (See Jersey Boys Agreement 1). The copies
of the signature page of the Jersey Boys Agreement
attached to the Third Amended Complaint (“TAC”)
include signatures by all of these parties except
Brickman, and DSHT’s signature is typewritten,
without the handwritten signature of any natural

96a

person as an agent of DSHT. (See id. at 24, ECF No.
457-34, at 25-26). The *11 signatures are not dated.
(See id.). The Jersey Boys Agreement is comprehensive
and appears to govern the worldwide exploitation of
Jersey Boys. (See generally id.). The details of the
twenty-three-page agreement need not be recounted
here, but will be noted where relevant to the
determination of claims. The Jersey Boys Agreement
includes a schedule and two exhibits as attachments,
all of which the base agreement identifies. Schedule A
is a table of musical compositions to be used in the
musical along with details of authorship and copyright
ownership. Exhibit A is the 1999 Agreement. Exhibit
B is a list of “payment instructions” consisting of
addresses for mailing payments to the signatories and
other beneficiaries.
Plaintiff believes that DSHT further assigned or
licensed its rights under the Jersey Boys Agreement to
Defendant Dodger Theatricals, Ltd., which is the
primary producer of Jersey Boys on Broadway, tours
throughout the United States, and in London, U.K.
(See Third Am. Compl. ¶ 62). Plaintiff believes that
DSHT and/or Dodger Theatricals further licensed their
rights to others and eventually assigned them to
Defendant Jersey Boys Broadway Limited
Partnership, which in turn licensed them to several
parties, including Defendants JB Viva Vegas and
Jersey Boys Records Limited Partnership. (See id.).
Plaintiff alleges that Jersey Boys has earned profits of
approximately $150 million per year, with a life
expectancy of at least ten years, and believes she is
entitled to at least $6.5 million. (See id. ¶ 70).

97a

B. Procedural History
1.

The Present Lawsuit

In December 2007, Plaintiff sued DeVito in the
U.S. District Court for the Eastern District of Texas on
three causes of action: (1) declaratory judgment; (2)
equitable accounting; and (3) breach of contract. That
court transferred the case to this District in 2008
pursuant to 28 U.S.C. § 1404(a), without deciding
whether it had personal jurisdiction over DeVito, and
it *12 denied Plaintiff’s motion to reconsider. The TAC,
filed in March 2011, lists fourteen Defendants and
twenty causes of action: (1) declaratory judgment
(DeVito); (2) equitable accounting (DeVito); (3) breach
of contract (DeVito); (4) unjust enrichment (DeVito);
(5) breach of the covenant of good faith and fair dealing
(DeVito); (6) constructive fraud (DeVito); (7) fraud
(DeVito); (8) conversion (DeVito); (9) copyright
infringement under § 16(2) of the Copyright, Designs,
and Patents Act of 1988 (U.K.) (DeVito); (10) copyright
infringement under § 27(1) of the Copyright Act,
R.S.C. 1985 (Can.) (DeVito); (11) copyright
infringement under §§ 115(1), 36, and 39 of the
Copyright Act of 1968 (Cth) (Austl.) (DeVito); (12)-(13)
declaratory judgment (Valli, Gaudio, DSHT, Dodger
Theatricals, and Jersey Boys Broadway); (14) equitable
accounting (Valli, Gaudio, DSHT, Dodger Theatricals,
and Jersey Boys Broadway, in the alternative) (15)
copyright infringement under 17 U.S.C. § 501(a) (Valli,
Gaudio, Brickman, Elice, McAnuff, DSHT, Dodger
Theatricals, Jersey Boys Broadway, JB Viva Vegas,
and Jersey Boys Records); (16) vicarious copyright
infringement under 17 U.S.C. § 502 (Valli, Gaudio,
Brickman, Elice, McAnuff, DSHT, Dodger Theatricals,
Jersey Boys Broadway, Jersey Boys Records, Skunk,

98a

and Getting Home); (17) contributory copyright
infringement under 17 U.S.C. § 502 (Valli, Gaudio,
Brickman, Elice, McAnuff, Michael S. David, DSHT,
Dodger Theatricals, Jersey Boys Broadway, and Jersey
Boys Records); (18) copyright infringement under §
16(2) of the Copyright, Designs, and Patents Act of
1988 (U.K.) (Valli, Gaudio, Brickman, Elice, McAnuff,
DSHT, Dodger Theatricals, and Jersey Boys
Broadway); (19) copyright infringement under § 27(1)
of the Copyright Act, R.S.C. 1985 (Can.) (Valli, Gaudio,
Brickman, Elice, McAnuff, DSHT, Dodger Theatricals,
and Jersey Boys Broadway); and (20) copyright
infringement under §§ 115(1), 36, and 39 of the
Copyright Act of 1968 (Cth) (Austl.) (Valli, Gaudio,
Brickman, Elice, McAnuff, DSHT, Dodger Theatricals,
and Jersey Boys Broadway). *13
2.

The First Summary Judgment Order (No.
300)

On March 31, 2010, the Court issued an order
resolving ten pretrial motions as against the Second
Amended Complaint (“SAC”). The Court denied
DeVito’s motion to dismiss, or in the alternative for
summary judgment, finding that certain state law
defenses were preempted by the Copyright Act and
that in any case there was no evidence of an
attorney-client relationship but only of a business
relationship between DeVito and Woodard. The Court
also found that there remained genuine issues of
material fact as to the eligibility of the Work or certain
parts of it for copyright protection and as to what parts
of the Work were used to create Jersey Boys. The
Court granted Corbello’s cross motion for summary
judgment as to DeVito’s state law defenses but denied

99a

it as to infringement for the same reasons the Court
denied DeVito’s motion.
The Court denied Valli’s, Gaudio’s, Brickman’s,
Elice’s, McAnuff’s, DSHT’s, Dodger Theatricals’, and
JB Viva Vegas, LP’s (collectively, “New Defendants”)
motion to dismiss counts 15-17 for copyright
infringement. New Defendants argued that DeVito had
waived and released any right to sue them and that
they had an “implied nonexclusive license” from
DeVito. Finding no New York law to the contrary, the
Court ruled in accordance with Ninth Circuit
precedent that a failed attempt to grant an exclusive
license could result in a nonexclusive license and that
that was what happened in this case according to
undisputed facts. The Court denied the motion to
dismiss, however, because it had been sufficiently
alleged that New Defendants had sublicensed the work
beyond the scope of their own license.
The Court denied Brickman’s, Elice’s, McAnuff’s,
DSHT’s, Dodger Theatricals’, and JB Viva Vegas, LP’s
other motion to dismiss counts 15-17 for copyright
infringement. Movants argued that the alleged
similarities were unprotectable under copyright law,
that many alleged similarities were not similarities,
and that there was no “bodily appropriation” or
“wholesale *14 appropriation” of the Work by the
Jersey Boys script. The Court found the claims to have
been sufficiently alleged.
The Court denied Valli’s, Gaudio’s, DSHT’s, and
Dodger Theatricals’ motion to dismiss counts 13-14 for
declaratory judgment and an equitable accounting.
The Court denied the motion, finding that Corbello
had sufficiently alleged in the alternative that DeVito

100a

had assigned his copyright in the Work via the 1999
Agreement such that movants could authorize others
to use it but would owe Corbello, a joint owner, an
accounting for any profits thereby obtained.
The Court denied three of Corbello’s motions to
strike and granted two of them in part, striking
DeVito’s affidavit as to certain purposes and ordering
an exhibit to be placed under seal.
3.

The Second Summary Judgment Order
(No. 661)

On October 27, 2011, the Court granted in part
and denied in part two summary judgment motions.
Corbello and Defendants Valli, Gaudio, DSHT, Dodger
Theatricals, and Jersey Boys Broadway filed cross
motions for summary judgment as to counts 12-14 for
declaratory judgment and an equitable accounting. As
to count 12 for a declaration that DeVito as a joint
owner of the Work lacked the legal ability to grant
Valli and Gaudio an exclusive license and that the
1999 Agreement was therefore either void, a
nonexclusive license, or a transfer of DeVito’s rights in
the Work, the Court denied summary judgment, ruling
that the 1999 Agreement was not a transfer but a
license that was exclusive as against DeVito but
nonexclusive as against Corbello. As to count 13 for an
alternative declaration that the 1999 Agreement
permitted Valli and Gaudio to further transfer or
license the Work, that they did transfer or license it to
DSHT and/or Dodger Theatricals via the Jersey Boys
Agreement, and that Dodger Theatricals thereafter
transferred or licensed to Jersey Boys Broadway, the
Court granted summary judgment to Plaintiff in part,
ruling that the 1999 Agreement permitted further *15

101a

assignment and that Valli and Gaudio had further
assigned the rights in the Work to DSHT via the
Jersey Boys Agreement, but that it was not clear
whether there had been any further assignment. The
Court granted summary judgment to Defendants as to
count 14 for an accounting because there had been no
transfer of the Work and the relevant agreements
included no duty to account.
4.

The Third Summary Judgment Order (No.
780)

On January 31, 2012, the Court adjudicated seven
of the seventeen claims then remaining and entered
judgment in favor of all Defendants except DeVito and
David. Jersey Boys Records had moved for summary
judgment based on personal jurisdiction and failure to
state a claim. The Court found that it had jurisdiction
over Jersey Boys Records but granted the motion on
the merits, ruling that Plaintiff had adduced no
evidence that Jersey Boys Records had control over
any other Defendant, that there was no allegation that
Jersey Boys Records was aware of any infringement,
so it could not be liable for contributory infringement,
and that the album at issue did not pass the extrinsic
test as to substantial similarity to the Work. The
Court denied two motions for summary judgment
based on the statute of limitations. The Court denied
David’s motion for summary judgment based on
personal jurisdiction.
The Court denied a motion for summary judgment
on the merits of the infringement issue (Motion No.
626) as moot because it granted another motion based
on the Defendants’ having licenses to use the Work.
The Court granted a motion for summary judgment as

102a

against the claims of infringement under foreign law,
following the Second Circuit’s persuasive ruling that
the Berne Convention did not provide choice-of-law
rules for copyright claims, and finding that U.S. law
governed issues of copyright ownership and licensing
in this case even if foreign law governed substantive
infringement claims, and that the licenses under U.S.
law protected Defendants from the foreign
infringement *16 claims. The Court granted Corbello’s
motion for summary judgment as to declarations that
the Work was a joint work, that Woodard was a
co-owner of the Work, and that DeVito held a 50%
interest in the DeVito Work in constructive trust for
Corbello, as successor-in-interest to Woodard.
5.

Further District Court Proceedings

At that point, claims 2-11 against DeVito remained
for trial. On July 9, 2012, the Court denied fees to
Defendants, added David to the Judgment, and
certified Order No. 780 and the current Order No. 809
for immediate appeal under Rule 54(b).
6.

The Appeal and Remand

Corbello appealed Orders 780 and 809. On
February 10, 2015, the Court of Appeals reversed,
ruling that the 1999 Agreement was a transfer of
ownership such that Valli and Gaudio became joint
owners with Corbello in 1999, Corbello v. DeVito, 777
F.3d 1058, 1064 (9th Cir. 2015), and that although
Valli and Gaudio could not be liable for infringement
while they were joint owners, there remained a
genuine issue of material fact whether the 1999
Agreement’s reversionary clause had later been
triggered such that Valli and Gaudio might be liable
for infringement for their use of the Work thereafter,

103a

id. at 1066-67. The Court of Appeals also ruled there
remained a genuine issue of material fact as to
whether DeVito granted Valli and Gaudio an implied
nonexclusive license. Id. at 1067-68.
7.

The Present Order

The case will now proceed to trial, but the parties
have requested that the Court first determine certain
issues as a matter of law, i.e., whether certain parts of
the Work are protected at all, whether certain parts of
the Work are entitled to “thick” versus “thin” copyright
protection, and whether Defendants are entitled to
summary judgment on the infringement issue under
the *17 extrinsic test. As the Court has noted, it has
already received all the briefing it requires on these
issues in previous proceedings. Furthermore, as the
Court noted at a recent status conference, it intends to
bifurcate the trial into infringement and damages
phases, as the lengthy and complex determination of
damages will be unnecessary if the jury finds no
infringement. Finally, if any Defendants are found to
be liable for an accounting, the Court intends to hold
accounting proceedings without a jury.
II. LEGAL STANDARDS
A court must grant summary judgment when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Material facts are those which may affect the outcome
of the case. See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). A dispute as to a material fact is
genuine if there is sufficient evidence for a reasonable
jury to return a verdict for the nonmoving party. See
id. A principal purpose of summary judgment is “to

104a

isolate and dispose of factually unsupported claims.”
Celotex Corp. v. Catrett, 477 U.S. 317, 323-24 (1986).
In determining summary judgment, a court uses a
burden-shifting scheme:
When the party moving for summary
judgment would bear the burden of proof at
trial, it must come forward with evidence
which would entitle it to a directed verdict if
the evidence went uncontroverted at trial. In
such a case, the moving party has the initial
burden of establishing the absence of a
genuine issue of fact on each issue material to
its case.

C.A.R. Transp. Brokerage Co. v. Darden Rests., Inc.,

213 F.3d 474, 480 (9th Cir. 2000) (citations and
internal quotation marks omitted). In contrast, when
the nonmoving party bears the burden of proving the
claim or defense, the moving party can meet its burden
in two ways: (1) by presenting evidence to negate an
essential element of the nonmoving party’s case; or (2)
by demonstrating that the nonmoving party failed to
make a showing sufficient to establish an *18 element
essential to that party’s case on which that party will
bear the burden of proof at trial. See Celotex Corp.,
477 U.S. at 323-24. If the moving party fails to meet its
initial burden, summary judgment must be denied and
the court need not consider the nonmoving party’s
evidence. See Adickes v. S.H. Kress & Co., 398 U.S.
144 (1970).
If the moving party meets its initial burden, the
burden then shifts to the opposing party to establish a
genuine issue of material fact. See Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586

105a

(1986). To establish the existence of a factual dispute,
the opposing party need not establish a material issue
of fact conclusively in its favor. It is sufficient that “the
claimed factual dispute be shown to require a jury or
judge to resolve the parties’ differing versions of the
truth at trial.” T.W. Elec. Serv., Inc. v. Pac. Elec.
Contractors Ass’n, 809 F.2d 626, 631 (9th Cir. 1987).
In other words, the nonmoving party cannot avoid
summary judgment by relying solely on conclusory
allegations unsupported by facts. See Taylor v. List,
880 F.2d 1040, 1045 (9th Cir. 1989). Instead, the
opposition must go beyond the assertions and
allegations of the pleadings and set forth specific facts
by producing competent evidence that shows a genuine
issue for trial. See Fed. R. Civ. P. 56(e); Celotex Corp.,
477 U.S. at 324.
At the summary judgment stage, a court’s function
is not to weigh the evidence and determine the truth,
but to determine whether there is a genuine issue for
trial. See Anderson, 477 U.S. at 249. The evidence of
the nonmovant is “to be believed, and all justifiable
inferences are to be drawn in his favor.” Id. at 255. But
if the evidence of the nonmoving party is merely
colorable or is not significantly probative, summary
judgment may be granted. See id. at 249-50.
III. ANALYSIS
A. Analytical Framework *19
“A plaintiff bringing a claim for copyright
infringement must demonstrate ‘(1) ownership of a
valid copyright, and (2) copying of constituent
elements of the work that are original.’” Funky Films,
Inc. v. Time Warner Entm’t Co., L.P., 462 F.3d 1072,
1076 (9th Cir. 2006) (quoting Feist Pubs., Inc. v. Rural

106a

Tel. Serv. Co., 499 U.S. 340, 361 (1991)). Defendants

do not appear to dispute that Corbello is a joint owner
of the Work. They dispute whether they copied any
protectable portions of the Work, whether they had
access to the Work, and whether Jersey Boys is
substantially similar to the Work.
Direct copying is sufficient but not necessary to
establish the second element; it can also be established
by showing that the defendant had access to the
copyrighted work and that the accused work is
substantially similar to the copyrighted work. Id.
(citing Three Boys Music Corp. v. Bolton, 212 F.3d 477,
481 (9th Cir. 2000)). Summary judgment is
appropriate on a substantial similarity theory if no
reasonable jury could find “substantial similarity of
ideas and expression.” Id. (quoting Kouf v. Walt
Disney Pictures & Television, 16 F.3d 1042, 1045 (9th
Cir. 1994)) (emphasis added). In other words, just as
direct copying of unprotected parts of a work does not
constitute infringement, Harper House, Inc. v. Thomas
Nelson, Inc., 889 F.2d 197, 208 (9th Cir. 1989)
(vacating a jury verdict and remanding for a new trial
where the jury instructions permitted a finding of
infringement based on the direct copying of
unprotected material), access plus substantial
similarity does not constitute infringement if the
substantial similarity relates only to unprotected
aspects of a work, see Data East USA, Inc. v. Epyx,
Inc., 862 F.2d 204, 207-08 (9th Cir. 1988) (citing Aliotti
v. R. Dakin & Co., 831 F.2d 898, 901 (9th Cir. 1987))
(“To determine whether similarities result from
unprotectable expression, analytic dissection of
similarities may be performed. If this demonstrates
that all similarities in expression arise from use of

107a

common ideas, then no substantial
similarity can
be found.”). *20 Although summary judgment on the
substantial similarity issue is disfavored, it is
permitted, and the Court of Appeals has frequently
affirmed such rulings. Funky Films, 462 F.3d at
1076-77 (collecting cases).
“The substantial-similarity test contains an
extrinsic and intrinsic component. At summary
judgment, courts apply only the extrinsic test; the
intrinsic test, which examines an ordinary person’s
subjective impressions of the similarities between two
works, is exclusively the province of the jury.” Id. at
1077 (citing Shaw v. Lindheim, 919 F.2d 1353, 1360-61
(9th Cir. 1990)).
For summary judgment, only the extrinsic test
is important. A plaintiff avoids summary
judgment by satisfying the extrinsic test which
makes similarity of the works a triable issue of
fact. In contrast, a plaintiff who cannot satisfy
the extrinsic test necessarily loses on
summary judgment, because a jury may not
find substantial similarity without evidence on
both the extrinsic and intrinsic tests.

Kouf, 16 F.3d at 1045 (citations omitted).
Extrinsic analysis is objective in nature. [I]t
depends not on the responses of the trier of
fact, but on specific criteria which can be listed
and analyzed. The extrinsic test focuses on
articulable similarities between the plot,
themes, dialogue, mood, setting, pace,
characters, and sequence of events in the two
works. In applying the extrinsic test, this court
compares, not the basic plot ideas for stories,

108a

but the actual concrete elements that make up
the total sequence of events and the
relationships between the major characters.
[P]rotectable expression includes the specific
details of an author’s rendering of ideas.
However, scenes à faire, which flow naturally
from generic plot-lines, are not protectable. We
must take care to inquire only whether the
protectable elements, standing alone, are
substantially similar. In so doing, we filter out
and disregard the non-protectable elements in
making [our] substantial similarity
determination.

Funky Films, 462 F.3d at 1077 (citations and internal

quotation marks omitted; alterations in original).
Scenes-a-faire are “situations and incidents that flow
necessarily or naturally from a basic plot premise,”
and their copying does not constitute infringement.
Benay v. Warner Bros. Entm’t, Inc., 607 F.3d 620,
624-25 (9th Cir. 2010) (quoting Cavalier v. Random
House, Inc., *21 297 F.3d 815, 823 (9th Cir. 2002).
“Familiar stock scenes and themes that are staples of
literature are not protected.” Id. at 624 (quoting
Cavalier, 297 F.3d at 823). Nor are historical facts
protected by copyright. Id. at 625 (citing Narell v.
Freeman, 872 F.2d 907, 910-11 (9th Cir. 1989)).
The Court of Appeals recommends a three-step
analysis: (1) the plaintiff must identify similarities
between the copyrighted work and the accused work;
(2) of those similarities, the district court must
disregard any that are based on unprotectable
material or authorized use; and (3) the district court
must determine the scope of protection (“thick” or

109a

“thin”) to which the remainder is entitled “as a whole”
and instruct the jury accordingly for its subjective
analysis under the intrinsic test. See Apple Computer,
Inc. v. Microsoft Corp., 35 F.3d 1435, 1443 (9th
Cir.1994).
Regular or “thick” protection is the norm, but when
there are very few articulable, concrete similarities
based on protected aspects of a work and a limited
number of ways in which the underlying ideas could be
expressed differently, or where the only protectable
aspect of a work is the “unique selection and
arrangement” of otherwise unprotectable elements, a
work is entitled only to “thin” protection, where
“virtually identical copying” is required to support a
finding of infringement. See id. at 1442, 1446; see also
Satava v. Lowry, 323 F.3d 805, 812 (9th Cir. 2003)
(holding that an artist’s copyright in his jellyfish
sculptures was “thin” and therefore protected only
from virtually identical copying of his original
contributions as to “the distinctive curls of particular
tendrils; the arrangement of certain hues; the unique
shape of jellyfishes’ bells” because the shape of a
jellyfish and the effects of the glass-in-glass medium
were not protectable). *22
Historical works are entitled to lesser protection
than are works of fiction. See Sega Enters. Ltd. v.
Accolade, Inc., 977 F.2d 1510, 1524 (9th Cir. 1992)
(citing Maxtone-Graham v. Burtchaell, 803 F.2d 1253,
1263 (2d Cir. 1986) (citing Rosemont Enters., Inc. v.
Random House, Inc., 366 F.2d 303, 307 (2d Cir. 1966)))
(“Works of fiction receive greater protection than
works that have strong factual elements, such as
historical or biographical works . . . .”); see also
Hoehling v. Univ. City Studios, Inc., 618 F.2d 972, 974

110a

(2nd Cir. 1980) (“ [T]he scope of copyright in historical
accounts is narrow indeed, embracing no more than
the author’s original expression of particular facts and
theories already in the public domain. [A]bsent
wholesale usurpation of another’s expression, claims of
copyright infringement where works of history are at
issue are rarely successful.”).
Biographies, of course, are fundamentally
personal histories and it is both reasonable
and customary for biographers to refer to and
utilize earlier works dealing with the subject
of the work and occasionally to quote directly
from such works . . .. This practice is permitted
because of the public benefit in encouraging
the development of historical and biographical
works and their public distribution, e.g., so
“that the world may not be deprived of
improvements, or the progress of the arts be
retarded.”

Maxtone-Graham, 803 F.2d at 1263 (quoting Rosemont
Enters., Inc., 366 F.2d at 307 (quoting Sayre v. Moore,

105 Eng. Rep. 138, 139 (K.B. 1801))) (ruling that
although the creation of a nonfiction work entails some
creativity, where a work is essentially factual in
nature, even verbatim quotation “within reason” is
permitted).
In arguing that the Work is entitled only to “thin”
protection, Defendants rely on Narell v. Freeman, 872
F.2d 907 (9th Cir. 1989), Hoehling, and two reported
cases from the Southern District of New York. In
Narell, the author of a non-fiction book about the
immigration of European Jews to California sued the
author of a work of fiction who had admitted using the

111a

historical events depicted in the first work to write
portions of her novel. Id. at 909. The district *23 court
granted summary judgment to the defendant based on,
inter alia, a lack of substantial similarity. Id. The
Court of Appeals affirmed, because “[Plaintiff’s]
copyright does not protect the facts and ideas
[Defendant] took from [the copyrighted work].
Summary judgment is proper. [Defendant] did not
copy substantial protected portions of [Plaintiff’s]
work.” Id. at 915. In its analysis, the Court of Appeals
noted:
Copyright law protects only an author’s
expression. Facts and ideas within a work are
not protected. Historical facts and theories
may be copied, as long as the defendant does
not bodily appropriate the expression of the
plaintiff. [T]he scope of copyright in historical
accounts is narrow indeed, embracing no more
than the author’s original expression of
particular facts and theories already in the
public domain.

Id. at 910-11 (citations and internal quotation marks

omitted; alteration in original). The defendant in that
case “largely took unprotected factual information”
from the plaintiff’s work, such as reasons for the
immigration, details of Adolph Sutro’s journey, the
character of San Francisco’s streets, and the conduct
of social and religious activities in the Jewish
communities. Id. at 911. The defendant also copied
eight specific phrases, such as “rekindle old memories,”
“staggering network,” and “hordes of gold seekers,” but
the Court of Appeals ruled that such “ordinary phrases
are not entitled to copyright protection” because they
were “commonly-used expressions.” Id. Still, a

112a

“sequence of creative expression” including an ordinary
phrase can be protected. See id. (quoting Salinger v.
Random House, 811 F.2d 90, 98 (2d Cir. 1987)).
B. Analysis
1.

Access and Substantial Similarity

a. Access
Corbello has produced enough evidence of
Defendants’ access to the Work to avoid summary
judgment on the issue. She provides evidence that
DeVito informed Brickman of the Work and offered to
lend him a copy for limited purposes and a limited
time and without *24 permission to show it to anyone
or to copy any part of it. (See DeVito Dep. 354-62, May
11, 2011, ECF No. 748- 1). She also provides evidence
that despite DeVito’s instructions to Brickman not to
show the Work to anyone else or to copy it, Brickman
emailed David and Elice on January 22, 2004
informing them of the Work and that he would soon
have a copy of it. (See Brickman Email, Jan. 22, 2004,
ECF No. 748-39). Brickman forwarded a copy of the
email to McAnuff. (See McAnuff Email Reply, ECF No.
749-2). Even before Brickman had obtained the Work
from DeVito, McAnuff had planned the early February
2004 meeting at which McAnuff, Elice, Brickman, and
perhaps other writers constructed an outline for a play
based upon the Work and marked up at least one of
the two copies of the Work that Elice had made from
Brickman’s original copy from DeVito. (See Elice Dep.
84, 111, 115-16, 128-30, June 24, 2011, ECF No.
748-21). There is more evidence of Defendants’ access
to the Work adduced, but the evidence already
recounted is sufficient for Corbello to avoid summary
judgment on the issue.

113a

b. Substantial Similarity
The Court will conduct the extrinsic test under the
Apple Computer framework, i.e., it will determine
which alleged similarities are in fact articulable and
concrete, which of those are based on protectable
aspects of the Work, and the scope of protection to
which the collection of articulable, concrete,
protectable similarities may be entitled as a whole for
the purposes of the jury’s application of the intrinsic
test. Exhibit 8, the expert report of Richard Krevolin
(the “Krevolin Report”), is the most comprehensive
piece of evidence as to substantial similarity, and the
Report is sufficient, without more, for Plaintiff to avoid
summary judgment on the substantial similarity
theory of infringement, at least as to “thin” protection.
The Court is satisfied Krevolin is an expert on
adapting other media into screenplays. (See Krevolin
Report 1-3, ECF No. 748-8 (noting inter alia that
Krevolin has master’s degrees *25 in both
screenwriting and playwriting and fiction from UCLA
and USC, respectively; that he has worked for over 20
years as a writer, playwright, screenwriter, lecturer,
consultant, and professor; and that he has published
a book entitled How to Adapt Anything Into a
Screenplay”)). Although not dispositive, his expertise
will be helpful to the Court’s and jury’s comparisons of
the scripts to the Work. Even if he were not admitted
as an expert witness for his opinions, his report is a
useful guideline as to various alleged similarities.
Krevolin identifies many similarities between the
Work and several versions of the script and pre-script
materials. For the purposes of substantial similarity,
the relevant comparisons are those of the Work to the

114a

La Jolla Jersey Boys Script and the Jersey Boys
Broadway Script. (See id. 52-138, ECF No. 748-8).

Krevolin opines that the scripts for the London, Las
Vegas, Toronto, Melbourne, Chicago, First National
Tour, and (based on his understanding that no
separate script was created for the Sydney production)
the Sydney productions of Jersey Boys contain no
material differences as between themselves or with the
Jersey Boys Broadway Script. (See id. at 139).

As to the La Jolla Jersey Boys Script, Krevolin
identifies 68 similarities with the Work. (See id.
54-59). As to the Jersey Boys Broadway Script,
Krevolin identifies 90 similarities with the Work. (See
id. 62-70). Krevolin ultimately opines that at least
thirty percent (30%) of Jersey Boys is attributable to
the Work. (See id. at 148). As to Jersey Boys products
apart from the performances, he opines that the
Libretto beginning on page 86 of the Jersey Boys Book
is an abridged version of the Jersey Boys Broadway
Script that shares all of the Jersey Boys Broadway
Script’s similarities to the Work but three, (see id. at
140), and that the Jersey Boys Cast *26 Recording
contains little dialogue from Jersey Boys but does
contain elements from the Work, (see id. at 140-41).3
The Court has examined each of the similarities
and determined that a reasonable jury could find most
of them to be concrete, articulable similarities, but
that most of them are based on historical fact or
ordinary phrases without any creative element having
3

The Court has already granted summary judgment on
the infringement issue as to the Jersey Boys Cast Recording, (see
Third Summ. J. Order 20-21, ECF No. 780), and the Court of
Appeals did not upset that ruling.

115a

been supplied by the Work and reproduced in the
scripts. Where the similarities are based on more than
historical fact or ordinary phrases, the creative
elements in the scripts are typically not those that
appear in the Work. The following similarities4 are
based on historical fact, with any creative element
having been provided by the accused work(s), not the
Work: LJ4-7, LJ10-19, LJ21-25, LJ27-30, LJ32- 42,
LJ44-47, LJ50-57, LJ61-62, LJ64, LJ66, B4-8, B11,
B13-25, B27-31, B33-51, B53-58, B60, B62-76, B81-84,
B86, and B88.5 The following similarities, to the extent

4

The similarities are not numbered in the Krevolin
Report but listed as “bullet” points. The Court will refer to the
similarities in the order Krevolin lists them as LJ1, LJ2, etc. for
the similarities between the La Jolla Jersey Boys script and the
Work and as B1, B2, etc. for the similarities between the Jersey
Boys Broadway script and the Work.
5

DeVito’s recollected perceptions of other real person’s
characteristics and personalities, as well as recollections of real
places where real events are alleged to have occurred, are still
claims of historical fact, not creative elements. Events, persons,
and places depicted as historical fact are simply not protected by
copyright except to the extent a historical work may be entirely
appropriated; characterizing aspects of a work as setting, plot,
character, etc. does not make unprotectable elements such as
claims of historical fact protectable no matter how concrete and
articulable the similarities are. Of course, wholesale appropriation
of even a historical work is infringement, but that is “thin”
protection. Moreover, in this case, many of the similarities,
particularly settings and characterizations of persons, are
repeated in Krevolin’s analysis more than once, and many
historical similarities that could be characterized as single events
are characterized as multiple events. The numbers 68 and 90 are
therefore inflated even if the Court were to rule that each of the
similarities represented a concrete, articulable similarity based on
a protected aspect of the Work. Next, the fact that the scripts

116a

they are not *27 based on historical accounts, are
based on ordinary phrases: LJ3, LJ8, LJ20, LJ31,
LJ49, LJ58-60, LJ63, LJ65, LJ 67-68, B3, B9-10, B26,
B61, B77-80, B85, B87, and B89-90. The following
similarity is based on a stock scene: LJ1. The following
similarities are not based on concrete, articulable
aspects of plot, theme, etc: LJ2, B2, and B32.
The remaining similarities are: LJ9 (dialogue,
theme), LJ26 (mood), LJ43 (dialogue), LJ48 (theme),
B1 (mood), B12 (dialogue, theme), B52 (dialogue), and
B59 (theme). These concrete, articulable similarities
based on protectable material are not enough for the
Work to have “thick” copyright protection. As a whole,
the Work is entitled to “thin” copyright protection—at
least Corbello is entitled to argue that to the jury. The
Work is a work of historical fact, as recounted by
DeVito with the assistance of Woodard’s writing skills.
The creative aspects of the Work do not generally
concern things like character, plot, and setting, but
rather writing style and presentation. Neither DeVito
nor Woodard created or even claimed to have created
contradict the Work in some places tends to show that the scripts
were created at least in part from other, contradictory sources or
that the authors of the script chose their own creative additions
over the Work’s historical representations in the relevant places,
not that the Work was intended to be fiction. Nor do Valli’s and
others’ deposition testimony that parts of the Work are false make
the Work fiction for the purposes of copyright where DeVito
explicitly presents it as his earnest interpretation of historical
events. It is not unusual for historical works to contradict one
another, particularly where the events occurred during the
lifetimes of the authors, and especially where the authors were
themselves involved in the events and therefore may have
personal motivations to recount the events differently from one
another.

117a

any characters, plot lines, settings, etc. The Prologue
of the Work is emphatic that previous biographies
about The Four Seasons are “bogus” and that the Work
represents “the whole story,” i.e., the truth as DeVito
sees it. (Work i, ECF No. 629-5, at 3). DeVito simply
recounted the historical facts as he perceived them,
and Woodard contributed his writing style.
Interpretations of historical events, like the facts of
history themselves, are uncopyrightable ideas.
Hoehling, 618 F.3d at 978. After all, every relation of
a historical fact beyond direct observation is tainted to
some degree by some person’s interpretation, so
distinguishing between *28 historical facts and
“interpretations” of those facts in the context of
copyright would destroy the rule that historical facts
are unprotected. That does not mean the Work is
unprotected by copyright. Clearly, DeVito and
Woodard created something that did not exist before
their collaboration. The overall expression of the Work
as a whole is protected, and Defendants were not
entitled to copy the Work wholesale.
2.

Direct Copying

Defendants are not entitled to summary judgment
on a direct copying theory. A reasonable jury could find
direct copying from the evidence of access to the Work
in late January 2004, the early February 2004 meeting
at which Brickman, Elice, and McAnuff poured over,
annotated, and began to adapt the Work, and the
Krevolin Report’s comparisons of the Work to the
evolving scripts, i.e., the February 13, 2004 Outline,
the March 11, 2004 Outline, the March 19, 2004
Outline, the April 7, 2004 Outline, the May 28, 2004
Draft Script, the July 7, 2004 Draft Script, the La Jolla
Jersey Boys Script of October 2004, and the Broadway

118a

Jersey Boys Script of November 2005. (See id. at

13-138). The jury must be instructed, of course, that
even if the Work was directly copied, it is only the
expression of the authors of the Work that is protected
from copying, and in this case that expression consists
of the overall presentation of the Work as a whole. See
Narell, 872 F.2d at 910-12.
C. Summary of Ruling
Under the law of the case, the jury must be
instructed that the 1999 Agreement was a transfer of
ownership whereby Valli and Gaudio became joint
owners with Corbello, and that Valli and Gaudio
cannot be liable for infringement while they were joint
owners. The jury must determine whether the 1999
Agreement’s reversionary clause was ever triggered
such that Valli and Gaudio might be liable for
infringement thereafter. If that occurred, the jury
must also *29 determine whether DeVito granted Valli
and Gaudio an implied nonexclusive license such that
they cannot have been liable for infringement even
after their ownership interest reverted to DeVito.
Finally, the jury must determine infringement under
direct copying or substantial similarity theories. Under
the latter theory, the jury must first perform the
extrinsic test. The Court has granted summary
judgment in part as to the extrinsic test, finding that
regular, “thick” copyright protection does not apply as
a matter of law, so the jury must be instructed that if
the Work passes the extrinsic test, it must apply “thin”
protection under the intrinsic test.6

6

The Court will not instruct the jury using the legal
jargon of “thin,” which could be confusing or prejudicial, but

119a

CONCLUSION
IT IS HEREBY ORDERED that the Motion for
Summary Judgment (ECF No. 626) is GRANTED IN
PART and DENIED IN PART. The Work is entitled to
“thin” copyright protection as against the La Jolla
Jersey Boys Script, the Jersey Boys Broadway Script,
and the Libretto in the Jersey Boys Book.
IT IS SO ORDERED. Dated this 29th day of
September, 2015.
/s/________________________
ROBERT C. JONES
United States District Judge

rather with the relevant legal standards the word denotes.

120a

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 12-16733, 13-15826
D.C. No. 2:08-cv-00867-RCJ-PAL
DONNA CORBELLO,

Plaintiff-Appellant,
v.
THOMAS GAETANO DEVITO,

Defendant,
and
FRANKIE VALLI; ROBERT J. GAUDIO; MARSHALL
BRICKMAN; ERIC S. ELICE; DES MCANUFF;
DSHT, INC., FKA DODGER STATE HOLDING
THEATRICALS, INC.; DODGER THEATRICALS, LTD.;
JB VIVA VEGAS, LP; MICHAEL S. DAVID; JERSEY BOYS
BROADWAY LIMITED PARTNERSHIP; JERSEY BOYS
RECORDS LIMITED PARTNERSHIP; SKUNK, INC.;
GETTING HOME, INC.,

Defendants- Appellees.
DONNA CORBELLO,

Plaintiff-Appellant,
v.

121a

THOMAS GAETANO DEVITO,

Defendant,
and
FRANKIE VALLI; ROBERT J. GAUDIO; MARSHALL
BRICKMAN; ERIC S. ELICE; DES MCANUFF;
DSHT, INC., FKA DODGER STATE HOLDING
THEATRICALS, INC.; DODGER THEATRICALS, LTD.;
JB VIVA VEGAS, LP; MICHAEL S. DAVID; JERSEY BOYS
BROADWAY LIMITED PARTNERSHIP; JERSEY BOYS
RECORDS LIMITED PARTNERSHIP; SKUNK, INC.;
GETTING HOME, INC.,

Defendants- Appellees.
Appeal from the United States
District Court for the District of Nevada
Robert Clive Jones, District Judge, Presiding
DECIDED FEB 10. 2015
Before: DIARMUID F. O’SCANNLAIN, ROBERT D.
SACK*******, and CARLOS T. BEA, Circuit Judges
Opinion by Judge O’SCANNLAIN; Concurrence by
Judge SACK.
OPINION
O’SCANNLAIN, Circuit Judge:

*******

The Honorable Robert D. Sack, Senior Circuit Judge
for the U.S. Court of Appeals for the Second Circuit, sitting by
designation.

122a

We must decide whether a contractual grant of the
exclusive right to use an individual’s “biographies” to
create a Broadway musical stage play also constitutes
a transfer of a copyright ownership interest in that
individual’s unpublished autobiography.
I
A
In 1988, Rex Woodward, a lawyer, journalist, and
“Four Seasons” devotee, entered into a written
agreement to ghostwrite the autobiography (the
“Work”) of Thomas DeVito, one of the original
members of the band (later known as “Jersey Boys”).
Pursuant to this agreement, Woodward and DeVito
would split the proceeds from publishing or otherwise
exploiting the manuscript. After completing the Work
but before securing publication, Woodward succumbed
to lung cancer in 1991. Unbeknownst to Woodward’s
widow and heir, Donna Corbello, DeVito had
registered the Work with the U.S. Copyright Office
solely under his own name in 1991, four months before
Woodward’s death.
In 1999, DeVito and another former Four Seasons
band member, Nicholas Macioci, executed an
agreement (the “1999 Agreement”) with two of their
former bandmates, Frankie Valli and Bob Gaudio.
Pursuant to this agreement, DeVito and Macioci
granted to Valli and Gaudio the “exclusive right to
use” “aspects of [their lives] related to The Four
Seasons including, by way of example, [their] creative
contributions, biographies, events in [their lives],
names and likenesses (the ‘Materials’)” to develop a
musical stage performance (the “Play”) about the “Four
Seasons.” DeVito and Macioci further waived all

123a

claims in connection with the Materials, including any
claim for violation of copyright.
After an abortive attempt to create the Play with
an initial producer, Valli and Gaudio entered into a
twenty-four page letter agreement dated May 1, 2004
(the “2004 Agreement”) to produce the Play 1061*1061
with another production company. Pursuant to this
agreement, Valli and Gaudio granted the right to use
the band, the band’s music, and the band members’
names, likenesses, and life stories. In exchange for
these rights, Valli and Gaudio would receive certain
specified advances and royalties calculated as a
percentage of gross box- office receipts from future
productions. While the contract was printed on the
letterhead of Dodgers Theatricals, Ltd., and reserved
a space on the signature page for that same entity, the
text of the agreement defines a different entity, Dodger
Stage Holding Theatricals, Inc., as the “Producer.”
Pursuant to the 1999 Agreement, Valli and Gaudio
were to distribute – and did in fact so distribute – a
portion of any such payments received to DeVito. The
musical “Jersey Boys,” produced pursuant to this
Agreement, opened on Broadway in late 2005 to
popular and critical acclaim, and has enjoyed
continued international success.
B
Corbello first discovered arrangements made by
DeVito and his bandmates after she and her sisterin-law renewed their efforts to publish the Work on the
eve of the “Jersey Boys” debut. Supposing that the
Broadway musical might rekindle interest in the band,
she approached DeVito who, after a month of
correspondence, rejected her overtures, concluding

124a

that the Work was “not saleable.” In 2006, the success
of “Jersey Boys” prompted Corbello and her
sister-in-law to confirm the copyright in the Work in
the hope of future exploitation, when they discovered
that DeVito had already registered – solely in his own
name – a manuscript virtually identical to the Work.
Corbello subsequently filed a supplementary
application with the U.S. Copyright Office to add
Woodward as a coauthor and co-claimant of the Work,
which prompted the Office to amend the certificate of
registration to list Woodward and DeVito as coauthors
of the Work and co-claimants thereto.
Based on such revelation, and further accounts
from writers, actors, and others involved in the Play
that attributed inspiration in part to the unpublished
autobiography, Corbello initially brought suit against
DeVito for equitable accounting, declaratory judgment,
and breach of contract. Valli’s divorce proceedings in
2008 brought to public light further documents,
including the 1999 Agreement, regarding DeVito’s
involvement in producing the Play. Corbello filed a
Third Amended Complaint in May 2011, alleging
twenty causes of action, including equitable
accounting, declaratory judgment, and copyright
infringement under both U.S. and foreign law, not only
against DeVito but also against Valli and Gaudio, as
well as the writers, directors, and producers of the
Play and various related entities.
Corbello alleges that the Play constitutes, at least
in part, a “derivative work” of the DeVito
autobiography, the right to create which resides
exclusively in the copyright-holders of the underlying
work, and their lawful successors, assignees, and
licensees. Corbello thus concludes that she, as legatee

125a

of Woodward’s joint copyright in the Work, deserves to
share in the profits reaped by the various Appellees’
licensing and assignment, or infringement, as the case
may be, of the underlying rights.
Facing dueling motions for summary judgment on
several of the counts, the district court issued two
orders, incorporated into the judgment from which
Corbello here appeals, granting summary judgment to
all Appellees on Corbello’s claims for equitable
accounting, declaratory judgment, and copyright
infringement. In so ruling, the district court concluded
that (1) the 1999 Agreement constituted not an
assignment of DeVito’s copyright *1062 interest in, but
rather a “selectively exclusive license” to use, the
Work; (2) the 1999 Agreement, the 2004 Agreement,
and DeVito’s subsequent conduct sufficiently licensed
Appellees to use the Work in developing the Play; and
(3) because United States law governs whether the
Appellees possessed a valid license to use the Work,
Corbello’s claims for copyright infringement under
foreign law must also fail.
Corbello timely appealed, disputing all of these
conclusions as well as the district court’s taxation of
costs against her.1

1

We have jurisdiction pursuant to 28 U.S.C. § 1291.

126a

II
Corbello first contends that the 1999 Agreement
constituted a transfer of DeVito’s copyright interest in
the Work, rather than a selectively exclusive license,
and that she, as the legatee of Woodward – a duly
registered co-author and co- claimant of the Work – is
therefore entitled to a portion of the proceeds resulting
from Valli and Gaudio’s exploitation of that ownership
interest.
“A co-owner of a copyright must account to other
co-owners for any profits he earns from licensing or
use of the copyright.” Oddo v. Ries, 743 F.2d 630, 633
(9th Cir.1984). Copyright law considers both exclusive
licenses and assignments to be “transfer[s] of copyright
ownership.” 17 U.S.C. §101. The statute enumerates
various rights that copyright owners hold, including
the right “to prepare derivative works based upon the
copyrighted work.” Id. § 106(2). Copyright owners may
transfer “[a]ny of the exclusive rights comprised in a
copyright, including any subdivision of any of the
rights specified by section 106,” id. § 201(d)(2), so long
as the transfer is evidenced by a signed writing, id. §
204(a).
The parties do not dispute that Corbello succeeded
to her husband’s interest in the copyright of the Work.
Thus, Corbello’s claims for declaratory relief and
equitable accounting turn on whether DeVito
effectively transferred some quantum of his copyright
co-ownership interest to Appellees.

127a

A
Pursuant to the 1999 Agreement, DeVito
“grant[ed] to [Valli and Gaudio] the exclusive right to
use and incorporate the Materials in one or more
theatrical productions, and any and all ancillary and
subsidiary exploitations thereof.” As defined in the
Agreement, “Materials” includes, inter alia, DeVito’s
“biographies.” The 1999 Agreement also contains a
provision by which DeVito agreed to “waive any claim
in connection with the Materials or Works including
. . . any claim that the Works . . . violate any right of
. . . copyright.”
Despite concluding that the Agreement’s inclusion
of “biographies” in the definition of “Materials”
sufficiently included the Work so as to grant Valli and
Gaudio an exclusive license to use it in producing the
Play, the district court nevertheless found that the
Work fell outside of the Agreement’s use of
“biographies” for the purpose of transferring
ownership of a copyright interest in the Work. We are
not persuaded by the district court’s interpretation.
The 1999 Agreement is governed by New York law.
Under New York law, a contract is unambiguous if “on
its face[,it] is reasonably susceptible of only one
meaning.” Greenfield v. Philles Records, Inc., 98
N.Y.2d 562, 750 N.Y.S.2d 565, 780 N.E.2d 166, 171
(2002). If a contract is unambiguous, the court may not
consider extrinsic evidence of the parties’ intent. Id.,
750 N.Y.S.2d 565, 780 N.E.2d at 170.*1063
In the context of the 1999 Agreement, the term
“biographies” is not ambiguous. Standard dictionary
definitions emphasize that biographies generally
include both a formal and substantial written

128a

component: a “biography” is a “history of a person’s
life” (the substance) that is “usually written” (the
form). Merriam–Webster’s Collegiate Dictionary (10th
ed.1998); accord Oxford English Dictionary (3rd
ed.2010) (“The process of recording the events and
circumstances of another person’s life, esp. for
publication . . . ; the documenting of individual life
histories . . . considered as a genre of writing or social
history.”) (first listed definition); id. (“A written
account of the life of an individual.”) (second listed
definition). As an account of DeVito’s life that has been
reduced to writing, the Work, on its face, qualifies
under these straightforward definitions as a
“biography.”
Nor are we persuaded by Appellees’ argument that
“biography,” as used in the 1999 Agreement, refers not
to documented life histories, but rather to the general
story of one’s life. First, this definition, even when
offered by dictionaries, takes a subsidiary position to
the more common definition of a documented history.
See Oxford English Dictionary (3rd. ed.2010) (third
and final listed definition); cf. Merriam–Webster’s
Collegiate Dictionary (10th ed.1998) (“an account of
the life of something (as an animal, a coin, or a
building)”) (third and final listed definition). Moreover,
under New York law, courts may not choose to
interpret a contractual provision so as to render
another term superfluous. See Sayers v. Rochester
Telephone Corp. Supp. Mgmt. Pension Plan, 7 F.3d
1091, 1095 (2d Cir.1993); see also Antonin Scalia &
Bryan A. Garner, Reading Law: The Interpretation of
Legal Texts 174–79 (2012) (discussing surplusage
cannon). Here, to read “biography” as referring to
DeVito’s general life story would do just that, as

129a

“Materials” is defined to include not only biographies,
but also “creative contributions, . . . events in your life,
names and likenesses.” Thus, Appellees’ proposed
definition cannot be squared with New York’s rules
governing proper contract interpretation.
Further, to read “biographies” as Appellees urge
would largely defeat the overarching purpose of the
Agreement. Under New York law, courts should
consider individual contract provisions in light of “the
entirety of the agreement in the context of the parties’
relationship and circumstances.” In re Riconda, 90
N.Y.2d 733, 665 N.Y.S.2d 392, 688 N.E.2d 248, 252
(1997). Here, as the Agreement clearly states and
uncontradicted by the evidence in the record, the goal
of the parties in executing the Agreement was to
develop a theatrical adaptation of their own and their
band’s own histories.2 DeVito cannot plausibly claim to
have retained his privilege as a copyright co-owner to
create derivative theatrical works of any biographical
manuscript he owns, yet surrendered exclusively to
others his generic “life story,” along with his name and
likeness, to create a play. Relinquishing one’s right to
exploit creatively his or her “life story,” while at the
same time retaining a corresponding right over one’s
written biography, would be a self-defeating endeavor.
2

The fact that Macioci may never have had a written
biography, the rights to which he could have transferred via the
1999 Agreement, is perfectly in keeping with such a goal. The
ability to use freely a written biography, if such biography existed,
would help Valli and Gaudio create a Play chronicling the history
of the band and its members. The fact that one of the band
members may not have actually had such a biography does not
negate the fact that, had he had such a biography, it would have
assisted Valli and Gaudio in their goal of developing the Play.

130a

We decline to impute such an incompatible *1064
purpose to the definition of “biographies” in the 1999
Agreement.
Pursuant to the 1999 Agreement, DeVito granted
Valli and Gaudio the “exclusive right to use” his
“biographies,” unambiguously including the Work, to
create a play. Such play constitutes a “derivative
work,” the right to create which resides in each
copyright holder of the underlying work and may be
transferred by that holder to a third party.3 Thus, in
granting this exclusive right to create, whether
classified as an exclusive license or an assignment, the
1999 Agreement constitutes a transfer of ownership of
DeVito’s derivative-work right in the Work to Valli and
Gaudio.
B
Appellees argue that our precedent, Sybersound
Records, Inc. v. UAV Corp., 517 F.3d 1137 (9th

Cir.2008), prohibits a co-owner of a copyright, such as
DeVito, from transferring that right without
permission from his co-owner, in this instance,
Corbello. But that argument stretches Sybersound’s
holding too far.

3

Despite the concerns expressed by the concurrence,
including the Work in the definition of “biographies” does not
restrict DeVito from exercising those other statutory rights of
copyright ownership identified in 17 U.S.C. § 106 (assuming, of
course, that DeVito has not independently transferred those
rights to third parties). See infra, at 1069-71 (Sack, J.,
concurring). The Agreement simply restricts DeVito from alone
using the Work to create a theatrical production.

131a

Copyright “is a creature of statute, and the only
rights that exist under copyright law are those granted
by statute.” Silvers v. Sony Pictures Entm’t, Inc., 402
F.3d 881, 883–84 (9th Cir.2005) (en banc). Specifically,
“[a] copyright consists of a bundle of six statutorily
created rights, currently codified at 17 U.S.C. § 106.”
Sybersound, 517 F.3d at 1145 n. 3.4 While § 106
identifies what rights are included in a copyright, §
201(d) describes how an owner can transfer a

4

The six statutorily created rights created by 17 U.S.C. §
106 include the right:
“(1) to reproduce the copyrighted work in
copies or phonorecords;
(2) to prepare derivative works based upon
the copyrighted work;
(3) to distribute copies or phonorecords of
the copyrighted work to the public by sale
or other transfer of ownership, or by rental,
lease, or lending;
(4) in the case of literary, musical,
dramatic, and choreographic works,
pantomimes, and motion pictures and other
audiovisual works, to perform the
copyrighted work publicly;
(5) in the case of literary, musical,
dramatic, and choreographic works,
pantomimes, and pictorial, graphic, or
sculptural works, including the individual
images of a motion picture or other
audiovisual work, to display the
copyrighted work publicly; and
(6) in the case of sound recordings, to
perform the copyrighted work publicly by
means of a digital audio transmission.”
17 U.S.C. § 106.

132a

copyright and its component parts. See 17 U.S.C. §
201(d). Section 201(d)(1) provides that “[t]he
ownership of a copyright may be transferred in whole
or in part by any means of conveyance or by operation
of law[.]” Id. § 201(d)(1). And § 201(d)(2) states that
“[a]ny of the exclusive rights comprised in a copyright,
including any subdivision of the rights specified in
section 106, may be transferred as provided by [§
201(d)(1)] and owned separately.” Id. § 201(d)(2).
We had several occasions prior to Sybersound to
interpret § 201(d)’s broad language authorizing the
alienability of copyrights. In Bagdadi v. Nazar, we
explained, “[i]t is important to note that the various
rights included in a copyright are divisible and that
‘any of the exclusive rights comprised in a copyright
. . . may be transferred . . . and owned separately.’ “84
F.3d 1194, 1197 (9th Cir.1996) (citing 17 U.S.C. §
201(d)(2)). In *1065 Gardner v. Nike, Inc., we added,
“[s]ection 201(d)(1) enables the owner to transfer any
fraction of his or her ownership interest to another
party, thereby making that party a whole or joint
owner.” 279 F.3d 774, 779 (9th Cir.2002). And in
Silvers v. Sony Pictures, an en banc panel explained
that the six component parts of a copyright “may be
chopped up and owned separately, and each separate
owner of a subdivided exclusive right may sue to
enforce that owned portion of an exclusive right, no
matter how small.” 402 F.3d at 887 (emphasis added).
In short, we made clear prior to Sybersound that
copyrights are divisible and that a copyright owner can
freely transfer any portion of his ownership interests
in that copyright; after all, the plain language of §
201(d) commands as much.

133a

Sybersound dealt with a plaintiff’s standing to sue
for owned the copyright to nine songs. 517 F.3d at
1144. One such owner attempted to transfer to
Sybersound the exclusive right to use those songs for
karaoke purposes. Id. at 1142. Sybersound later filed
a lawsuit against other third parties, alleging those
parties were infringing on Sybersound’s right to use
the songs for karaoke purposes. Id. at 1145.
We held that when one co-owner independently
attempts to grant an exclusive license of a particular
copyright interest, that licensee – in this case,
Sybersound – does not have standing to sue alleged
third-party infringers. Id. at 1146. After all, one
co-owner, acting independently, “may not limit the
other co-owners’ independent rights to exploit the
copyright.” Id. Such a conclusion stems from the
self-evident principle that a joint- owner cannot
transfer more than he himself holds; thus, an
assignment or exclusive license from one joint-owner
to a third party cannot bind the other joint-owners or
limit their rights in the copyright without their
consent. In other words, the third party’s right is
“exclusive” as to the assigning or licensing co-owner,
but not as to the other co- owners and their assignees
or licensees. As such, a third-party assignee or licensee
lacks standing to challenge the attempted assignments
or licenses of other copyright owners.
The Sybersound court grounds this venerable
principle of copyright law deeply in the statutory text,
citing the definition of a “transfer of ownership” as
including an assignment or license of any of the
“exclusive rights comprised in a copyright . . . but not
including a non exclusive license,” id. (quoting 17
U.S.C. § 101), and a provision that permits subdivision

134a

and alienation of “[a]ny of the exclusive rights
comprised in a copyright,” id. (quoting 17 U.S.C. §
201(d)). But the Court’s emphasis on the word
“exclusive” in these provisions cannot mean that only
sole owners possess “exclusive” rights, as such a rule
would run directly contrary to another well-settled
principle of copyright law: the right of one joint- owner
to sue third-party infringers without joining any of his
fellow co-owners, a right Sybersound itself expressly
recognizes. See id. at 1145 (noting that “co-owners may
bring suit for copyright infringement without joining
other co-owners” (citing Davis v. Blige, 505 F.3d 90, 99
(2d Cir.2007))). After all, the copyright statute permits
infringement suits only if brought by owners of an
“exclusive right” against alleged violators of such
“exclusive right.” 17 U.S.C. § 501 (emphasis added). If
an “exclusive right” could only be possessed by a sole
owner of a copyright, a co- owner would be unable to
bring an infringement action to protect his interest.
Moreover, such a limitation would contradict the
principle of the free transferability of copyright
ownership interests – a *1066 principle reflected in
both the express language of § 201(d) and our Circuit
precedent, neither of which treat transferability
differently based on whether the original copyright
owner is a sole owner or a co- owner. See, e.g., Silvers,
402 F.3d at 887; Gardner, 279 F.3d at 779; Bagdadi, 84
F.3d at 1197.5 Thus, Sybersound merely imposes a

5

In fact, we have suggested quite the opposite. We
implicitly held prior to the Copyright Act of 1976 that a co-owner
of a copyright can transfer its interests in a copyright without the
permission of the other co-owners. See Piantadosi v. Loew’s Inc.,
137 F.2d 534, 536–37 (9th Cir.1943). Because the Copyright Act

135a

standing limitation on copyright assignees and
licensees that reflects the basic principle that one
cannot give away more than one’s share in a copyright
– it need not, and should not, be extended to limit a
co-owner’s ability to transfer unilaterally any exclusive
copyright interests that he himself possesses.
Therefore, Sybersound presents no obstacle to
DeVito’s exclusive transfer of his derivative-work right
to Valli and Gaudio under the 1999 Agreement.
Because the Agreement unambiguously transfers
DeVito’s derivative-work right to Valli and Gaudio,
and copyright co- owners must account to one another
for any profits earned by exploiting that copyright, the
district court erred in rejecting Corbello’s claims for
accounting and declaratory relief.
III
The district court granted summary judgment in
favor of Appellees with respect to Corbello’s
infringement claims based on its finding that Valli and
Gaudio held a license to use the Work in the
production of the Play. See Worldwide Church of God
v. Phila. Church of God, Inc., 227 F.3d 1110, 1114 (9th
Cir.2000) (“The existence of a license creates an

of 1976 removed prior restrictions on dividing and transferring
the component parts of copyrights, see Gardner, 279 F.3d at
777–79, it stands to reason that if co-owners could unilaterally
and severally transfer their copyright interests before 1976, coowners could do the same after 1976. Indeed, § 201(a) specifically
contemplates the existence of copyright co-owners. 17 U.S.C. §
201(a) ( “The authors of a joint work are coowners of copyright in
the work.”). Yet nothing in § 201(d) purports to authorize broad
alienability to sole owners of a copyright while simultaneously
withholding that same right from co-owners of a copyright.

136a

affirmative defense to a claim of copyright
infringement.”). We have concluded, however, that the
1999 Agreement constituted a transfer of DeVito’s
derivative-work interest in the copyright, rather than
a license. Therefore, Appellees have necessarily failed
to establish the existence of a license as an affirmative
defense to Corbello’s infringement action.
A
Our conclusion that the 1999 Agreement
constituted a transfer of ownership of DeVito’s
derivative-work right in the Work to Valli and Gaudio
would ordinarily preclude Corbello’s infringement
claims against Valli and Gaudio, as “[a] co-owner of a
copyright cannot be liable to another co-owner for
infringement of the copyright.” Oddo v. Ries, 743 F.2d
630, 632–33 (9th Cir.1984). But a material issue of fact
remains as to whether the Agreement’s reversionary
clause later terminated Valli and Gaudio’s ownership
right, resulting in the Appellees’ subsequent
infringement upon Corbello’s copyright interest.
The Agreement provided that the rights granted
therein would continue perpetually either (i) if they
merged with the Play pursuant to a contract with an
initial producer or (ii) pursuant to a contract into
which Valli and Gaudio might enter with a second
producer within two years of the initial producer’s
rights lapsing.*1067
Corbello argues that Valli and Gaudio did not
execute the 2004 Agreement (the second production
contract) within that two-year period. Specifically, she
points to evidence in the record which suggests that
the initial producer’s rights expired on December 10,
2002, and that the 2004 Agreement, though dated May

137a

1, 2004, was not in fact fully executed until October 27,
2005. If true, the reversionary clause of the 1999
Agreement would have terminated Valli and Gaudio’s
ownership right as of December 10, 2004, and any
subsequent exploitation by Appellees of the Work may
have infringed upon Corbello’s copyright interest.
Appellees counter with testimony of Michael David,
president of Dodger Theatricals, which suggests that
the parties to the 2004 Agreement may have reached
an oral agreement prior to December 10, 2004. In the
face of such contradictory evidence regarding whether
the reversionary clause terminated Valli and Gaudio’s
derivative-work right, disputed material facts preclude
summary judgment as to Corbello’s infringement
claims based on Valli and Gaudio’s ownership of the
copyright interest.6
B
Appellees argue alternatively that DeVito’s
conduct resulted in a grant to them of an implied
nonexclusive license to use the Work, effective
regardless of the reversionary clause in the 1999
Agreement. In support of their argument, they cite
DeVito’s delivery of the Work to the writers of the Play
6

The district court also held that 17 U.S.C. § 203(a)(4)
required DeVito to give Valli and Gaudio written notice before he
could terminate their rights via the reversionary clause. But §
203(a)(4) is inapplicable in this case. The Ninth Circuit has held
that when “the contract at issue is of a definite duration, neither
Section 203, nor any other provision of the Copyright Act, governs
[a copyright owner’s] right to terminate or rescind the license [or
assignment].” Scholastic Entm’t Inc. v. Fox Entm’t Grp., Inc., 336
F.3d 982, 988 (9th Cir.2003). In light of the reversionary clause,
the 1999 Agreement was of definite duration, and therefore the
notice requirement of § 203 does not apply.

138a

with the apparent intention that they would use the
Work to create the Play, along with DeVito’s
attendance at performances of, and acceptance of
royalty checks from, the Play.
While we may consider delivery of a copyrighted
object as “a relevant factor” to determine the existence
of an implied license, Asset Marketing Sys., Inc. v.
Gagnon, 542 F.3d 748, 755 n. 4 (9th Cir.2008), the
copyright statute forbids courts from inferring a
transfer of copyright or a license from mere delivery of
the material object in which the work is embodied. 17
U.S.C. § 202. Rather, courts should focus primarily on
“the licensor’s objective intent at the time of the
creation and delivery of the software as manifested by
the parties’ conduct.” Gagnon, 542 F.3d at 756. For
instance, the Ninth Circuit “ha[s] held that an implied
license is granted when (1) a person (the licensee)
requests the creation of a work, (2) the creator (the
licensor) makes that particular work and delivers it to
the licensee who requested it, and (3) the licensor
intends that the licensee-requestor copy and distribute
the work.” Gagnon, 542 F.3d at 754–55 (internal
quotation marks and footnote omitted).
Here, DeVito’s intentions in delivering the Work to
the writers are unclear at best. Appellees did not ask
DeVito to create the Work. In fact, the creation of the
Work long predated any specific effort on DeVito’s part
to parlay his life into a Broadway musical. Cf. Gagnon,
542 F.3d at 755 (finding an implied license when,
among other things, the licensor created the
copyrighted work at the licensee’s request). Moreover,
DeVito specifically denied that he ever licensed the
Work to Appellees. DeVito initially provided the *1068
Work to the writers for the purpose of providing

139a

background information on DeVito’s friend, Raymond
Gyp DeCarlo. In doing so, DeVito gave explicit
instructions that the writers should not duplicate or
circulate the Work and that the Work should remain
confidential, because DeVito wanted to publish the
Work in the future. The writers then returned the
Work to DeVito a mere few days later. DeVito’s
apparent lack of familiarity with the content of the
Work as reflected in the Play further undercuts any
potential connection between his support of the Play
and his support of the Appellees’ use of the Work in its
production. Finally, the express provisions in the 1999
Agreement governing the use of the Work further
controvert any apparent expectation that Valli and
Gaudio might have had in otherwise using the Work.
In light of such contradictory facts regarding
DeVito’s intent in delivering the Work, the district
court’s grant of summary judgment on the ground of
an implied license – to the extent it rested on such a
ground – was inappropriate.
IV
Relying on its conclusion that the 1999 Agreement
constituted a license of DeVito’s copyright interest,
rather than a transfer of ownership, the district court
granted summary judgment to Appellees on Corbello’s
claims of infringement under foreign law. Because we
here conclude that the Agreement instead constituted
a transfer of ownership, summary judgment on such
foreign law grounds must be reversed as well.
V
Corbello appeals the district court’s assessment of
costs against her. Because we reverse the district

140a

court’s grant of summary judgment, we vacate the
award of costs and remand for reconsideration after
other proceedings on remand. See, e.g., Cusano v.
Klein, 264 F.3d 936, 951 (9th Cir.2001).
VI
We reverse the district court’s grant of summary
judgment in favor of Appellees, vacate its assessment
of costs against Corbello, and remand for further
proceedings consistent with this opinion. We award
costs on appeal to Corbello as the substantially
prevailing party. See Fed. R.App. P. 39(a)(4) (“[I]f a
judgment is affirmed in part, reversed in part,
modified, or vacated, costs are taxed as the court
orders.”).
REVERSED IN PART, VACATED IN PART, AND
REMANDED.

141a

Concurrence by JUDGE SACK.
SACK, Senior Circuit Judge, concurring in the
judgment:
I agree that we must remand this case to the
district court for further proceedings. I disagree,
however, that the word “biographies” in the 1999
Agreement unambiguously includes the manuscript of
the autobiography of DeVito ghost written by
Corbello’s decedent Woodward for DeVito (“the Work”),
completed some eight years earlier, and that the 1999
Agreement therefore transferred certain derivative
rights in the Work to the counter-parties to the
Agreement—Valli and Gaudio. First, I would conclude
that the language is ambiguous under New York law
and remand on that basis for the district court to
decide as a matter of fact whether the 1999 Agreement
included a transfer of rights with respect to the
ghost-written autobiography. But second, even if the
1999 Agreement unambiguously transfers DeVito’s
interest in the Work, I think Sybersound Records, Inc.
v. UAV Corp., 517 F.3d 1137 (9th Cir.2008), compels
us to conclude that the transfer effected only a
nonexclusive, rather than an exclusive, license*1069 to
use the Work for “the creation of a musical stage play.”
I
The majority offers a plausible – but not the only
plausible – reading of the language of the 1999
Agreement. Because the language at issue “is
susceptible to more than one reasonable
interpretation,” Brad H. v. City of New York, 17
N.Y.3d 180, 186, 928 N.Y.S.2d 221, 951 N.E.2d 743,
746 (2011), I agree with the district court that the
1999 Agreement is ambiguous under New York law. I

142a

think the following account of why the 1999
Agreement does not include the transfer of or license
in all or part of the Work is also reasonable:
The parties – DeVito/Nicholas “Massi”
Macioci,1 on the one side, and Valli/Gaudio on
the other – entered into the 1999 Agreement
to “authorize the creation of a musical stage
play based on the life and music of ‘The Four
Seasons,’” the singing group of which all four
were members, and the story of which
ultimately was reflected in the highly
successful musical “Jersey Boys.” The 1999
Agreement explains that “the authors of the
play [anticipated by the 1999 Agreement] may
wish to use or incorporate certain aspects of
your [ i.e., DeVito’s and Macioci’s] life related
to The Four Seasons including, by way of
example, your creative contributions,
biographies, events in your life, names and
likenesses (the ‘Materials’).” (Emphasis
added). DeVito and Macioci accordingly
granted to Valli and Gaudio “the exclusive
right to use and incorporate the Materials in
one or more theatrical productions.”
In other words, Valli and Gaudio purchased from
DeVito and Macioci the right to use “certain aspects”
of their lives, a category that is then illuminated by
several “example[s],” including “biographies.” In this
1

Nicholas “Massi” Macioci, an early member of “The Four
Seasons,” was also a signatory to the 1999 Agreement. He died in
2000, Nick Massi, Low Man in the Four Seasons, Dies at 73, N.Y.
Times, Jan. 8, 2001, http://www.nytimes.com/2001/01/08/ national/
08 MASS. html, however, and has no role in the current litigation.

143a

light, and taking the document as a whole as we must,
S. Rd. Assocs., LLC v. Int’l Bus. Machs. Corp., 4
N.Y.3d 272, 277, 793 N.Y.S.2d 835, 826 N.E.2d 806,
809 (2005), the term “biographies” is perhaps most
naturally read to refer to a “[p]ersonal history,” or “the
events or circumstances of a person’s life, viewed
collectively.” Oxford English Dictionary (3d ed.2010),
available at www.oed.com/view/Entry/19219. 2
“[B]iographies,” like “names and likenesses,” may
constitute aspects of both DeVito’s and Macioci’s lives,
rather than particular recordings of their lives.3 This
reading does not, as the majority suggests, Maj. Op. at
1062–63, threaten to offend the canon against
superfluity. *1070 “[T]he events or circumstances of a
person’s life, viewed collectively” are, by definition,
distinct from the events or circumstances themselves.

2

I would hesitate to give dispositive effect to the order in
which dictionary editors choose to rank their definitions, Maj. Op.
at 1062. Cf. Mastrovincenzo v. City of New York, 435 F.3d 78, 107
(2d Cir.2006) (Sack, J., concurring in part and dissenting in part)
(“I am generally reticent to invoke dictionary definitions, at least
in contexts perhaps unforeseen by their [anonymous] writers.”).
In any event, I note that the first listed definition in
Merriam–Webster’s refer to a biography as “usually” written,
suggesting that there are other appropriate uses of the term.
Merriam–Webster’s Collegiate Dictionary (11th ed.2003),
available at http://www.merriam-webster.com/ dictionary/
biography.
3

It may be worth noting, in this connection, that as far as
we are aware there was no written Macioci biography or
autobiography ever produced the rights to which could have been
included, although as a one-time member of the group, he was
likely mentioned in DeVito’s ghost-written autobiography. Insofar
as Macioci’s “biography” is concerned, then, it would seem likely
that “biography” meant the story of his life.

144a

A collective viewing may entail characterizing events
to form a trajectory or story arc, rather than a mere
collection of individual events.
Another definition of the word “biography,”
moreover, suggests that the parties did not necessarily
intend to include the Work in the rights granted under
1999 Agreement. A “biography,” or “bio,” may (and in
my experience in being asked for a “biography” or “bio”
in connection with some panel discussion, moot court,
or the like, very often does) refer to “a brief summary
of a person’s life and work.” Oxford English Dictionary
(3d ed.2010), available at www.oed.com/view/Entry/
19187; see also, e.g., Doe v. Merck & Co., 283 A.D.2d
543, 543, 725 N.Y.S.2d 356, 357 (2d Dep’t 2001)
(discussing a pharmaceutical company’s educational
brochure “which contained photographs and
biographies of HIV-positive individuals”); Charney v.
Sullivan & Cromwell LLP, 15 Misc.3d 1128(A), 841
N.Y.S.2d 217 (N.Y.Sup.Ct.2007) (discussing a law firm
website’s use of “biographies of [certain partners],
which list the partners’ clients and some of the deals
they have worked on”). This type of “brief summary,”
which a playwright might well draw upon, does not
seem to me to envision or require a manuscript of a
detailed biography that is hundreds of pages long.
In the absence of the manifestation of a contrary
intent among the parties, it may be preferable to apply
either of the foregoing definitions, rather than those
referring to written manuscripts, which might
inappropriately enlarge the general category of
“aspects of your life.” “When a particular class [ i.e.,
“aspects of your life”] is spoken of, and general words
[i.e., “biographies”] follow, the class first mentioned is
to be taken as the most comprehensive.” Bers v. Erie

145a

R.R. Co., 225 N.Y. 543, 546, 122 N.E. 456, 457 (1919)

(internal quotation marks omitted). Indeed, as a
general matter, we should be “extremely reluctant to
interpret an agreement as impliedly stating something
which the parties have neglected to specifically
include.” Rowe v. Great Atl. & Pac. Tea Co., 46 N.Y.2d
62, 72, 412 N.Y.S.2d 827, 385 N.E.2d 566, 572 (1978).
In short, the word “biographies” has here at least
three plausible meanings, only one of which covers the
Work. And the majority’s preferred reading is not the
only one that makes sense. See Maj. Op. at 1063–64.
The purpose of the 1999 Agreement was to facilitate
the creation and production of a theatrical work based
on DeVito’s or Macioci’s life story. Having transferred
his right in a single kind of derivative work, DeVito
may well have sought to retain the right to publish or
otherwise distribute other accounts of his life through
books, film, or other media. Cf. 17 U.S.C. § 106 (listing,
beside the right to prepare derivative works, the
copyright owner’s rights to reproduce, distribute copies
of, publicly perform, publicly display, or transmit the
copyrighted work). If under these circumstances,
however, DeVito creates a theatrical production based
on his life, he runs afoul of the 1999 Agreement and
may be liable to Valli and Gaudio.
In this context, leaving the Work outside the scope
of the 1999 Agreement makes a great deal of practical
sense. Having said nothing in the Agreement explicitly
about the Work, which had been in existence for more
than eight years, DeVito remained and remains free to
do with his autobiography (subject of course to his
obligations to the widow of Woodward, the person who
actually wrote it) what people normally try to do with
their memoirs (if anything): He can publish it,

146a

distribute copies, sell it, *1071 read excerpts at public
events, license movies and audiobooks, and so on, all
without worrying about breaching the Agreement.
However, if and only if he attempts to create a play or
other theatrical work based on his manuscript, he
would be hard-pressed to do so without including
events in his life, his life story, etc. He might then be
liable to Valli and Gaudio under the Agreement for
encroaching on the rights he gave them.
I would, therefore, agree with the district court
that the contract’s language is ambiguous. I think that
court erred, however, in admitting extrinsic evidence
to interpret the contract’s ambiguous language. The
question of ambiguity is a question of law to be
resolved by the court, but “[i]f there is ambiguity in the
terminology used, [ ] and determination of the intent
of the parties depends on the credibility of extrinsic
evidence or on a choice among reasonable inferences to
be drawn from extrinsic evidence, then such
determination is to be made by the jury.” Hartford
Accident & Indem. Co. v. Wesolowski, 33 N.Y.2d 169,
172, 350 N.Y.S.2d 895, 305 N.E.2d 907, 909 (1973). I
would remand this case to the district court for trial.
II
Assuming, despite the foregoing discussion, that
the 1999 Agreement does unambiguously include the
Work (or were a jury to find the Agreement includes
the Work despite the Agreement’s facial ambiguity),
the question arises: What kind of interest in the Work
does the 1999 Agreement transfer to Valli and Gaudio?
The majority concludes that the Agreement confers an
exclusive license or assignment. Maj. Op. at 1066. I
think Sybersound Records, Inc. v. UAV Corp., 517 F.3d

147a

1137 (9th Cir.2008), compels the conclusion, however,
that the Agreement would then confer a nonexclusive
license.4
In that case, TVT Music Publishing, a co-owner of
the copyright of certain songs, attempted to make
Sybersound, a karaoke record producer, the “exclusive
assignee and licensee of TVT’s copyrighted interests
for purposes of karaoke use, and also the exclusive
assignee of the right to sue to enforce the assigned
copyright interest.” Id. at 1142 (internal quotation
marks omitted). The other original co-owners of the
copyright, several record companies, did not join in
granting rights to Sybersound. Id. at 1146. When other
karaoke record producers used songs under license
from TVT to Sybersound without Sybersound’s
permission, Sybersound brought suit against the
producers for infringement. Id. at 1142. This Circuit
affirmed the district court’s dismissal of the complaint,
concluding that Sybersound lacked standing to sue
third-party infringers. Id. at 1146.
I agree with the majority’s analysis of Sybersound
except to the extent it concludes that DeVito was
legally capable of transferring to Valli and Gaudio an
exclusive license of any kind or description. According
to Sybersound, one co-owner of a copyright cannot
confer an exclusive license on a licensee because she or
he has no exclusive right to confer. Sybersound, 517
F.3d at 1146 (“[U]nless all the other co-owners of the
copyright joined in granting an exclusive right to
4

We are in accord, however, that the 1999 Agreement
confers the right to use the ‘Materials’ to create only one type of
derivative work, a theatrical production, Maj. Op. at 1064; the
only question is whether that right is exclusive or nonexclusive.

148a

Sybersound, TVT, acting solely as a co-owner of the
copyright, could grant only a nonexclusive license to
Sybersound because TVT may not limit the other
co-owners’ independent rights to exploit the
copyright.”) This conclusion may be in tension with
other elements of copyright law, as the majority *1072
avers, Maj. Op. at 1065–66, but courts and
commentators appear to be in universal agreement
that Sybersound stands for the proposition that “a coowner of a copyright cannot unilaterally alienate [its]
share of the intellectual property and instead can ‘only
grant a nonexclusive license’ to a third party.”
Brownmark Films, LLC v. Comedy Partners, 800
F.Supp.2d 991, 996 (E.D.Wis.2011) (quoting
Sybersound, 517 F.3d at 1146), aff’d on other grounds,
682 F.3d 687 (7th Cir.2012); see also, e.g., Amaretto
Ranch Breedables v. Ozimals Inc., 907 F.Supp.2d
1080, 1084 (N.D.Cal.2012) (similarly reading
Sybersound).
The facts of Sybersound are in an important
respect indistinguishable from those before us. Here,
as in Sybersound, a single co-owner (here, DeVito;
there, TVT) of a particular interest attempted to grant
an exclusive license to use a particular part of the
co-owner’s derivative work right (here, the right to
create a derivative theatrical work; there, the right to
create a derivative karaoke record) to third parties
(here, Valli and Gaudio; there, Sybersound). Here, as
in Sybersound, the single co-owner attempted to effect
this transfer without the consent of the other
co-owner(s) (here, Corbello; there, the record
companies).

Sybersound seems to me to mean that the transfer
from DeVito to Valli and Gaudio, like the transfer from

149a

TVT to Sybersound, effected a nonexclusive license.
DeVito, like TVT, “succeeded only in transferring what
[he] could under 17 U.S.C. § 201(d), a non-exclusive
license.” Sybersound, 517 F.3d at 1146. This
application of Sybersound does not “limit a co-owner’s
ability to transfer unilaterally any exclusive copyright
interests that he himself possesses.” Maj. Op. at 1066.
It does no more than recognize that DeVito had no
exclusive copyright interest in the derivative-work
right to a theatrical production to transfer in the first
place. Therefore, Valli and Gaudio had a nonexclusive
license, and Corbello’s sole accounting remedy lies
against DeVito. See 2 William F. Patry, Patry on
Copyright § 5.9 (2014) (“Where only one joint author
grants a nonexclusive license, the nongranting joint
author may not obtain an accounting from the
nonexclusive licensee since that licensee is not a joint
copyright owner. Instead, the nongranting joint author
must obtain the accounting from the granting joint
author.”).
Commentators
have
expressed
some
dissatisfaction with this aspect of Sybersound’s
holding.5 As a three-judge panel, we of course are
bound by circuit precedent.6 Miller v. Gammie, 335
For criticism of Sybersound, see Amaretto Ranch
Breedables v. Ozimals Inc., 907 F.Supp.2d 1080, 1084
(N.D.Cal.2012) (citing III Goldstein on Copyright § 15.5 (3d
ed.2011); 4 Nimmer on Copyright § 6.10 [A][2][d] (rev. ed.2012); 2
Patry on Copyright § 5:103 (2012)), in which it was noted that the
district court there had to, as we must, follow Sybersound
5

nonetheless.
6

The majority correctly observes that the circuit’s pre-

Sybersound precedent supports the conclusion “that copyrights

150a

F.3d 889, 899 (9th Cir.2003) (en banc). Nor can we
ignore the substantial similarity between the facts of
Sybersound and those of this case. We are, in my view,
required to treat Valli and Gaudio’s copyright interest
as a nonexclusive license.7 Just as this *1073 Court
rejected Sybersound’s claim against those who used
karaoke versions of songs contrary to Sybersound’s
purported exclusive right to do so because the
purported licensor (TVT) had no right to grant such
exclusive use to Sybersound in the first place, we
should reject the plaintiff’s accounting claim against
Valli and Gaudio.
III

are divisible and that a copyright owner can freely transfer any
portion of his ownership interests in that copyright.” Maj. Op. at
1064. But Sybersound reasoned that those ownership interests are
limited in the case of a co-owner, who “is not the exclusive owner”
of the copyright and thus can transfer only a nonexclusive license.
Sybersound, 517 F.3d at 1146.
7

I would reject the district court’s apparently newly
coined term “selectively exclusive license.” The court’s description
of the practical effects of DeVito’s failed attempt to transfer an
exclusive license seems to me correct under Sybersound. But,
under the principle of numerus clausus, I would avoid risking the
creation of a new form of copyright interest. See Thomas W.
Merrill & Henry E. Smith, Optimal Standardization in the Law of
Property: The Numerus Clausus Principle, 110 Yale L.J. 1, 3–4
(2000). If we were to fully describe the transaction between DeVito
and Valli and Gaudio, which we need not do in this case, I think
that transaction is better described in terms of an already existing
form of copyright interest (a nonexclusive license), plus a
contract-based promise by DeVito not to re-license the same rights
to anyone else.

151a

In sum, then, I would decide that the contract is
ambiguous as to whether the Work is included within
the Materials. Because the contract is ambiguous, the
district court erred by determining the meaning of the
contract on the basis of parol evidence at summary
judgment. I would therefore remand to the district
court for further proceedings. But it would vastly
simplify matters, I think, if in that case the district
court first decided the defendants’ summary judgment
motion arguing that Jersey Boys does not infringe the
Work as a matter of law in any event, see, e.g., Funky
Films, Inc. v. Time Warner Entm’t Co., L.P., 462 F.3d
1072, 1076–77 (9th Cir.2006), an issue which it
previously avoided by granting summary judgment on
contract grounds, Corbello v. DeVito, 844 F.Supp.2d
1136, 1154–55 (D.Nev.2012). That might be the end of
the matter as far as “Jersey Boys” Valli and Gaudio
are concerned irrespective of the difficult issues that
the majority and we address here.
Even if the 1999 Agreement unambiguously
included the Work, as the majority conclude, I would
decide that DeVito granted Valli and Gaudio only a
nonexclusive license to use the Work toward a
theatrical production. Corbello’s accounting action
properly lies, then, against DeVito, not Valli and
Gaudio, and the latter action must be rejected.

152a

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DONNA CORBELLO,

Plaintiff-Appellant,
v.
FRANKI VALLI, et al.,

Defendants- Appellees.
No. 17-16337
D.C. No. 2:08-cv-00867-RCJ-PAL
District of Nevada, Las Vegas
FILED NOV 13 2020
Molly C. Dwyer, Clerk
U.S. Court of Appeals
ORDER
Before: TASHIMA, W. FLETCHER, and BERZON,
Circuit Judges.
The panel has voted to deny appellant’s petition for
rehearing and petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for rehearing is denied and the
petition for rehearing en banc is rejected.

153a

APPENDIX G
STATUTORY PROVISIONS INVOLVED
The relevant provisions of the Copyright Act of
1976, as amended, Pub. L. No. 94-553, 90 Stat. 2541
(1976) (codified at 17 U.S.C. §§ 101, et seq.), are as
follows:
17 U.S.C. § 101
§ 101. Definitions
Except as otherwise provided in this title, as used in
this title, the following terms and their variant forms
mean the following:
****
A “compilation” is a work formed by the collection
and assembling of preexisting materials or of data
that are selected, coordinated, or arranged in such
a way that the resulting work as a whole
constitutes an original work of authorship. The
term “compilation” includes collective works.
****
“Copies” are material objects, other than
phonorecords, in which a work is fixed by any
method now known or later developed, and from
which the work can be perceived, reproduced, or
otherwise communicated, either directly or with
the aid of a machine or device. The term “copies”
includes the material object, other than a
phonorecord, in which the work is first fixed.
****
“Copyright owner,” with respect to any one of the

154a

exclusive rights comprised in a copyright, refers to
the owner of that particular right.
****
A work is “created” when it is fixed in a copy or
phonorecord for the first time; where the work is
prepared over a period of time, the portion of it
that has been fixed at any particular time
constitutes the work as of that time, and where
the work has been prepared in different versions,
each version constitutes a separate work.
****
A “derivative work” is a work based upon one or
more preexisting works, such as a translation,
musical arrangement, dramatization,
fictionalization, motion picture version, sound
recording, art reproduction, abridgment,
condensation, or any other form in which a work
may be recast, transformed, or adapted. A work
consisting of editorial revisions, annotations,
elaborations, or other modifications which, as a
whole, represent an original work of authorship, is
a “derivative work.”
****
“Literary works” are works, other than
audiovisual works, expressed in words, numbers,
or other verbal or numerical symbols or indicia,
regardless of the nature of the material objects,
such as books, periodicals, manuscripts,
phonorecords, film, tapes, disks, or cards, in which
they are embodied.
****

155a

To “perform” a work means to recite, render, play,
dance, or act it, either directly or by means of any
device or process or, in the case of a motion picture
or other audiovisual work, to show its images in
any sequence or to make the sounds accompanying
it audible.
****
“Publication” is the distribution of copies or
phonorecords of a work to the public by sale or
other transfer of ownership, or by rental, lease, or
lending. The offering to distribute copies or
phonorecords to a group of persons for purposes of
further distribution, public performance, or public
display, constitutes publication. A public
performance or display of a work does not of itself
constitute publication.
****
A “transfer of copyright ownership” is an
assignment, mortgage, exclusive license, or any
other conveyance, alienation, or hypothecation of a
copyright or of any of the exclusive rights
comprised in a copyright, whether or not it is
limited in time or place of effect, but not including
a nonexclusive license.
****
17 U.S.C. § 102
§ 102. Subject matter of copyright: In general
(a) Copyright protection subsists, in accordance
with this title, in original works of authorship
fixed in any tangible medium of expression, now
known or later developed, from which they can be
perceived, reproduced, or otherwise communicated,

156a

either directly or with the aid of a machine or
device. Works of authorship include the following
categories:
(1)

literary works;
****

(b) In no case does copyright protection for an
original work of authorship extend to any idea,
procedure, process, system, method of operation,
concept, principle, or discovery, regardless of the
form in which it is described, explained,
illustrated, or embodied in such work.
****
17 U.S.C. § 106
§ 106. Exclusive rights in copyrighted works
Subject to sections 107 through 122, the owner of
copyright under this title has the exclusive rights
to do and to authorize any of the following:
(1) to reproduce the copyrighted work in copies or
phonorecords;
(2) to prepare derivative works based upon the
copyrighted work;
(3) to distribute copies or phonorecords of the
copyrighted work to the public by sale or other
transfer of ownership, or by rental, lease, or
lending;
(4) in the case of literary, musical, dramatic, and
choreographic works, pantomimes, and motion
pictures and other audiovisual works, to perform

157a

the copyrighted work publicly;
(5) in the case of literary, musical, dramatic, and
choreographic works, pantomimes, and pictorial,
graphic, or sculptural works, including the
individual images of a motion picture or other
audiovisual work, to display the copyrighted work
publicly;
****
17 U.S.C. § 107
§ 107. Limitations on exclusive rights: Fair Use
Notwithstanding the provisions of sections 106
and 106A, the fair use of a copyrighted work,
including such use by reproduction in copies or
phonorecords or by any other means specified by
that section, for purposes such as criticism,
comment, news reporting, teaching (including
multiple copies for classroom use), scholarship, or
research, is not an infringement of copyright. In
determining whether the use made of a work in
any particular case is a fair use the factors to be
considered shall include(1)
the purpose and character of the use,
including whether such use is of a commercial
nature or is for nonprofit educational purposes;
(2)
the nature of the copyrighted work;
(3)
the amount and substantiality of the
portion used in relation to the copyrighted work
as a whole; and
(4) the effect of the use upon the potential
market for or value of the copyrighted work.

158a

The fact that a work is unpublished shall not itself
bar a finding of fair use if such finding is made
upon consideration of all the above factors.
****
17 U.S.C. § 204
§ 204. Execution of transfers of copyright
ownership
(a) A transfer of copyright ownership, other than
by operation of law, is not valid unless an
instrument of conveyance, or a note or
memorandum of the transfer, is in writing and
signed by the owner of the rights conveyed or such
owner's duly authorized agent.
****
17 U.S.C. § 501
§ 501. Infringement of copyright
(a) Anyone who violates any of the exclusive
rights of the copyright owner as provided by
sections 106 through 122 or of the author as
provided in section 106A(a), or who imports copies
or phonorecords into the United States in violation
of section 602, is an infringer of the copyright or
right of the author, as the case may be . . . .

